U.S. Department of Housing
and Urban Development
Office of Inspector General




Semiannual Report to Congress
April 1, 2010, through September 30, 2010
Profile of Performance
                                Audit profile of performance
                for the period April 1, 2010, through September 30, 2010
    Results                                                           This reporting period                FY 10 totals
    Recommendations that funds be put to better use1                        $225,136,232                   $813,264,347
    Recommended questioned costs1                                           $109,919,327                   $155,188,440
    Collections from audits                                                  $14,150,383                    $32,706,317
    Administrative sanctions                                                       3                              4


                            Investigation profile of performance
                for the period April 1, 2010, through September 30, 2010
    Results                                                           This reporting period                FY 10 totals
    Funds put to better use                                                 $40,252,087                     $76,756,637
    Recoveries/receivables                                                  $126,694,457                   $519,225,525
    Arrests2                                                                     781                           1,393
    Indictments/informations                                                     755                           1,235
    Convictions/pleas/pretrial diversions                                        389                            898
    Civil actions                                                                 79                            129
    Administrative sanctions3                                                    168                            371
    Suspensions                                                                   41                             90
    Debarments                                                                    49                             95
    Personnel actions4                                                            28                             58
    Search warrants                                                               57                             99
    Subpoenas issued                                                             1037                           1827


                               Hotline profile of performance
                for the period April 1, 2010, through September 30, 2010
    Results                                                           This reporting period                FY 10 totals
    Funds put to better use                                                    $933,674                     $1,297,454
    Recoveries/receivables                                                     $140,614                      $215,696


1
  This represents all cost transactions during the period in which dollar amounts were reported with any recommendation.
2
  Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
3
  Administrative sanctions include limited denial of participation, relocations, removal from program participation,
restraining orders, and systemic implication report submitted.
4
  Personnel actions include reprimands; suspensions; demotions; or terminations of the employees of Federal, State, or local
governments or of Federal contractors and grantees as the result of OIG activities.
                                                                                                                   iii
A Message from the Acting
Inspector General
                                       It is with great pleasure that I present the U.S. Department of
                                   Housing and Urban Development (HUD), Office of Inspector General’s
                                   (OIG) Semiannual Report to Congress, which summarizes the activities
                                   and accomplishments of our office for the second half of fiscal year
                                   2010. HUD OIG employees–auditors, agents, attorneys, analysts, and
                                   support staff–continue their critical efforts to improve the economy and
                                   efficiency of programs administered by HUD.

                                       This has been an exceedingly busy and productive period for our
                                   office. Our key divisions, working collaboratively in a cross-disciplinary
                                   fashion, have achieved significant results on behalf of HUD beneficiaries
                                   and American taxpayers. As an active partner in the Financial Fraud
                                   Enforcement Task Force, we have been at the forefront of getting the
                                   message out to our local communities about collaborative efforts across
                                   the government involving our State and local partners. Together, we are
                                   investigating and prosecuting significant financial crimes, ensuring swift
                                   punishment for those who seek unjust enrichment, recovering proceeds
                                   for those who are victimized, and addressing financial discrimination in
                                   the lending and financial markets.

    During the past 6 months, we have issued 115 audit reports with a total of 478 recommendations,
including monetary results totaling nearly $278 million. Our investigative work has resulted in 755
indictments; 389 convictions; 168 administrative actions; and more than $126 million in fines, restitutions,
and recoveries. We have also issued two inspections and evaluations reports: one on housing counseling
services and one on HUD’s Credit Watch system.

     During this reporting period, we have also focused on our enhanced Civil Fraud Initiative, to which we
have dedicated a cadre of forensic auditors. They are concentrating in a concerted fashion on recovering
ill-gotten gains from those who commit fraud against HUD programs.

    The implementation of the American Recovery and Reinvestment Act and its effectiveness are discussed
in our 28 audits of different entities, which looked at the capability and efficiency with which the money
was spent. Recommendations and improvements on the utilization of these funds are continually provided
to the Department.

    During this reporting period, we completed an initiative known as Operation Watch Dog. This effort
started in response to the Federal Housing Administration (FHA) Commissioner’s concern regarding
increased default rates against the FHA insurance fund for failed loans. In total, we reviewed 284 FHA
loans that were underwritten by 15 direct endorsement lenders to determine whether the loans were
underwritten in accordance with FHA requirements. We found that 140 of the 284 loans reviewed were not
underwritten in accordance with requirements. As a result, FHA’s insurance fund lost or has the potential
to lose nearly $11.2 million from this limited sample.

   We performed an internal audit of HUD’s Home Equity Conversion Mortgage (HECM) program to
determine whether HUD’s adoption and reversal of an informal foreclosure deferral policy for HECM loans



                                                                     A Message from the Acting Inspector General
iv
       that defaulted due to nonpayment of taxes and insurance had a negative effect on the HECM program.
       We found that HUD’s policy did have a negative effect on the universe of HECM loans and loan servicers.
       As a result, four servicers contacted were holding almost 13,000 defaulted loans with a maximum claim
       amount of more than $2.5 billion, and two of the four servicers said that they were awaiting HUD guidance
       on how to handle them. Further, the servicers had paid taxes and insurance premiums totaling more than
       $35 million for these 12,958 borrowers, and if HUD does not take action, additional payments will be made
       in the next 12 months.

          On another front, a key HUD OIG investigation exemplifies our commitment to pursuing fraud
       perpetuated against FHA’s mortgage insurance program. Lee Farkas, a former chairman of Taylor, Bean
       & Whitaker Mortgage Corporation (TBW), an FHA-approved direct endorsement lender and Government
       National Mortgage Association (Ginnie Mae) issuer, was arrested after his indictment in U.S. District
       Court, Ocala, FL, for allegedly committing conspiracy and bank, wire, and securities fraud. Farkas and
       others were indicted for allegedly selling phony or previously pledged loans to investors in the secondary
       mortgage market and causing TBW to submit false statements to HUD and Ginnie Mae. HUD and these
       programs experienced almost $2 billion in losses.

           Our investigators have also been focused on public corruption. The former Alamosa Housing Authority
       executive director and others were collectively sentenced in U.S. District Court, Denver, CO, to 37 months
       incarceration, 3 years supervised release, and 5 years probation and ordered to pay HUD nearly $640,000 in
       restitution for their earlier guilty pleas to committing theft by generating unauthorized housing authority
       checks.

           These examples of our audits and investigations show the exceptional work done by our staff, which
       has resulted in a significant positive impact on fraud and against misuse of taxpayer dollars. Our staff also
       conducted approximately 60 fraud and prevention awareness briefings to thousands of participants at all
       levels of government and industry in an effort to educate the public regarding improper activities. I am
       grateful to all of our employees nationwide who worked so tirelessly during this period.

           The continuing evolvement of OIG operations comes at an especially important time for the oversight
       community. Every day, HUD OIG increases its dedication and commitment to becoming a more efficient
       and effective organization, which enables us to become better at recovering taxpayer dollars and working
       with our partners to bring those to justice who would seek to harm our vital programs. We look forward
       to continuing to fulfill our important responsibilities and working with Congress in overseeing these vital
       programs which support our Nation’s citizenry.




           Michael P. Stephens
           Acting Inspector General




     A Message from the Acting Inspector General
                                                                                                                          v
                                    Audit reports issued by program


                                                                              Single-family housing, 24%
                                                                              Multifamily housing, 3%
                                                                              Public and Indian housing, 36%
                                                                              Community planning and 	
                                                                              development, 29%
                                                                              Other programs, 8%




                          Audit monetary benefits identified by program


                                                                              Single-family housing, 15%
                                                                              Multifamily housing, 2%
                                                                              Public and Indian housing, 24%
                                                                              Community planning and 	
                                                                              development, 54%
                                                                              Other programs,* 5%




* Other programs include financial and information system audits.


                     Audit monetary benefits identified in millions of dollars

                                                                           $183.0
        $200
        $180
        $160
        $140
        $120                                                 $79.3
        $100
         $80            $51.1
         $60                                                                                $18.2
         $40                               $5.1
         $20
          $0       Single-family     Multifamily        Public and     Community          Other
                      housing         housing         Indian housing   planning and     programs
                                                                       development




                                                                                                           Audit Charts
vi
                            Investigative cases opened by program area (total: 711)



                                                                Single-family housing, 34% (240)
                                                                Public and Indian housing, 41% (291)
                                                                Multifamily housing, 8% (55)
                                                                Community planning and 	
                                                                development, 9% (67)
                                                                Other, 8% (58)




                  Investigative recoveries by program area (total: $126,694,457)


                                                                Single-family housing, 88%
                                                                ($111,975,850)
                                                                Public and Indian housing, 8%
                                                                ($10,308,337)
                                                                Multifamily housing, 2% ($1,910,932)
                                                                Community planning and 	
                                                                development, 2% ($2,283,104)
                                                                Other, 0% ($216,234)




                            Investigative cases closed by program area (total: 331)



                                                                Single-family housing, 22% (72)
                                                                Public and Indian housing, 43% (143)
                                                                Multifamily housing, 9% (29)
                                                                Community planning and 	
                                                                development, 15% (51)
                                                                Other, 11% (36)




     Investigation Charts
                                                                                            vii
Acronyms List
AIGA		        Assistant Inspector General for Audit
AIGI		        Assistant Inspector General for Investigation
ARIGA	        Assistant Regional Inspector General for Audit
ARRA		        American Recovery and Reinvestment Act of 2009
ASAC		        Assistant Special Agent in Charge
CDBG		        Community Development Block Grant
CFR		         Code of Federal Regulations
CPD		         Office of Community Planning and Development
DRGR		        Disaster Recovery Grant Reporting system
FEMA		        Federal Emergency Management Agency
FERA		        front-end risk assessment
FFI		         Fugitive Felon Initiative
FFMIA		       Federal Financial Management Improvement Act of 1996
FHA		         Federal Housing Administration
FICO		        Fair Isaac Credit Organization
FISMA		       Federal Information Security Management Act
FY		          fiscal year
Ginnie Mae	   Government National Mortgage Association
HECM		        home equity conversion mortgage
HERA		        Housing and Economic Recovery Act of 2008
HOME		        HOME Investment Partnerships Program
HOPWA	        Housing Opportunities for Persons with AIDS
HUD		         U.S. Department of Housing and Urban Development
IDIS		        Integrated Disbursement and Information System
IG		          Inspector General
IRS		         Internal Revenue Service
IT		          information technology
NAHRO	        National Association of Housing and Redevelopment Officials
NSP		         Neighborhood Stabilization Program
OIG		         Office of Inspector General
OMB		         Office of Management and Budget
PFCRA		       Program Fraud Civil Remedies Act
PHA		         public housing agency
PIH		         Office of Public and Indian Housing
RIGA		        Regional Inspector General for Audit



                                                                            Acronyms List
viii
         SA		          Special Agent
         SAC		         Special Agent in Charge
         SSA		         Social Security Administration
         SSN		         Social Security number
         U.S.C.		      United States Code
         USDA		        United States Department of Agriculture




       Acronyms List
                                                                                                            ix
Table of Contents
Executive Highlights 											                                                                 	 1
Chapter 1 - HUD’s Single Family Housing Programs        		                                         7	
	     Audit        												                                                                    8	
	     Investigations                             						                                           16 	
	     Inspections and Evaluations 									                                                       29
Chapter 2 - HUD’s Public and Indian Housing Programs 						                                       31	
	     Audit       										                                                            	         32	
	     Investigations 									                            		                                      42
Chapter 3 - HUD’s Multifamily Housing Programs 		                                                 57	
	     Audit       											                                                                     58	
	     Investigations 											                                                                  61
Chapter 4 - HUD’s Community Planning and Development Programs 				                                65	
	     Audit       											                                                                     66	
	     Investigations                                   					                                      74
Chapter 5 - American Recovery and Reinvestment Act of 2009 					                                  79	
	     Introduction and Background								                                                         80 	
	     Audit			                                                                                    81
Chapter 6 - Disaster Grant Programs 								                                                      91	
	     Introduction and Background 								                                                        92 	
	     Audit             								           	                                                	     93 	
	     Investigations 									                                                                    97
Chapter 7 - Other Significant Audits and Investigations/OIG Hotline 				                         105	
	     Audit       											                                                                    106	
	     Investigations											                                                                  109	
	     OIG Hotline      										                                                                110
Chapter 8 - Outreach Efforts                  							                                            113
Chapter 9 - Review of Policy Directives 								                                                 129	
	     Enacted Legislation					              					                                                130	
	     Notices and Policy Issuances       							                                                 130
Chapter 10 - Audit Resolution  									                                                         131	
	     Audit Reports Issued Before the Start of the Period With No Management Decision   	        132	
	     Significantly Revised Management Decisions		                 				                          134	
	     Significant Management Decision With Which OIG Disagrees       				                        136 	
	     Federal Financial Management Improvement Act of 1996 					                                 138
Appendix 1 - Peer Review Reporting									                                                      139
Appendix 2 - Audit Reports Issued 									                                                      141
Appendix 3 - Tables 											                                                                  151
Appendix 4 - Index 											                                                                   171
HUD OIG Operations Telephone Listing 								                                                    175




                                                                                        Table of Contents
x
      Reporting Requirements
      The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by
      the Inspector General Act of 1988, are listed below:
      Source/Requirement              							                                                 		         pages
      Section 4(a)(2)-review of existing and proposed legislation and regulations.			                          130
      Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to	        1-111, 130	
      the administration of programs and operations of the Department.
      Section 5(a)(2)-description of recommendations for corrective action with respect to		                 7-111	
      significant problems, abuses, and deficiencies.
      Section 5(a)(3)-identification of each significant recommendation described in          Appendix 2, Table B
      previous semiannual report on which corrective action has not been completed.		
      Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                     	   7-111
      prosecutions and convictions that have resulted.
      Section 5(a)(5)-summary of reports made on instances in which information or            No Instances	
      assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of 				
      the Act.
      Section 5(a)(6)-listing of each audit report completed during the reporting period and    Appendix 1
      for each report, where applicable, the total dollar value of questioned and unsupported 			
      costs and the dollar value of recommendations that funds be put to better use.
      Section 5(a)(7)-summary of each particularly significant report and the total dollar value             7-111 	
      of questioned and unsupported costs.
      Section 5(a)(8)-statistical tables showing the total number of audit reports and the    Appendix 2, Table C 	
      total dollar value of questioned and unsupported costs. 					
      Section 5(a)(9)-statistical tables showing the total number of audit reports Appendix 2, Table D
      and the dollar value of recommendations that funds be put to better use by 					
      management.
      Section 5(a)(10)-summary of each audit report issued before the commencement   Appendix 2, Table A 	
      of the reporting period for which no management decision had been made by the 		              		
      end of the period.
      Section 5(a)(11)-a description and explanation of the reasons for any 			                                134
      significant revised management decisions made during the reporting period.
      Section 5(a)(12)-information concerning any significant management decision with which the                 136	
      Inspector General is in disagreement.
      Section 5(a)(13)-the information described under section 05(b) of the Federal Financial                 138	
      Management Improvement Act of 1996.




    Reporting Requirements
Executive
Highlights
2
      Strategic Initiative 1
        HUD Strategic Goal: Strengthen the Nation’s Housing Market to Bolster
        the Economy and Protect Consumers
        OIG Strategy: Contribute to the increase of effectiveness in the single-family insurance programs
        through
        •	 Audits uncovering single-family and loan origination abuse
        •	 Audits of the U.S. Department of Housing and Urban Development’s (HUD) internal policies to
           determine whether controls are adequate
        •	 Strategy for civil fraud initiatives
        •	 National strategy for single-family mortgage fraud task forces
        •	 Outreach to industry and consumer groups and the Department

        Highlights: Results or impact of significant OIG work
        •	 OIG completed an initiative known as Operation Watchdog, which consisted of a review            page 9
             of the underwriting process of 15 direct endorsement lenders to determine whether
             loans were processed in accordance with Federal Housing Administration (FHA)
             requirements. Audits of another seven FHA single-family mortgage lenders found that
             lenders did not follow HUD requirements when underwriting loans and performing
             quality control procedures.
        •	   OIG audited HUD’s Home Equity Conversion Mortgage (HECM) program to determine                 page 9
             whether HUD’s adoption and reversal of its informal foreclosure policy had a negative
             effect on the HECM program.
        •	   Lee Farkas was arrested and charged with allegedly committing bank, wire, and                page 17
             securities fraud and allegedly causing HUD and the Government National Mortgage
             Association (Ginnie Mae) losses in excess of $1.9 billion.
        •	   A Texas couple was collectively sentenced to 89 years incarceration after admitting to       page 17
             committing more than $4.3 million in mortgage fraud.
        •	   A Georgia man admitted to committing a conspiracy and aggravated identity fraud in a         page 23
             reverse mortgage scheme that caused HUD more than $1 million in losses.
        •	   Anchor Mortgage and its president were found liable and ordered to pay the U.S.              page 24
             Department of Justice more than $2.9 million for violating the False Claims Act.
        •	   HECM fraud was described for more than 75 mortgage regulators meeting in Memphis,           page 114
             TN.
        •	   Resources for civil and criminal mortgage fraud investigations were provided to more        page 114
             than 80 civil attorneys from the U.S. Attorney’s Office.
        •	   Mortgage fraud was described for more than 400 Mortgage Bankers Association            pages 114-117
             members in Chicago, IL, Fort Worth, TX, and Williston, VT.

        Emerging Issues: Areas of OIG interest

        •	   Dramatic increase in lenders/brokers/issuers seeking to do business with FHA and Ginnie Mae
        •	   FHA and Ginnie Mae’s ability and capacity to oversee its expanding market share
        •	   Effectiveness in loan modification in the prevention of foreclosures
        •	   Review of mortgage servicers’ processing of foreclosures
        •	   Continued concerns for the health and soundness of the FHA fund




    Executive Highlights
Strategic Initiative 2                                                                                           3


HUD Strategic Goal: Meet the Need for Quality Affordable Rental Homes

OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance programs
through
•	 The American Recovery and Reinvestment Act (ARRA) – to focus on grantees’ administration of
     ARRA funds
•	 Reducing erroneous payments
•	 Contributing to improving the performance of entities managing rental assistance programs
•	 Investigative initiatives involving corruption in the management of troubled public housing
     authorities and multifamily developments
•	 Public and Departmentwide outreach initiatives

Highlights: Results or impact of significant OIG work
•	 Audits of 14 Section 8 Housing Choice Voucher and leased housing activities found               page 33
     that the housing agencies were not following HUD’s requirements for administering
     the program.
•	   The former Alamosa Housing Authority executive director and another individual                page 43
     were sentenced to 37 months incarceration for their earlier guilty pleas to committing
     theft from a program receiving Federal funds or money laundering.
•	   Former Blackfeet Housing Authority employees were sentenced to 26 months                      page 44
     incarceration for stealing housing authority funds.
•	   Fourteen Palm Beach County Housing Authority housing recipients were arrested and             page 47
     charged with allegedly committing housing assistance fraud.
•	   A former HUD multifamily contractor pled guilty to soliciting more than $500,000              page 62
     in kickbacks in exchange for HUD-subsidized multifamily housing development
     contracts.
•	   OIG completed 28 ARRA-related reviews of how HUD is administering the program                 page 81
     and/or how the grantees are administrating the ARRA-related funds.
•	   Presentations that described HUD OIG’s priorities, past results, and future objectives      page 118
     were given to more than 500 individuals attending a “Sustainable Homes and
     Communities” conference in Fargo, ND
•	   Presentations describing HUD OIG’s mission, priorities, and housing assistance         pages 120-121
     fraud were given to more than 450 National Association of Housing and
     Redevelopment Officials meeting in Indiana, Idaho, Colorado, Missouri, South
     Dakota, Arkansas, New Hampshire, Michigan, and Delaware
•	   OIG continued to follow up with the Department on the need to change legislation            page 132
     pertaining to HUD’s requirements prohibiting lifetime registered sex offenders from
     admission to HUD-subsidized housing.
•	
Emerging Issues: Areas of OIG interest
•	 Rental assistance fraud initiatives targeting public housing agencies in receivership or on the HUD
     troubled list
•	 Eligibility of grantee expenditures, particularly ARRA
•	 HUD’s oversight of grantee ARRA expenditures




                                                                                          Executive Highlights
4
      Strategic Initiative 3
        HUD Strategic Goal: Build Inclusive and Sustainable Communities Free From
        Discrimination
        OIG Strategy:
        •	 Promote integrity, efficiency, and effectiveness of programs
        •	 Contribute to the reduction of fraud, waste, and abuse
        •	 ARRA - focus on grantees’ execution and administration of Neighborhood Stabilization Program
             (NSP) and Community Development Block Grant (CDBG) grantees
        •	 Audits of the CDBG, Supportive Housing, and HOME Investment Partnerships (HOME) programs
        •	 Audits of disaster activities
        •	 Investigative initiative to fight corruption in the administration of State or local community grant
             recipients
        •	 Disaster relief fraud in HUD CDBG-funded programs
        •	 Public dissemination of HUD OIG activities and outreach activities with State and local
             government agencies and other community affairs agencies

        Highlights: Results or impact of significant OIG work
        •	 OIG reviewed several housing authorities to ensure that the authorities maintained their       page 33
             Housing Choice Voucher program units within housing quality standards.
        •	   OIG reviewed the HOME program of the Puerto Rico Department of Housing and found             page 68
             that the Department did not have adequate controls and procedures to ensure that HOME-
             funded activities met program objectives.
        •	   OIG conducted eight NSP I reviews during the period to determine whether the grantees        page 71
             were properly obligating the NSP I funds in accordance with the Housing and Economic
             Recovery Act of 2008. OIG found that the grantees were not properly obligating the funds.
        •	   A California escrow administrator pled guilty to committing embezzlement involving $3.9      page 75
             million in HUD CDBG funds, including $22,000 in City of Pomona, CA, ARRA funds.
        •	   Two Florida Agriculture and Mining University Federal Credit Union administrators were       page 75
             indicted for allegedly conspiring and embezzling HUD Historically Black College grant
             funds.
        •	   Alleged false lead inspection reports involving HUD-subsidized multifamily housing           page 76
             developments led to charges against two individuals, one a former HUD employee and
             both current building inspectors for the City of Detroit, MI.
        •	   A former HUD attorney and her husband each pled guilty to stealing $150,000 in HUD           page 97
             CDBG Disaster Recovery Assistance funds from the Mississippi Development Authority.
        •	   A Louisiana Road Home program recipient was charged with allegedly stealing $150,000         page 98
             in HUD CDBG Disaster Recovery Assistance funds and more than $245,000 in disaster
             assistance from the Small Business Administration and Federal Emergency Management
             Agency.
        •	   HUD OIG hosted a number of mortgage fraud working group meetings in Chicago, IL.            page 115
        •	   Special agents provided an overview of HUD OIG operations for more than 100 CDBG            page 123
             grantees attending a training seminar in Jefferson City, MO.

        Emerging Issues: Areas of OIG interest

        •	 Audits and investigations of ARRA funding and NSP
        •	 Review of Green Retrofit activities
        •	 Focus on infrastructure projects



    Executive Highlights
Strategic Initiative 4                                                                                        5


HUD Strategic Goal: Transform the Way HUD Does Business

OIG Strategy:
•	 Be a relevant and problem-solving advisor to the Department
•	 Contribute to improving HUD’s execution of and accountability for fiscal responsibilities
   through
•	 Referring audits and investigations to the departmental Mortgagee Review Board and other
     management officials to ensure the accountability of individuals and firms committing fraud
•	   Referring audits and investigations to the U.S. Department of Justice for civil enforcement
•	   Audits of HUD’s financial statements
•	   Audits of HUD’s information systems and security management
•	   Participating in the U.S. Department of Justice Financial Fraud Task Force

Highlights: Results or impact of significant OIG work
•	 A real estate closing attorney in Newark, NJ, was debarred from transactions with           page 19
     HUD and the Federal Government for 60 months.
•	 Ideal Mortgage Bankers, doing business as Lend America, was issued a permanent              page 24
   civil injunction and ordered to refrain from participating in any Federal program
   involving mortgage loans.
•	 Former Alamosa Housing Authority employees and others were suspended or                     page 43
   debarred after they admitted committing theft from a program receiving Federal
   funds or money laundering.
•	 HUD OIG audited HUD’s procedures for administrating completed and expired                 page 106
   contracts to determine whether HUD performed contract closeout procedures in a
   timely manner.
•	 HUD OIG recommended collection of nearly $2.8 million in damages and penalties            page 107
   awarded against Anchor Mortgage Corporation in violation of the False Claims Act.

Emerging Issues: Areas of OIG interest
•	 Issuer accountability in loan portfolio defaults in the Ginnie Mae Mortgage-Backed Securities
   program
•	 Continued modernization and enhancement of HUD’s information systems
•	 Contracts and procurement acquisition




                                                                                       Executive Highlights
   Chapter 1
  Single-Family
Housing Programs
8
          The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance
      to mortgage lenders that, in turn, provide financing to enable individuals and families to purchase,
      rehabilitate, or construct homes. In addition to the audits and investigations described in this chapter,
      the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), has
      conducted a number of outreach efforts (see chapter 8, page 114).


      Audit
                         Strategic Initiative 1: Contribute to the reduction of fraud
                                     in single-family insurance programs
       Key program results                                        Questioned costs        Funds put to better use
               Audit                   28 audits                     $11.4 million             $39.6 million
                Our                 Page 9        •	 Review of HUD’s Home Equity Conversion Mortgage program
               focus                Page 9        •	 Operation Watch Dog - Review of loan underwriting process
                                    Page 11       •	 HUD’s single-family program automated underwriting process
                                    Page 11       •	 Mortgagees, loan correspondents, and direct endorsement lenders
                                    Page 13       •	 Review of consumer credit counseling services
                                    Page 14       •	 Review of HUD’s management and marketing contractors for real
                               		                    estate-owned properties
                                Page 15           •	 Review of HUD’s single-family renewal process
                                    Page 15       •	 Review of HUD’s Office of Lender Activities and Program
                                                     Compliance


                   Chart 1.1: Percentage of OIG single-family housing audit reports
                                    during this reporting period




                                                                                            Region 1 - 3%
                                                                                            Region 2 - 18%
                                                                                            Region 3 - 4%
                                                                                            Region 4 -4%
                                                                                            Region 5 - 29%
                                                                                            Region 6 - 7%
                                                                                            Regions 7/8/10 - 14%
                                                                                            Region 9 - 21%
                                                                                            Region 11 - (N/A)*




      * This does not include disaster relief audits. See chapter 6 for these reviews.


    Chapter 1 - Single-Family Housing Programs
                                                                                                                 9
Review of HUD’s Home Equity Conversion Mortgage Program

   The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
performed an internal audit of HUD’s Home Equity Conversion Mortgage (HECM) program to determine
whether HUD’s adoption and reversal of an informal foreclosure deferral policy for HECM loans that
defaulted due to nonpayment of taxes and insurance had a negative effect on the HECM program.

    HUD’s informal foreclosure deferral policy and its reversal had a negative effect on the universe of
HECM loans and loan servicers. After cancelling its informal policy, HUD did not issue guidance to
servicers advising them of what actions to take regarding defaulted loans. Thus, servicers continued to
service the loans and paid the taxes and insurance for the borrowers, but they did not notify HUD. As a
result, four servicers contacted were holding almost 13,000 defaulted loans with a maximum claim amount
of more than $2.5 billion, and two of the four servicers said that they were awaiting HUD guidance on
how to handle them. Further, the servicers had paid taxes and insurance premiums totaling more than $35
million for almost 13,000 borrowers, and if HUD does not take action, additional payments will be made
in the next 12 months.

    HUD also could not identify the deferred or defaulted loans in the Single Family Data Warehouse and
did not track the number of borrowers who were unable to pay their property taxes or insurance premiums.
As a result, HUD did not know how many loans had principal amounts increasing because the servicer
had added payments for taxes and insurance to the loan amount. Since unreported defaulted loans were
only obtained from 4 of 16 HECM servicers nationwide, more defaulted loans may exist. Further, as HUD
could not track these loans, it did not know the potential claim amount. In the event of foreclosure of the
nearly 8,000 loans of which HUD was aware and almost 13,000 loans of which it was not aware, HUD
could lose an estimated $1.4 billion upon sale of the properties.

    OIG recommended that HUD (1) discontinue the practice of deferring foreclosure due to nonpayment
of taxes and insurance; (2) issue formal guidance to servicers regarding loans currently in default due to
nonpayment of property taxes and insurance, including requiring the servicers to foreclose if the borrowers
do not pay the delinquent taxes and insurance; (3) develop and implement a plan to minimize the risk
of future defaults due to nonpayment of taxes and insurance; and (4) develop a tracking and reporting
system, including making modifications to the Single Family Data Warehouse, to ensure that HUD can
track the defaulted loans and the amounts paid by the borrowers. (Audit Report: 2010-FW-0003)


Operation Watch Dog - Review of Loan Underwriting Process

    During the reporting period, HUD OIG completed an initiative known as Operation Watch Dog. This
initiative started in response to the Federal Housing Administration (FHA) Commissioner’s concern
regarding the increasing default rates against the FHA insurance fund for failed loans.

    The initiative consisted of a review of the underwriting process of 15 direct endorsement lenders. The
results of our review are summarized in the chart below.




                                                                    Chapter 1 - Single-Family Housing Programs
10
           Lender       Location         OIG          Issue date     Loans    Number        Actual or       Potential
                                      memorandum                   reviewed   deficient     potential   affirmative civil
                                        number                                 loans      loss to HUD     enforcement
        1st Advantage Lombard, IL 2010-CH-1806        07/15/10        20          8        $325,452         $710,904
        Mortgage,
        LLC

        Birmingham     West           2010-CH-1807    07/21/10        20          9        $643,340        $1,354,180
        Bancorp        Bloomfield,
        Mortgage       MI
        Corporation

        Mac-Clair      Flint, MI      2010-CH-1808    07/22/10        20          7        $562,551        $1,177,602
        Mortgage
        Corporation

        Alacrity       Southlake,     2010-LA-1803    07/26/10        20         19        $1,599,529      $3,341,558
        Lending        TX
        Company

        Dell Franklin Millersville,   2010-CH-1810    07/30/10        20          3        $542,330        $1,107,160
        Financial,    MD
        LLC

        D&R            Farmington     2010-CH-1811    08/04/10        15          9        $936,572        $1,940,644
        Mortgage       Hills, MI
        Corporation

        Assurity      Englewood,      2010-LA-1804    08/05/10        20          8        $1,180,997      $2,421,992
        Financial     CO
        Services, LLC
                                      2010-LA-1805    08/06/10        19         12        $741,498        $1,572,996
        Americare      Arlington,
        Investment     TX
        Group
                                      2010-LA-1806    08/24/10        12          9        $492,239        $1,051,978
        American      Sugar Creek,
        Sterling Bank MO

        Webster        Cheshire,      2010-NY-1805    09/01/10        20          6        $516,990        $1,078,980
        Bank           CT

        Alethes,       Lakeway,       2010-LA-1807    09/08/10        20         19        $1,056,447      $2,255,394
        LLC            TX

        Security      Edison, NJ      2010- NY-1806   09/22/10        20          6        $553,730        $1,152,460
        Atlantic
        Mortgage
        Company, Inc.

        First          Memphis,       2010-NY-1807    09/27/10        18          5        $435,574         $908,648
        Tennessee      TN
        Bank, N.A.

        Pine State     Atlanta, GA    2010-NY-1808    09/29/10        20         14        $1,095,202      $2,295,404
        Mortgage
        Corporation

        Sterling      Great Neck,     2010-NY-1809    09/30/10        20          6        $508,823        $1,062,646
        National      NY
        Mortgage
        Company, Inc.

                                                        Total        284        140       $11,191,274     $23,432,546




     Chapter 1 - Single-Family Housing Programs
                                                                                                                  11
HUD’s Single-Family Program Automated Underwriting Process
   HUD OIG audited HUD’s automated underwriting process to assess whether HUD had in place
appropriate and effective management controls over the process.

    HUD did not have appropriate and effective management controls in place over its automated
underwriting process. Specifically, it implemented changes to the FHA Technology Open to Approved
Lenders Scorecard’s (Scorecard) review rules without properly assessing the associated risk and appropriately
documenting the changes. As a result, loans valued at more than $6.1 billion were automatically approved for
FHA insurance despite having debt ratios that exceeded established thresholds for automated underwriting.
Without evaluating the risks associated with the higher ratios allowed by the automated underwriting
system, HUD cannot provide assurance regarding whether these loans had conditions that might have
posed an increased risk of loss to the FHA insurance fund.

     In addition, HUD did not perform adequate monitoring of its automated underwriting process, including
the use of authority to override automatic referrals for manual underwriting. These problems allowed
automatic approval of 29,325 loans with FHA-insured unpaid mortgage balances totaling more than $6.1
billion and posed an unknown risk to the FHA insurance fund because HUD failed to document a risk
analysis and authorization to support the ratio review rule changes.

    Additionally, FHA insured 1,073 loans that were flagged by the automated underwriting process for
unknown reasons yet were automatically approved without HUD’s being able to clearly determine whether
the loans had passed all system tests and edit checks in the automated underwriting process or failure to
pass was appropriately overridden. The projected loss to the FHA insurance fund for the 1,073 loans was
$1.8 million for an outstanding balance of more than $249 million.

    OIG recommended that HUD develop or expand, as applicable, and implement written policies and
procedures for (1) assessing the risk of proposed changes to the Scorecard’s algorithm and review rules; (2)
formally supporting, authorizing, and updating corresponding system documents for changes made to the
automated underwriting process; and (3) continuous monitoring of the automated underwriting process
through the normal course of business, including the use of authority to override automatic referrals and,
as applicable, periodic reviews, reconciliations, or comparisons of the automated underwriting processed
data. Additionally, OIG recommended that HUD conduct a risk analysis to determine the appropriate
front-end and back-end ratios for the Scorecard’s review rules and institute the appropriate changes. OIG
determined that the full contents of this report would not be appropriate for public disclosure and released
a redacted version to the public. (Audit Report: 2010-LA-0002)

Mortgagees, Loan Correspondents, and Direct Endorsement
Lenders
    Audits to uncover loan origination abuses by single-family lenders continued to be a priority during this
semiannual period. Lenders are targeted for audit through the use of data mining techniques, along with
prioritizing audit requests from outside sources. During this period, in addition to the Operation Watch
Dog lenders, HUD OIG reviewed seven FHA single-family mortgage lenders. While the objectives varied
by auditee, the majority of the reviews were to determine whether the auditees originated FHA-insured
loans in accordance with HUD requirements. The following section illustrates some of the audits conducted
in the single-family mortgage lender area.

                                                   ppp




                                                                     Chapter 1 - Single-Family Housing Programs
12
           HUD OIG audited Lendamerica Home Loans, Inc., an FHA-approved direct endorsement lender located
       in Coral Gables, FL, and found that Lendamerica did not follow HUD requirements when underwriting
       the five loans reviewed. HUD insured the loans, which unnecessarily placed the FHA insurance fund at
       risk for more than $1 million. Lendamerica did not ensure the accuracy, validity, and completeness of its
       loan originations. In addition, it did not implement a quality control program that complied with HUD
       requirements. As a result, the effectiveness of Lendamerica’s quality control program in guarding against
       errors, omissions, and fraud and protecting HUD from unacceptable risk was diminished and could result
       in an increased risk to the FHA insurance fund.

           OIG recommended that HUD require Lendamerica to (1) indemnify it for the five insured loans with
       significant deficiencies, (2) pay down the loan balance for two overinsured loans, and (3) implement and
       enforce controls to ensure that loans are processed in accordance with HUD requirements. OIG also
       recommended that HUD take appropriate measures to ensure that Lendamerica develops and implements
       a quality control program that complies with HUD requirements and refer it to the Mortgagee Review Board
       for consideration of taking appropriate administrative actions. (Audit Report: 2010-AT-1005)

                                                          ppp

            HUD OIG audited National Bank of Kansas City in Overland Park, KS, and found that National Bank did
       not follow HUD’s requirements regarding income, liability, and asset determination in 4 of the 16 defaulted
       loans reviewed. These loans had material underwriting deficiencies that affected the insurability of the
       loans. In addition, National Bank did not comply with HUD’s quality control requirements. Specifically,
       its plan lacked elements required by HUD, and it did not ensure that its quality control reviews met HUD
       requirements.

            OIG recommended that HUD require National Bank to indemnify it for two actively insured loans with
       unpaid principal balances totaling nearly $386,000 and future losses on two loans with unpaid principal
       balances totaling nearly $281,000. Also, OIG recommended that HUD verify that National Bank provides
       its underwriters with additional training on its new procedures and properly performs its quality control
       function. (Audit Report: 2010-KC-1005)

                                                          ppp

           HUD OIG audited Access National Mortgage Corporation in Denver, CO, and found that Access National
       generally complied with HUD regulations, procedures, and instructions in the origination and underwriting
       of the 23 insured loans reviewed. However, it did not comply with HUD regulations, procedures, and
       instructions for two loans it submitted to HUD for insurance endorsement. It submitted the loans, totaling
       more than $410,000, for endorsement when the loan payments were not current.

           OIG recommended that HUD (1) require Access National to indemnify it for any future losses on the
       two loans that were incorrectly submitted and (2) ensure that Access National implements policies to ensure
       that loans are current when submitted to HUD for endorsement. (Audit Report: 2010-DE-1004)

                                                          ppp

           HUD OIG audited New England Regional Mortgage Corporation in Salem, NH, and found that the
       Corporation generally complied with HUD requirements in the origination of FHA-insured single-family
       loans. In addition, its quality control plan, as implemented, fulfilled HUD’s requirements. However, one loan
       had significant underwriting deficiencies, including improperly documented borrower income, an omitted
       liability, undervalued debt-to-income ratios, and failure to notify HUD of an employee loan transaction.
       Therefore, the loan was not eligible for FHA mortgage insurance and placed the FHA insurance fund at
       risk for a potential loss of more than $221,000. Additionally, the Corporation was incorrectly listed as the


     Chapter 1 - Single-Family Housing Programs
                                                                                                                    13
holding lender for 43 active loans and the servicing lender for 8 active loans. HUD will not pay a claim for
insurance benefits if the information on the claim and HUD’s FHA insurance system do not agree.

    OIG recommended that HUD require the Corporation to indemnify it for a loss that may be incurred
related to the loan that did not meet FHA insurance requirements. OIG also recommended that the
Corporation update its remaining mortgage records in HUD’s system to reflect the appropriate mortgage
holder and implement procedures to ensure the timely submission of mortgage record changes for future
loans sold to investing lenders. (Audit Report: 2010-BO-1007)

                                                    ppp

    HUD OIG audited the Fairfax, VA, branch office of Prospect Mortgage, LLC, and found that Prospect
Mortgage generally complied with HUD requirements in its origination and quality control review of FHA
loans. However, its branch office did not underwrite one of five defaulted loans reviewed in accordance with
HUD requirements. In addition, Prospect Mortgage did not always perform quality control reviews of its
FHA-insured loans in a timely manner. As a result, the FHA insurance fund was exposed to an unnecessarily
increased risk, and the effectiveness of Prospect Mortgage’s quality control process was lessened.

   OIG recommended that HUD (1) require Prospect Mortgage to indemnify it for more than $193,000, the
unpaid principal balance for the loan, and (2) direct Prospect Mortgage to improve its quality control process
and follow up in 6 months to ensure the lender’s compliance. (Audit Report: 2010-PH-1010)

                                                    ppp

    HUD OIG audited one HECM loan underwritten by Financial Freedom Senior Funding Corporation of
Irvine, CA, which was identified during an internal audit of the HUD HECM program.

    The loan was improperly insured as the property had several years of deferred property taxes, which
is a violation of HECM regulations. Neither Financial Freedom’s loan correspondent, 1ST AA Reverse
Mortgage, Inc., nor the title company found that the property had property tax deferments, totaling more
than $14,000, covering approximately 20 years. As neither the originating lender nor the borrower had
paid the taxes before the loan closed, HECM regulations were not followed, and the loan should not have
been FHA insured. As of February 28, 2010, the loan’s unpaid principal balance was nearly $75,000, and
the maximum claim amount was nearly $78,000.

   OIG recommended that HUD require Financial Freedom to indemnify it for the loan. (Audit Report:
2010-FW-1805)

Review of Consumer Credit Counseling Services
    HUD OIG audited Consumer Credit Counseling Services of the Midwest in Columbus, OH, an affiliate
of the National Foundation for Credit Counseling, Inc., to determine whether Consumer Credit complied
with HUD’s requirements for housing counseling.

    Consumer Credit did not comply with HUD’s regulations and/or its agreement with the National
Foundation. Specifically, it did not ensure that its (1) clients’ housing counseling action plans were accurate
and/or properly completed and (2) clients’ files contained supporting documentation of the housing
counseling activities. Further, Consumer Credit did not ensure that uncertified housing counselors were
adequately trained and/or monitored and its housing counseling sessions were appropriately reimbursed
by HUD. As a result, HUD lacked assurance that Consumer Credit’s housing counseling services were
effective and resulted in the best outcome for clients.



                                                                       Chapter 1 - Single-Family Housing Programs
14
           OIG recommended that HUD require Consumer Credit to (1) reimburse HUD nearly $9,000 from non-
       Federal funds for the housing counseling sessions that received duplicate reimbursements or were funded
       by both HUD and an Ohio Department of Development grant, (2) maintain records of its housing counselors’
       training and monitoring of its housing counselors’ housing counseling activities, and (3) implement adequate
       procedures and controls to ensure compliance with HUD’s requirements and its agreement with the
       National Foundation if its contract is not cancelled. Such procedures and controls would ensure that more
       than $126,000 in anticipated HUD grant funds for fiscal year (FY) 2011 (grant year October 1, 2010, through
       September 30, 2011) is used in accordance with established requirements and for its intended purposes.

           OIG also recommended that HUD (1) require the National Foundation to cancel its agreement(s) with
       Consumer Credit to provide services under its housing counseling program(s) and (2) determine legal
       sufficiency and if legally sufficient, pursue remedies under the Program Fraud Civil Remedies Act (PFCRA)
       against Consumer Credit for incorrectly submitting claims for reimbursement for housing counseling sessions
       that were already reimbursed or did not comply with HUD’s requirements and/or its agreement with the
       National Foundation. (Audit Report: 2010-CH-1014)

       Review of HUD’s Management and Marketing Contractors for
       Real Estate-Owned Properties
           HUD OIG audited Michaelson, Connor, and Boul, Incorporated (MCB), a management and marketing
       contractor for HUD real estate-owned properties in Southfield , MI, to determine whether MCB complied
       with HUD’s requirements regarding the sale of HUD single-family real estate-owned homes (HUD homes)
       in Michigan, in particular the closing activities.

           MCB did not adequately provide oversight of the closings on the sale of HUD homes. Specifically, it
       did not (1) always request lead-based paint stabilization services and/or city presale inspections in a timely
       manner or (2) adequately monitor the closing agents and report to HUD deficiencies with closing sales of
       HUD homes as required under its contract. As a result, HUD and MCB incurred an additional $1 million
       plus in holding costs to maintain the homes in its inventory and lost the opportunity to receive nearly $48,000
       in proceeds as buyers cancelled their sales contracts due to closing delays.

           OIG recommended that HUD (1) require MCB to provide documentation showing that the buyers
       cancelled their sales contracts for reasons other than delayed actions by MCB and/or the closing agents
       or reimburse HUD nearly $48,000 from non-Federal funds for the losses HUD incurred on the sale of
       the two homes and (2) implement requirements for the new management and marketing contracts that
       provide specific responsibilities for performing activities under the contracts, including but not limited to
       requesting city presale inspections and lead-based paint stabilization, to ensure that sales of HUD homes
       close in a timely manner, and monitoring the closing agents for compliance with their contracts with HUD.
       Since MCB’s contract was to expire on September 30, 2010, OIG did not recommend that MCB improve its
       procedures and controls regarding the oversight of the closings on HUD homes as it will no longer perform
       this function. (Audit Report: 2010-CH-1012)

                                                           ppp

          HUD OIG audited National Home Management Solutions in Independence, OH, HUD’s management
       and marketing contractor for HUD real estate-owned properties in Ohio, to determine whether National
       Home complied with HUD’s requirements regarding the sale of HUD single-family real estate-owned
       properties.

           National Home did not fully comply with its HUD contract and HUD’s requirements regarding the
       sale of HUD homes. It did not always notify backup bidders when the winning bidders failed to provide


     Chapter 1 - Single-Family Housing Programs
                                                                                                                    15
executed sales contracts and/or accept prospective buyers’ preliminary bids to purchase HUD homes in a
timely manner. National Home also did not maintain adequate documentation to support (1) its reanalysis
for homes that did not sell within the first 45 days of market exposure or (2) its rationale for accepting bids
that were below HUD’s minimum acceptable bid amounts and/or did not result in the highest net returns
to HUD. As a result, HUD lacked assurance that National Home represented HUD’s best interest in the
management and marketing of its homes and maximized the net returns to the FHA insurance fund.

    Further, OIG reviewed 10 HUD homes that were the subject of allegations regarding National Home’s
awarding of the homes to buyers who did not submit the highest bids. National Home received approval
from HUD to award the homes when the winning bid amounts were below HUD’s minimum acceptable
bid amounts at the time the homes were listed on the market for sale or did not result in the highest net
returns to HUD. However, National Home did not maintain documentation of its rationale for accepting
the bids for 2 of the 10 homes as required under its HUD contract.

     OIG recommended that HUD require National Home to (1) provide documentation showing that HUD
approved the acceptance of the bids and the rationale for why acceptance of such bids would be in HUD’s
best interest, as required under its contract, or reimburse HUD more than $36,000 from non-Federal funds
for the losses HUD incurred on the five properties and (2) implement adequate procedures and controls to
ensure compliance with its HUD contract, including but not limited to maintaining documentation to support
its (a) rationale for approving bids below HUD’s minimum acceptable bid amounts or bids that do not result
in the highest net return to HUD, (b) analyses of homes that have been on the market in excess of 45 days,
and (c) notification of backup bidders in accordance with its HUD contract. (Audit Report: 2010-CH-1009)

Review of HUD’s Single-Family Renewal Process
   HUD OIG audited the FHA Title II single-family lender renewal process to determine whether FHA
ensured that lenders submitted recertification requirements in a timely manner.

    FHA did not ensure that lenders submitted recertification forms, annual fees, and/or audited financial
statements in a timely manner. It did not promptly issue notices of violation to lenders that did not submit
required annual recertification documentation and/or fees when due. As a result, FHA insured loans made
by noncompliant lenders, putting the insurance fund at risk.

    OIG recommended that HUD revise the recertification process to discontinue issuing notices of deficiency
and issue notices of violation promptly for all lenders that do not submit or attempt to submit one or more
of the required items by the due date. (Audit Report: 2010-KC-0002)

Review of HUD’s Office of Lender Activities and Program
Compliance
   HUD OIG audited HUD’s Office of Lender Activities and Program Compliance, Quality Assurance
Division, to determine whether HUD had adequate controls to track, obtain, and record indemnification
agreements from lenders for materially deficient loans.

    HUD had written policies and procedures for determining when an indemnification agreement was
appropriate and how to process a signed agreement. However, it did not have written policies and procedures
for pursuing the signed indemnification agreement from lenders.

     OIG recommended that HUD develop and implement effective policies and procedures to ensure that
its employees consistently pursue signed indemnification agreements. (Audit Report: 2010-KC-0003)

                                                    ppp

                                                                       Chapter 1 - Single-Family Housing Programs
16
       Investigations
           Some investigations discussed in this report were generated from leads provided by HUD single-family
       housing program staff and conducted jointly with Federal, State, and local law enforcement agencies. The
       results of various significant investigations are described below.


                        Strategic Initiative 1: Contribute to the reduction of fraud
                                    in single-family insurance programs
            Key program               Cases                 $           Convictions/pleas/     Admin/civil
              results                 closed            recovered            pretrials           actions

           Investigations               72             $111,975,850             125                    128
                 Our                  Page 17       •	 Loan origination fraud
                focus                 Page 23       •	 Home Equity Conversion Mortgage program fraud
                                      Page 24       •	 Civil and administrative actions
                                      Page 26       •	 Other single-family fraud




          Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                                 during this reporting period



                                                                                      Region 1 - 2%
                                                                                      Region 2 - 18%
                                                                                      Region 3 - 6%
                                                                                      Region 13 - 0%
                                                                                      Region 4 - 11%
                                                                                      Region 14 - 10%
                                                                                      Region 5 - 6%
                                                                                      Region 15 - 6%
                                                                                      Region 6 - 8%
                                                                                      Regions 7/8 - 13%
                                                                                      Region 9 - 15%
                                                                                      Region 10 - 4%
                                                                                      Region 11 - 1%




     Chapter 1 - Single-Family Housing Programs
                                                                                                                     17
Loan Origination Fraud

    Lee Farkas, a former chairman of Taylor, Bean &
Whitaker Mortgage Corporation (Taylor), an FHA-
approved direct endorsement lender and Government
National Mortgage Association (Ginnie Mae) issuer,
was arrested after his indictment in U.S. District Court,
Ocala, FL, for allegedly committing a conspiracy and
bank, wire, and securities fraud. Farkas and others
allegedly sold phony or previously pledged loans to
investors in the secondary mortgage market and caused
Taylor to submit false statements to HUD and Ginnie
Mae. HUD and Ginnie Mae realized losses in excess
of $1.9 billion.

                         ppp

    Vincent Sirolli, the former president of the now-
defunct Encore Mortgage, was sentenced in U.S. District
Court, Philadelphia, PA, to16 months incarceration and
3 years supervised release and ordered to pay HUD
and other lenders more than $4.4 million in restitution
for his earlier guilty plea to making false statements
                                                             Copyright 2010. The Washington Post. Washington, DC.
to HUD and committing a conspiracy and wire and                                         Reprinted with permission.
identity fraud. From March 2001 to March 2003, Sirolli
and others provided fraudulent loan documents used
by unqualified borrowers to obtain FHA-insured
mortgages. HUD realized losses in excess of $4.4 million
after 183 mortgages defaulted.

                         ppp

     Darrell and Kandace Marriott, the former owners of
One Way Home and Land, were collectively sentenced
in Navarro and Kaufman County District Courts,
Corsicana and Kaufman, TX, to 89 years incarceration
for their earlier guilty pleas to engaging in an organized
criminal activity, securing the execution of documents
by deception, or misapplication of fiduciary property.
In addition, Consuelo Cisneros, a former employee of
Energy Homes, was sentenced to 40 days incarceration
and 5 years supervised release and ordered to perform
100 hours of community service for her earlier guilty
plea to engaging in an organized criminal activity. From
October 2003 to September 2008, Darrell and Kandace
Marriott, Cisneros, and others forged home buyers’
signatures and provided fraudulent information or
documents used by unqualified borrowers to obtain
FHA-insured mortgages. HUD realized losses of $4.3
million after 74 mortgages defaulted.
                                                               Copyright 2010. Corsicana Daily Sun. Corsicana, TX.
                                                                                        Reprinted with permission.
                                                    ppp

                                                                   Chapter 1 - Single-Family Housing Programs
18
           Leroy Hayden and Antonio Tavarez, a former manager and loan officer for the now-defunct U.S. Mortgage
       Corp. (U.S. Mortgage), each pled guilty in U.S. District Court, Newark, NJ, to committing a conspiracy to
       commit wire fraud. In addition, former U.S. Mortgage loan officer David Cobianchi was sentenced to 36
       months probation and ordered to pay HUD $115,593 in restitution for his earlier guilty plea to committing
       a conspiracy to make false statements to HUD. Between December 1998 and February 2009, Hayden,
       Tavarez, Cobianchi, and others fraudulently sold credit union mortgage loans to the Federal National
       Mortgage Association, used $139 million in illicit proceeds to fund personal and business investments and
       U.S. Mortgage operations, or provided fraudulent documents used by unqualified borrowers to obtain
       FHA-insured and conventional mortgages on properties with inflated values. HUD realized losses of $2.7
       million after 100 mortgages defaulted.

                                                         ppp

           Lorenzo Espinoza was sentenced in U.S. District Court, Los Angeles, CA, to 5 years incarceration and
       3 years probation and ordered to pay HUD $614,919 in restitution for his earlier guilty plea to committing
       money laundering, concealing assets and making false oaths and claims in a bankruptcy proceeding, and
       willfully failing to pay Federal income tax. Espinoza purchased multiple properties, obtained inflated
       appraisals, and resold the properties to straw borrowers who obtained FHA-insured mortgages. HUD
       realized losses in excess of $2 million after 32 mortgages defaulted.

                                                         ppp

           Gordon Miller, a registered agent for Canyon View Escrow, pled guilty in U.S. District Court, Salt Lake
       City, UT, to committing wire fraud. From July 2002 to December 2004, Miller and others identified properties
       surrendered to bankruptcy courts in a number of States, posed as bankruptcy court or financial institution
       representatives and secured quit claim deeds from the property owners, rented about 300 properties and
       collected rents but failed to remit mortgage loan payments, and used the rents collected for personal
       expenditures. HUD realized losses of about $1.6 million after 45 mortgages defaulted.

                                                         ppp

           Maria Contreras, a loan officer for Atlantic Pacific Mortgage Company, doing business as America’s
       First Mortgage (America’s First), an FHA-approved direct endorsement lender, pled guilty in U.S. District
       Court, Fort Meyers, FL, to committing loan application fraud. In addition, America’s First president Juan
       Gonzalez and loan officer Mark Willberg were collectively sentenced to 12 months and 1 day incarceration,
       180 days home detention, 5 years probation, and 3 years supervised release for their earlier guilty pleas to
       committing loan application fraud or making false statements; Gonzalez also paid HUD $382,405 before
       sentencing, and Willberg was ordered to pay HUD $154,325 in restitution. From June 2006 to December
       2007, Gonzalez, Willberg, Contreras, and others created and submitted false information and documents
       used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of $1.5
       million after nine mortgages defaulted.

                                                         ppp

          Stilianos and Kyriakos Mavroulis, the president and vice president of Fidelity Home Mortgage
       Corporation (Fidelity), were each indicted in U.S. District Court, Baltimore, MD, for allegedly committing a
       conspiracy to defraud Ginnie Mae. From 2007 to November 2008, Stilianos and Kyriako Mavroulis allegedly
       conspired, caused the submission of fraudulent Fidelity reports to Ginnie Mae, and failed to pay Ginnie
       Mae about $1.3 million in FHA-insured mortgage claim funds.

                                                         ppp


     Chapter 1 - Single-Family Housing Programs
                                                                                                                     19
    Stafford Hilaire, a former vice president and loan officer of Catalina Century Mortgage, was sentenced in
U.S. District Court, Denver, CO, to 32 months incarceration and 24 months supervised release and ordered
to pay HUD and others $397,237 in restitution and forfeit $10,934 for his earlier conviction of committing
money laundering and a conspiracy to defraud the United States. Hilaire and others submitted or caused
the submission of fraudulent documents used by unqualified borrowers to obtain FHA-insured mortgages.
HUD realized losses of about $1.25 million after 25 mortgages defaulted.

                                                    ppp

    Rito and Rosemary Diaz, real estate agents for Realty World, Familia Reality, Home Life, and Network
Realty, were collectively sentenced in U.S. District Court, Los Angeles, CA, to 12 months and 1 day
incarceration and 72 months supervised probation and ordered to pay HUD $832,566 and First Magnus
Financial $93,442 in restitution for their earlier guilty pleas to committing mail fraud and aiding and abetting.
From 1997 to 2001, Rito and Rosemary Diaz provided or submitted fraudulent documents used by unqualified
borrowers to obtain FHA-insured mortgages. HUD realized losses of $832,555 after 16 mortgages defaulted.

                                                    ppp

    Harold Meza, a former real estate agent for JLF Properties (JLF), pled guilty in U.S. District Court,
Riverside, CA, to committing a conspiracy. In addition, former JLF real estate agent Karla Preciado, also
known as Karla Venegas, was sentenced to 3 years probation and ordered to pay HUD $167,781 in restitution
for her earlier guilty plea to committing a conspiracy. From 2003 to 2006, Meza, Preciado, and others created
or provided fraudulent documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD
realized losses of $545,789 after 18 mortgages defaulted.

                                                    ppp

    Timothy Johnson and Pamela Terrell were each charged in U.S. District Court, Birmingham, AL,
with allegedly making false statements, committing mail fraud, or providing a false statement to Federal
investigators. In addition, Tamiko Davis pled guilty to making false statements. In 2007, Johnson allegedly
created and mailed fraudulent Social Security Administration award letters allegedly used by Terrell and
other unqualified borrowers to obtain FHA-insured mortgages, and from October 2007 to January 2010,
Davis created fraudulent documents used by unqualified borrowers to obtain FHA-insured and conventional
mortgages. HUD realized losses of about $400,000 after four mortgages defaulted.

                                         ppp

    Dema Daiga and Olu Campbell were each convicted in U.S. District Court, Baltimore, MD, of committing
wire fraud and aggravated identity theft and aiding and abetting. From August 2008 to January 2010, Daiga
and Campbell used false identities to purchase properties and provided or submitted false information and
fraudulent documents used by straw borrowers to obtain FHA-insured and conventional mortgages. HUD
realized a loss of $395,000 after one mortgage defaulted.

                                                    ppp

    Kenneth Lagonie, the president of Quality Homes Are Us, and Katrina Arrington, a former mortgage loan
processor for the now-defunct N.J. Affordable Homes (Affordable Homes), were collectively sentenced in
U.S. District Court, Newark, NJ, to 56 months incarceration and 72 months supervised release and ordered
to pay a number of victims more than $53 million in restitution for their earlier guilty pleas to committing a
conspiracy to commit wire fraud or defraud the United States. In addition, former Affordable Homes owner
Wayne Puff, real estate appraiser Michael Meehan, closing attorney Mitchell Fishman, and Sydney Raposo,



                                                                        Chapter 1 - Single-Family Housing Programs
20
       each previously sentenced for their earlier guilty pleas to making false statements to HUD or committing
       wire fraud or a conspiracy to commit wire fraud, were debarred from procurement and nonprocurement
       transactions with HUD and throughout the Executive Branch of the Federal Government indefinitely.
       Between March 2003 and September 2005, the above defendants and others provided false information to
       lure investors or created and submitted fraudulent appraisals and other loan documents used by unqualified
       borrowers to obtain FHA-insured and conventional mortgages. HUD realized losses of $327,839 after three
       mortgages defaulted.

                                                         ppp

           Tamiko Alston, the former owner of Above All Title & Escrow, pled guilty in U.S. District Court,
       Norfolk, VA, to committing a conspiracy to commit mail and wire fraud. From September 2007 to June
       2008, Alston assisted unqualified borrowers who obtained FHA-insured and conventional mortgages and
       created fraudulent HUD-1 settlement statements that failed to report the receipt and disbursement of actual
       settlement funds. HUD realized losses in excess of $275,000 after five mortgages defaulted.

                                                         ppp

           Derrick Boamah was arrested and charged in U.S. District Court, Worcester, MA, with allegedly making
       false statements and committing wire fraud. From May to October 2006, Boamah allegedly provided false
       information on mortgage applications and fraudulently obtained FHA-insured and conventional mortgages.
       HUD realized a loss of $257,099 after his mortgage defaulted.

                                                         ppp

           A.J. Adewunmi, a former owner of Re/Max Associates Plus (Re/Max) and Cots Realty, and former
       Re/Max real estate agents Christian Juan and Patricia Olmos were each indicted in U.S. District Court, St.
       Louis, MO, for allegedly making false statements and committing a conspiracy and mail and wire fraud.
       The above defendants allegedly conspired and provided false documents used by unqualified borrowers
       to obtain FHA-insured and conventional mortgages. HUD realized losses of $239,000 after four mortgages
       defaulted.

                                                         ppp

          Charles Smith, the owner of Smith’s Properties, and Smith’s Properties salesman Clarence Holt were
       each indicted in U.S. District Court, Sumter, SC, for allegedly causing false statements to be submitted to
       HUD. Smith and Holt allegedly caused the submission of fraudulent loan documents used by unqualified
       borrowers to obtain FHA-insured mortgages. HUD realized losses of $231,679 after four mortgages defaulted.

                                                         ppp

           Anthony Palermo, the president of First Start Mortgage, an FHA-approved lender; FHA borrowers Dereck
       Czerniak and Alexander Abramovich; and Jimmy Pililimis were each charged in Cook County Circuit Court,
       Chicago, IL, with allegedly committing theft, attempted identity theft, and financial institution and loan
       fraud. The above defendants allegedly created or provided fraudulent documents to obtain FHA-insured
       mortgages. HUD realized a loss of about $150,000 after one mortgage defaulted.

                                                         ppp

           Lashwanda Smith was sentenced in DeKalb County Superior Court, Atlanta, GA, to 10 years probation
       for her earlier guilty plea to committing residential mortgage fraud. In December 2005, Smith provided



     Chapter 1 - Single-Family Housing Programs
                                                                                                                   21
fraudulent documents and obtained an FHA-insured mortgage. HUD realized a loss of $115,407 after her
mortgage defaulted.

                                                   ppp

    Rebecca Loeffler, also known as Rebecca Bischoff, was sentenced in U.S. District Court, Kansas City, MO,
to 5 years probation and ordered to pay HUD $115,051 in restitution for her earlier guilty plea to making a
false statement. In July 2007, Loeffler provided false information and obtained an FHA-insured mortgage.
HUD realized a loss of $115,051 after her mortgage defaulted.

                                                   ppp

   Doris Strickland, a fabricated employee of the James and Albert Group, also known as the James and
Albert Corporation, pled guilty in U.S. District Court, Cleveland, OH, to committing a conspiracy, forgery,
and bank fraud. Strickland and others provided fraudulent documents to obtain FHA-insured and
conventional mortgages. HUD realized a loss of $112,763 after one mortgage defaulted.

                                                   ppp

    Meggan and David Alexander were each charged in a superseding indictment filed in U.S. District Court,
Cedar Rapids, IA, with allegedly making false statements. In April 2007, Meggan Alexander allegedly
provided false information when she obtained an FHA-insured mortgage, and in September 2007, Meggan
and David Alexander allegedly provided false information in an attempt to avoid foreclosure. HUD realized
a loss of $110,772 after the mortgage defaulted.

                                                   ppp

    Rab Nawaz, the owner of Excellent Painting; Syed Babar; and eight additional individuals were each
charged in superseding indictments filed in U.S. District Court, New Haven, CT, with allegedly making
false statements and committing a conspiracy to commit wire fraud or defraud the United States; Nawaz
was also charged with allegedly obstructing justice. From February 2007 to April 2010, Nawaz, Babar, and
others allegedly conspired, resold properties at inflated values, and provided false information or fraudulent
documents used by unqualified borrowers to obtain FHA-insured and conventional mortgages. HUD
realized a loss of $75,000 after one mortgage defaulted.

                                                   ppp

    Patricia Donaldson was indicted in Dallas County District Court, Dallas, TX, for allegedly engaging in
an organized crime, making false statements to obtain property or credit, and tampering with a government
record. Donaldson allegedly conspired with others and created or provided fraudulent documents used
by an unqualified borrower to obtain an FHA-insured mortgage. HUD realized a loss of $60,358 after
the mortgage defaulted. In addition, Donaldson allegedly used a false Social Security number (SSN) and
fraudulently obtained Federal student loans.

                                                   ppp

    LeeAnn Bible pled guilty in U.S. District Court, Fort Worth, TX, to making false entries to HUD. In
October 2002, Bible provided fraudulent documents and obtained an FHA-insured mortgage. HUD realized
a loss of $18,277 after her mortgage defaulted.

                                                   ppp



                                                                      Chapter 1 - Single-Family Housing Programs
22
           More than 30 individuals were arrested and charged or indicted in U.S. District Court, Manhattan, NY,
       for allegedly committing a conspiracy to commit bank and wire fraud. Dubbed “Operation Stolen Dreams,”
       the above defendants allegedly participated in FHA-insured and conventional mortgage fraud schemes that
       involved counterfeit documents, straw buyers, and fraudulent loan modification programs. HUD losses
       have not yet been determined.

                                                          ppp

           Raquel Berger, a realtor for Exit Dream Home Realty, Inc., and 28 other individuals were each indicted
       or charged in U.S. District Court, Newark, NJ, for allegedly committing a conspiracy to commit wire fraud,
       and 26 of the above defendants were arrested. The above defendants allegedly conspired and created or
       provided fraudulent documents used by unqualified borrowers to obtain FHA-insured and conventional
       mortgages. HUD losses have not yet been determined.

                                                          ppp

          Fourteen individuals employed as mortgage loan brokers, real estate agents, tax professionals, and other
       professions were each indicted in U.S. District Court, Los Angeles, CA, for allegedly making false statements
       and committing bank fraud and a conspiracy to commit bank fraud. The above defendants allegedly
       provided fraudulent documents used by unqualified borrowers to obtain FHA-insured and conventional
       mortgages. HUD losses have not yet been determined.

                                                          ppp

           Gregory Newsome, a loan officer for Universal Bancorp; Alan Greer, a realtor for CNR & I; FHA
       borrowers Eddie Greer and Brenda Strong; and Johnny Webb and Nicole Johnson, also known as Nicole
       Jones, were each charged in Cook County Circuit Court, Chicago, IL, with allegedly organizing a financial
       crimes enterprise and committing theft, money laundering, a conspiracy to commit financial crimes, and a
       continuing financial crimes enterprise. From 2007 to 2009, the above defendants allegedly conspired and
       provided false information or fraudulent documents to obtain FHA-insured and conventional mortgages.
       HUD losses have not yet been determined.

                                                          ppp

           Lauro Gutierrez, the owner of LG Home Improvements, Inc., was indicted in U.S. District Court,
       Brooklyn, NY, for allegedly committing a conspiracy to commit bank and wire fraud. From April 2006 to
       July 2008, Gutierrez allegedly provided fraudulent employment verifications used by unqualified borrowers
       to obtain FHA-insured mortgages. HUD losses have not yet been determined.

                                                          ppp

           David Vickers, a general contractor with J & G Homes, Inc., was charged in a superseding indictment
       filed in U. S. District Court, Jacksonville, FL, with allegedly committing a conspiracy to commit wire, mail,
       and bank fraud. Vickers and others allegedly provided downpayment funds and assisted unqualified
       borrowers who obtained FHA-insured mortgages. HUD losses have not yet been determined.

                                                          ppp

           Great Country Mortgage Bankers loan officers Curtis Poore, Fermin Bergouingnan, and William Alonso
       each pled guilty in U.S. District Court, Miami, FL, to committing a conspiracy to commit wire fraud.
       In addition, Jose Cazas, a developer for the Cedar Pointe Condominiums, was sentenced to 33 months



     Chapter 1 - Single-Family Housing Programs
                                                                                                                  23
incarceration and 36 months supervised release for his earlier guilty plea to committing a conspiracy to
commit wire fraud. From April 2007 to January 2008, the above defendants and others created and submitted
false information and fraudulent documents used by unqualified borrowers to obtain 46 FHA-insured
mortgages. Since the City of Miami condemned the Cedar Pointe Condominiums and the units cannot
convey, HUD paid no claims and realized no losses.

                                                  ppp

    Rhode Island State Senator Christopher Maselli was charged in U.S. District Court, Providence, RI, with
allegedly committing bank fraud. From December 2007 to March 2009, Maselli allegedly provided false
information and fraudulent documents when he obtained four FHA-insured mortgages and other consumer
loans. HUD realized no losses.

                                                  ppp

    Giovanni Barreto, an Internal Revenue Service revenue officer, was arrested after his indictment in U.S.
District Court, Camden, NJ, for allegedly making false statements and committing wire fraud and aggravated
identity theft. Barreto allegedly provided false information and forged his estranged wife’s signature on a
number of documents relating to the origination of an FHA-insured mortgage.

Home Equity Conversion Mortgage Program Fraud

    Jonathan Kimpson pled guilty in U.S. District Court, Atlanta, GA, to committing a conspiracy and
aggravated identity theft. From October 2007 to February 2010, Kimpson and others conspired and created
or submitted false information or fraudulent documents used by elderly borrowers to obtain inflated reverse
mortgages through the HUD HECM program and diverted the illicit equity proceeds obtained into accounts
they controlled. HUD realized losses in excess of $1 million.

                                                  ppp

    Mary Fulbright was indicted in U.S. District Court, Rochester, NY, for allegedly committing bank
fraud. From October to December 2008, Fulbright allegedly used a quit claim deed and illegally changed
the ownership of her father’s property, provided false information and used a power of attorney document
to certify and close on a reverse mortgage through the HUD HECM program in her father’s name, and
fraudulently obtained $176,364 in equity proceeds she was not entitled to receive.

                                                  ppp

   Norma Cheesman, a former elderly health care provider, was arrested and charged in King County
Superior Court, Seattle, WA, with allegedly committing forgery, theft, and attempted theft. Between 2007
and August 2008, Cheesman allegedly deceived an elderly couple in her care and misappropriated and used
about $157,700 in equity proceeds they had obtained through the HUD HECM program.

                                                  ppp

    Julia Jerome was indicted in Richland County Court of General Sessions, Columbia, SC, for allegedly
exploiting a vulnerable adult. Between February and November 2008, Jerome allegedly assisted an elderly
homeowner who applied for and obtained a reverse mortgage through the HUD HECM program and
fraudulently used $52,815 in equity proceeds that belonged to the victim.

                                                  ppp


                                                                     Chapter 1 - Single-Family Housing Programs
24
            Marilyn James was charged in Jackson County
       Circuit Court, Kansas City, MO, with allegedly
       committing forgery and financial exploitation of
       the elderly or disabled. James allegedly filed a quit
       claim deed and transferred ownership of a property
       to an elderly individual suffering from Alzheimer’s
       disease, used the victim’s identity and applied for a
       reverse mortgage through the HUD HECM program,
       and fraudulently obtained $64,000 in equity proceeds.
       In addition, James allegedly obtained $9,000 after she
       fraudulently applied for a loan against the victim’s
       life insurance policy.

                              ppp

           Benjamin Okeke, a loan officer for Beli Commercial
       Mortgage, was indicted in Davidson County General                Copyright 2010. The Kansas City Star. Kansas City, MO.
       Sessions Court, Nashville, TN, for allegedly                                                 Reprinted with permission.
       committing theft. In February 2010, a HUD HECM
       program applicant provided Okeke with $3,494 to
       settle a credit card debt before his loan closing, but
       Okeke allegedly stole and personally used these
       funds.

       Civil and Administrative Actions

           John Munson, the former president of Anchor Mortgage Corporation (Anchor Mortgage), and Anchor
       Mortgage were each found liable in U.S. District Court, Chicago, IL, and ordered to pay the U.S. Department
       of Justice more than $2.9 million for violating the False Claims Act. From 1996 to 2000, Munson and previously
       convicted Anchor Mortgage employees created or submitted fraudulent documents used by unqualified
       borrowers to obtain FHA-insured mortgages, and Anchor Mortgage failed to report referral fees it obtained
       from previously convicted Casalinda Realty employees on HUD-1 settlement statements. HUD realized
       losses in excess of $1 million after 11 mortgages defaulted.

                                                          ppp

           Ideal Mortgage Bankers, doing business as Lend America, was issued a permanent civil injunction
       filed in U.S. District Court, Brooklyn, NY. The civil injunction prevents Lend America and Lend America
       employees or agents from submitting claims for FHA insurance on loans in default. In addition, Lend America
       is prohibited from originating, underwriting, or submitting loans to be insured by FHA or participating
       in any Federal program involving mortgage loans. To date, HUD has realized losses in excess of $860,000
       after six mortgages defaulted.

                                                          ppp

           Daniel Fox, a former real estate closing attorney previously sentenced in U.S. District Court, Newark,
       NJ, for his earlier guilty plea to making false statements to HUD, was debarred from procurement and
       nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
       for 60 months. From October 2000 to November 2008, Fox and others created and provided fraudulent




     Chapter 1 - Single-Family Housing Programs
                                                                                                                  25
documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of
$603,074 after 11 mortgages defaulted.

                                                   ppp

     Nathan Russo, a mortgage broker and vice president of Action Mortgage Corporation who was previously
indicted in U.S. District Court, Hartford, CT, for allegedly making false statements and committing a
conspiracy to commit wire fraud, was suspended from procurement and nonprocurement transactions with
HUD and throughout the Executive Branch of the Federal Government pending the outcome of criminal
proceedings or any related debarment action. In addition, Action Mortgage Corporation, a HUD-approved
loan correspondent, was suspended from approving FHA-insured loans for a minimum of 6 months for
its failure to report the Russo indictment to HUD. From February 2007 to April 2010, Russo and others
allegedly conspired and resold properties at inflated values or provided false information or documents
used by unqualified borrowers to obtain FHA-insured and conventional mortgages. HUD realized losses
of $75,000 after one mortgage defaulted.

                                                   ppp

    FHA mortgage lender W.R. Starkey Mortgage, LLP (Starkey), and George Varsamis, a former salesperson
for K and B Homebuilders and Homes America, a subsidiary of the Phoenix Housing Group, each entered
into consent judgments filed in North Carolina Superior Court, Raleigh, NC, and collectively agreed to
pay more than $4.5 million in compensatory damages to the North Carolina Department of Justice and a
number of victims. From 2007 to 2008, Starkey and its employees or agents allegedly used false information
and assisted unqualified borrowers who obtained about 171 FHA, U.S. Department of Agriculture, or
conventional mortgages, and Varsamis allegedly engaged in unfair and deceptive practices involving the
sale and financing of manufactured and modular homes. The consent judgment also permanently enjoins
Varsamis from engaging in real estate, lending, or other related activities.

                                                   ppp

    Jermaine Spencer, a former HUD Officer/Teacher Next Door program participant and Bureau of Prisons
employee who previously pled guilty in U.S. District Court, Denver, CO, to submitting false statements,
entered into a PFCRA settlement and agreed to pay HUD $83,800. In 2003, Spencer obtained a HUD-owned
property and received a $72,500 discount but failed to reside in the property or report his nonresidency on
HUD certifications.

                                                   ppp

    Clay Preuit, a former officer of Transnation Title & Escrow who previously pled guilty in U.S. District
Court, Boise, ID, to aiding and abetting, entered into a PFCRA settlement and agreed to pay HUD $10,000.
In 1998, Preuit assisted an unqualified borrower who submitted false information to obtain an FHA-insured
mortgage.

Other Single-Family Fraud

    Eleven individuals were each indicted in Dallas County District Court, Dallas, TX, for allegedly securing
the execution of documents by deception. The above defendants allegedly used false SSNs to obtain FHA-
insured mortages. HUD realized losses of $452,547 after nine mortgages defaulted.

                                                   ppp



                                                                     Chapter 1 - Single-Family Housing Programs
26
           Louis Luevano, also known as Ray Luevano, a former real estate broker for Harvest Realty who was
       previously sentenced to 6 years incarceration and 5 years parole for his earlier conviction of offering a false
       instrument for recording and committing theft, a conspiracy to commit theft, a conspiracy in an attempt
       to influence a public servant, forgery, and computer crimes, appeared in Adams County District Court,
       Brighton, CO, and was ordered to pay HUD $378,045 in restitution. Luevano and others provided false
       SSNs and fraudulent documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD
       realized losses of $378,045 after five mortgages defaulted.

                                                           ppp

           Gennaro Rauso, the owner of D&B Property Investors, was charged in U.S. District Court, Philadelphia,
       PA, with allegedly committing bankruptcy and mail fraud, equity skimming, and a number of Federal
       income tax violations. Rauso allegedly persuaded more than 200 distressed homeowners to transfer the
       ownership of their properties to him, including four properties with FHA-insured mortgages, and filed
       fraudulent bankruptcy petitions to delay foreclosure proceedings. HUD realized losses of $118,000 after
       four mortgages defaulted.

                                                           ppp

           Jason Martinez, a real estate agent and mortgage broker for Merit Mortgage Financial, LLC, was sentenced
       in U.S. District Court, Tampa, FL, to 36 months incarceration and 60 months probation and ordered to
       undergo 500 hours in a drug control program and pay HUD $15,500 and others more than $2.9 million in
       restitution for his earlier guilty plea to committing theft of government funds and a conspiracy to commit
       mail and wire fraud. From February 2005 to May 2007, Martinez assisted straw buyers with the fraudulent
       purchase of five HUD real estate-owned properties, including a property purchased by his spouse through
       the HUD Officer/Teacher Next Door program. HUD realized a loss of $15,500 after one mortgage defaulted.

                                                           ppp

           Richard Swoveland was sentenced in Marion County Superior Court, Indianapolis, IN, to 9.5 years
       incarceration for his earlier guilty plea to committing theft and forgery. From December 2009 to March 2010,
       Swoveland entered five HUD real estate-owned properties without authorization, fraudulently claimed
       ownership of the properties, and collected about $6,250 in tenant security deposits and rents.

                                                           ppp

           John Murphy, the former president of Alliance Mortgage Banking Corporation (Alliance), a HUD-
       approved direct endorsement lender, pled guilty in U.S. District Court, Central Islip, NY, to committing bank
       fraud. Murphy fraudulently used more than $3.3 million in restricted funds from the Alliance warehouse
       line of credit and issued checks for 36 mortgage loans, including eight FHA-insured mortgages, without
       sufficient funds in the Alliance bank account.

                                                           ppp

           Kiya McNeal, an owner of Lloyds and Handson Abstracts of Philadelphia (Lloyds and Handson), was
       charged in U.S. District Court, Philadelphia, PA, with allegedly committing wire fraud. From May 2008
       to January 2009, McNeal allegedly prepared false HUD-1 forms and electronically diverted and personally
       used more than $225,000 in Lloyds and Handson settlement funds, including funds associated with an
       FHA-insured mortgage.

                                                           ppp



     Chapter 1 - Single-Family Housing Programs
                                                                                                                   27
    Antone Thompson, doing business as TnT Engineering, was indicted in U.S. District Court, Salt Lake
City, UT, for allegedly making false statements to HUD. From February 2005 to July 2008, Thompson
allegedly completed, certified, and submitted more than 70 manufactured housing engineering reports to
HUD after his engineering license had been suspended. HUD losses have not yet been determined.

                                                   ppp

     JoAnn Williams was arrested and charged in Queens County Criminal Court, Queens, NY, with allegedly
committing forgery, grand larceny, and identity theft; criminal or unlawful possession of a forged instrument,
stolen property, and personal identification; falsifying business records; and offering a false instrument for
filing. From May 2007 to August 2010, Williams allegedly filed false documents with HUD, fraudulently
obtained an FHA mortgage insurance reimbursement check, forged the victim’s signature, and deposited
the illicit funds into her bank account. HUD losses have not yet been determined.

                                                   ppp

    Darius Morris and James Smith were each arrested and charged in Wayne County District Court, Detroit,
MI, with allegedly committing arson, a conspiracy to commit arson, and money laundering; using a computer
to commit a crime under false pretenses; and conducting a criminal enterprise. In addition, George Mealy
and Walter McNabb each pled guilty to committing arson and obtaining property by false pretenses. Morris
and Smith allegedly and Mealy and McNabb admittedly illegally entered and fraudulently sold more than
20 HUD and other bank-owned properties and destroyed one property by arson. HUD losses have not yet
been determined.

                                                   ppp

    Taeana Stokes was sentenced in U.S. District Court, Springfield, IL, to 13 months incarceration and 3
years probation for her earlier conviction of committing bankruptcy fraud. From February 2003 to January
2006, Stokes failed to report four prior bankruptcies on her current bankruptcy petition and submitted
forged documents in an effort to delay FHA foreclosure proceedings and obtain additional credit. HUD
losses have not yet been determined.

                                                   ppp

    Scott Archer, founder of Dominion Investment Group, was arrested and charged in Genesee County
District Court, Flint, MI, with allegedly committing a criminal enterprise and crimes under false pretenses.
Archer allegedly claimed ownership of 70 homes, including two HUD real estate-owned properties, and
fraudulently transferred the ownership of these properties to other individuals. HUD losses have not yet
been determined.

                                                   ppp

    John Hemphill, doing business as United States Mortgage Release Corporation, was convicted in U.S.
District Court, Chicago, IL, of committing mail fraud and impersonating an officer, agent, or employee acting
under the authority of the United States. From May to October 2009, Hemphill filed fictitious deeds and
transferred the ownership of properties belonging to others, including a HUD real estate-owned property,
and posed as a Federal receiver to prospective buyers. HUD losses have not yet been determined.

                                                   ppp




                                                                      Chapter 1 - Single-Family Housing Programs
28
           Robert Mora was sentenced in Maricopa County Superior Court, Phoenix, AZ, to 60 months probation
       and ordered to pay the Maricopa County Sheriff’s Office and a number of victims $272,960 in restitution
       for his earlier guilty plea to committing forgery. Mora and others filed fraudulent ownership deeds and
       obtained equity loans on properties they did not own, including a property with an FHA-insured mortgage.
       HUD losses have not yet been determined.

                                                       ppp

          Jeffrey Weems pled guilty in Wayne County Circuit Court, Detroit, MI, to breaking and entering, and
       Kenneth Collins was sentenced to 1 year probation for his earlier guilty plea to breaking and entering.
       Weems and Collins entered two HUD real estate-owned properties and removed the furnaces and water
       heaters from both properties. HUD losses have not yet been determined.

                                                       ppp




     Chapter 1 - Single-Family Housing Programs
                                                                                                                  29
Inspections and Evaluations
ACORN Housing Corporation, Inc., Evaluation of HUD Housing
Counseling Grant Expenditures

    In response to a congressional request, HUD OIG performed an evaluation of grant funds awarded
under HUD’s Housing Counseling Program to ACORN Housing Corporation, Inc. (AHC), now operating
as Affordable Housing Centers of America (AHCOA), to determine whether AHC used its FY 2008 and
2009 HUD grant funds, totaling more than $3.2 million, in compliance with grant agreement requirements.
Tests focused on HUD funds used to pay the salary and fringe benefit costs (salary expenses) of AHC staff
that provided housing counseling directly to clients. More than $2.5 million was charged to the HUD
grants as salary expenses (more than $1.3 million or 83 percent in FY 2008 and nearly $1.2 million or 73
percent in FY 2009).

    Salary expenses charged by AHC to the HUD housing counseling grants were not fully supported.
Payroll records did not comply with Office of Management and Budget (OMB) Circular A-122; for
example, time sheets did not distribute hours by grant. Further, the caseload allocation method used by
AHC to determine the amount of HUD-chargeable salary expenses was problematic and unsupported.
Consequently, HUD had no assurance that the counselors’ salary expenses charged to the HUD grants
reflected grant-eligible services. Also, ineligible salary expenses, totaling $65,548, were charged to the FY
2009 HUD grant, and Federal procurement standards at 24 CFR (Code of Federal Regulations) Part 84,
which require “open and free” competition, were not met.

    OIG recommended that HUD require AHCOA to reimburse the program for unsupported and ineligible
salary expenses charged to the HUD housing counseling grants and implement a time and activities
system that meets OMB Circular A-122 requirements. Further, AHCOA needs to implement a procurement
system that complies with 24 CFR Part 84. OIG also recommended that HUD consider placing AHCOA in
“inactive” status while it initiates corrective actions to address the exceptions and recommendations noted
and provide AHCOA with technical guidance and assistance as needed. (I&E Report: IED-10-002)

Evaluation of the Effectiveness of HUD’s Credit Watch Termination
Initiative in Deterring Deficiencies in the Performance of Lenders’
Loans

    HUD OIG evaluated HUD’s Credit Watch Termination Initiative (Credit Watch) to determine whether
it was used effectively to deter deficiencies and substandard performance in FHA single-family lending
and whether Credit Watch could be manipulated, allowing lenders to avoid HUD’s scrutiny and program
sanctions.

    While a past instance in which a lender manipulated the Credit Watch program to avoid HUD
scrutiny (i.e., closing an “at-risk” branch office approaching the 200 percent termination threshold and
then opening a new branch office in the same lending area to originate loans) was noted, the review did
not disclose a systemic problem. Credit Watch statistical reports effectively identified lender branch
offices with unacceptable high default and claim rates. However, historically, (1) Credit Watch analyses
and sanctions were narrower in scope than permitted by Federal regulations, (2) results of the analyses
were not routinely shared or coordinated with other departmental oversight efforts, and (3) procedures
for proposed termination actions were not available and records were incomplete. One other matter was



                                                                     Chapter 1 - Single-Family Housing Programs
30
       noted concerning procedures for determining and supporting the de minimis amount used to identify
       lenders that are subject to the Credit Watch process.

            OIG recommended that HUD establish a formal process to better coordinate the Credit Watch results
       with other departmental oversight efforts. Further, HUD needs to formally document its procedures for
       postponing and withdrawing proposed Credit Watch terminations and establish a uniform record-keeping
       system for the process and results. OIG also recommended that HUD formally document its procedures
       for the de minimis amount and ensure that the basis for the amount is supported. (I&E Report: IED-10-003)

                                                        ppp




     Chapter 1 - Single-Family Housing Programs
   Chapter 2
 Public and Indian
Housing Programs
32
           The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to 4,100
       public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
       programs. HUD also provides assistance directly to PHAs’ resident organizations to encourage increased
       resident management entities and resident skills programs. Programs administered by PHAs are designed
       to enable low-income families, the elderly, and persons with disabilities to obtain and reside in housing
       that is safe, decent, sanitary, and in good repair. In addition to the audits and investigations described in
       this chapter, the HUD’s Office of Inspector General (OIG), has conducted a number of outreach efforts (see
       chapter 8, page 118).


       Audit
                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                       payments in rental assistance
        Key program results                                        Questioned costs               Funds put to better use
                Audit                   41 audits*                    $39.3 million                     $40.1 million
                 Our                     Page 33             •	 Section 8 Housing Choice Voucher and leased housing
                focus           			                             program activities at public housing agencies
                                 Page 37                     •	 Public housing and voucher programs
                                         Page 38             •	 Public housing program activities
                                         Page 41             •	 Review of public housing authorities to determine
                                                                whether multifamily property owners were overpaid
       * The total public and Indian housing audits, questioned costs, and funds put to better use amounts include any American
       Recovery and Reinvestment Act of 2009 (18 audits) and disaster recovery (1 audit) type audits conducted in the public and
       Indian housing area. The writeups for these audits are shown separately in chapters 5 and 6 of this semiannual report.


                 Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                    during this reporting period



                                                                                                      Region 1 - 12%
                                                                                                      Region 2 - 10%
                                                                                                      Region 3 - 15%
                                                                                                      Region 4 - 12%
                                                                                                      Region 5 - 17%
                                                                                                      Region 6 - 12%
                                                                                                      Regions 7/8/10 - 17%
                                                                                                      Region 9 - 5%
                                                                                                      Region 11 - (N/A)*




       * This does not include disaster relief audits. See chapter 6 for these reviews.

     Chapter 2 - Public and Indian Housing Programs
                                                                                                                          33
   During this reporting period, OIG reviewed HUD’s controls over the Section 8 Housing Choice Voucher
and leased housing programs, public housing and voucher programs, and public housing activities.

Section 8 Housing Choice Voucher and Leased Housing Program
Activities at Public Housing Agencies
    Audits of the Section 8 Housing Choice Voucher program continued to be a priority during this semiannual
reporting period. PHAs were selected for audit based on risk analysis and/or hotline complaints. While
OIG’s objectives varied by auditee, the majority of reviews were to determine whether the units met housing
quality standards, the PHA managed the program according to HUD requirements, and the eligibility of
the tenants was correctly determined. The following section illustrates the audits conducted in the Section
8 Housing Choice Voucher program area.

                                ppp

    HUD OIG audited the Philadelphia Housing Authority in
Philadelphia, PA, regarding the administration of its housing quality
standards inspection program for its Section 8 Housing Choice Voucher
program and found that the Authority did not ensure that its program
units met housing quality standards as required. Of 67 program units
inspected, 62 did not meet HUD’s housing quality standards, 29 of which
were in material noncompliance with HUD’s standards. The Authority
spent nearly $69,000 in program funds and received more than $2,000
in administrative fees for these 29 units.

    OIG recommended that HUD require the Authority to (1) ensure that
housing units inspected during the audit are repaired to meet HUD’s
housing quality standards, (2) reimburse its program from non-Federal
funds for the improper use of program and administrative funds for units
that materially failed to meet HUD’s housing quality standards, and (3)
implement adequate procedures and controls to ensure that in the future,
program units meet housing quality standards to prevent an estimated
$18.6 million from being spent annually on units that materially fail to
meet HUD’s standards. (Audit Report: 2010-PH-1011)

                                ppp

    HUD OIG audited the Housing Authority of the City and County of
San Francisco, CA’s Section 8 housing quality standards inspections of
Housing Choice Voucher program-funded housing units and found that
the Authority did not conduct its housing quality standards inspections
of voucher-funded housing units in accordance with HUD rules and
regulations. Of the 65 housing units inspected, 58 did not meet housing
quality standards, and 46 of those units had material deficiencies.

   OIG recommended that HUD require the Authority to (1) repay
HUD more than $279,000 in expended housing assistance payments for
housing units that were deemed materially deficient; (2) establish and
implement policies, procedures, and controls regarding its inspection
                                                                            Copyright 2010. The Philadelphia Inquirer.
                                                                           Philadelphia, PA. Reprinted with permission.



                                                                 Chapter 2 - Public and Indian Housing Programs
34
       process to prevent more than $11.4 million in HUD funds from being spent on housing units with material
       housing quality standards deficiencies; and (3) verify that the applicable owners have taken appropriate
       corrective action regarding the housing quality standards deficiencies identified or take enforcement action.
       (Audit Report: 2010-LA-1015)

                                                          ppp

           HUD OIG audited the Section 8 Project-Based Voucher program at the DuPage Housing Authority in
       Wheaton, IL, and found that the Authority inappropriately administered its program. It lacked the required
       eligibility documentation for its program projects to support more than $3.4 million in housing assistance
       payments. Further, it made improper housing assistance payments, totaling more than $33,000, for 8 months
       before the effective dates of two housing assistance payments contracts.

           The Authority executed housing assistance payments contracts with inappropriate contract rents. The
       contract rents for 6 of the Authority’s 11 projects exceeded the maximum allowable amounts according to
       HUD’s requirements. Based on the inappropriate contract rents, the Authority overpaid nearly $270,000
       in housing assistance.

           The Authority did not properly select program households from waiting lists. It allowed its program
       projects to select the households and did not perform quality control reviews of the selection process. As
       a result, it inappropriately paid more than $188,000 in housing assistance for 14 households that did not
       meet project eligibility requirements and was unable to support more than $57,000 in housing assistance
       payments for 3 households. Further, it underpaid $200 in housing assistance for two households.

           OIG recommended that HUD require the Authority to (1) reimburse its program from non-Federal funds
       for the improper use of more than $600,000 in program funds, (2) provide documentation or reimburse its
       program from non-Federal funds nearly $4 million in program funds, and (3) implement adequate procedures
       and controls to address the findings cited. These procedures and controls should help to ensure that nearly
       $200,000 in program funds is spent on program administration that meets HUD’s requirements over the
       next year. OIG also recommended that HUD review the Authority’s household selections to ensure that
       they comply with HUD’s requirements. If the Authority fails to comply with HUD’s requirements, HUD
       should take appropriate action against the Authority and/or its applicable employee(s). (Audit Report:
       2010-CH-1008)

                                                          ppp

           HUD OIG audited the Section 8 Housing Choice Voucher and low-income public housing programs of
       the Waltham Housing Authority in Waltham, MA, and found that the Authority generally administered
       the programs efficiently and effectively and in compliance with its annual contributions contract and HUD
       regulations. It also generally accounted for the use of its Section 8 administrative and local reserves to
       ensure proper use. However, it did not (1) properly account for and report interprogram fund transactions
       between its Federal and State programs, resulting in nearly $3.9 million in unsupported transactions being
       recorded in its program accounts; (2) provide support and justification for nearly $552,000 in contracts to
       show that the contracts were properly documented; and (3) establish a reasonable travel policy to ensure
       that travelers submitted detailed travel expense vouchers.

           OIG recommended that HUD require the Authority to (1) provide support for the interprogram fund
       transactions that were out of balance between Federal and State programs and implement procedures for
       recording and reconciling interprogram transactions and correcting imbalances, (2) provide support and
       justification for its contracts or reimburse its operating funds from non-Federal funds for the applicable




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    35
amounts, and (3) revise its travel policy and obtain approval of the policy from the Authority’s board of
commissioners. (Audit Report: 2010-BO-1006)

                                                    ppp

     HUD OIG audited the Housing Authority of DeKalb County, GA’s use of its net restricted assets and
found that the Authority used more than $2.5 million of its net restricted assets to pay ineligible program
and administrative expenses for other assisted housing programs. It did not (1) maintain separate bank
accounts, (2) properly track its net restricted asset funds, and (3) have proper policies and controls in place.
As a result, it misused net restricted asset funds that could have provided assistance to eligible families in
its housing voucher program.

    OIG recommended that HUD require the Authority to (1) reconcile its books and records to determine the
amount of net restricted asset funds used to pay program and administrative expenses for various housing
programs, (2) reimburse the net restricted assets fund account from non-Federal funds the $2.5 million or
the current amount owed from various housing programs, and (3) implement its established policy for the
use of net restricted assets to ensure that net restricted assets are properly used and bank accounts remain
separated for the various programs. (Audit Report: 2010-AT-1010)

                                                    ppp

    HUD OIG audited the Section 8 Project-Based Voucher program of the Michigan State Housing
Development Authority in Lansing, MI, and found that the Authority’s program administration regarding
documentation of households’ eligibility and housing assistance and utility allowance payment calculations
was inadequate. The Authority did not ensure that its household files contained the required documentation
to support households’ admission to and continued assistance on the program. All 89 files reviewed were
missing documentation required by HUD and the Authority’s program administrative plan to support
nearly $629,000 in housing assistance and utility allowance payments and associated administrative fees.

    In addition, the Authority did not effectively manage its housing assistance calculation and payment
process in accordance with HUD requirements and its program administrative plan, resulting in nearly
$23,000 in overpayments for 25 households and more than $3,000 in underpayments for 29 households.
Further, it received nearly $33,000 in program administrative fees for these households. The Authority also
inappropriately made more than $47,000 in overpayments of housing assistance and utility allowances for
units when it failed to ensure that units receiving program housing assistance payments were under an
executed housing assistance payments contract.

   The Authority did not effectively use HUD’s Enterprise Income Verification system Income Discrepancy
Report to recover or reimburse program housing assistance and utility allowance payments for households
with unreported, underreported, or overestimated income, resulting in more than $32,000 in overpayments
and more than $1,700 in underpayments of housing assistance and utility allowances. Further, it did not
remove six deceased individuals from its program and did not recover more than $6,000 in housing assistance
and utility allowance payments from the properties’ owners.

    OIG recommended that HUD require the Authority to (1) reimburse its program from non-Federal
funds for the improper use of nearly $118,000 in program funds, (2) provide documentation or reimburse
its program more than $757,000 from non-Federal funds for the unsupported payments cited, and (3)
implement adequate procedures and controls to address the findings cited to prevent nearly $89,000 in
program funds from being spent on excessive housing assistance and utility allowance payments over the
next year. (Audit Report: 2010-CH-1007)

                                                    ppp


                                                                   Chapter 2 - Public and Indian Housing Programs
36
           HUD OIG completed two audits of the Housing Authority of the City of Terre Haute, IN’s Section
       8 Housing Choice Voucher program. The first audit found that the Authority’s program administration
       regarding housing unit conditions was inadequate. Of the 55 housing units inspected, 31 did not meet HUD’s
       housing quality standards, and 22 had 133 violations that existed at the time of the Authority’s previous
       inspections. The 22 units had between 1 and 32 preexisting violations per unit. The Authority generally
       complied with Federal regulations when abating units that failed inspections.

           OIG recommended that HUD require the Authority to reimburse its program from non-Federal funds for
       the improper use of more than $11,000 in program funds and implement adequate procedures and controls
       to address the finding cited to prevent more than $341,000 from being spent on units with material housing
       quality standards violations over the next year. (Audit Report: 2010-CH-1005)

           The second audit found that the Authority paid housing assistance for the wrong payment standard
       and inappropriate housing and created conflicts of interest regarding its for-profit and nonprofit entities.
       Households on the waiting list were forced to increase their waiting period before receiving assistance under
       the program. In addition, the Authority paid nearly $117,000 in housing assistance for units that were not
       allowed under HUD’s requirements. Further, there was no assurance that households lived in qualified
       housing, paid the appropriate rents, and were housed fairly and that applicants were properly screened.
       The Authority also failed to operate its Family Self-Sufficiency program correctly and made more than
       $58,000 in escrow payments to households contrary to Federal requirements. Lastly, the Authority’s program
       administration regarding housing assistance payment calculations, documentation to support households’
       eligibility for housing assistance, and its Section 8 project-based certificate contract was inadequate.

           OIG recommended that HUD require the Authority to (1) implement a detailed comprehensive plan to
       improve its programs, (2) reimburse its Housing Choice Voucher program more than $126,000 from non-
       Federal funds for the improper use of program funds, (3) reimburse its Family Self-Sufficiency program
       more than $58,000 from non-Federal funds for its improper use of funds, (4) provide support or reimburse
       its Housing Choice Voucher program nearly $9,000 from non-Federal funds for the unsupported housing
       assistance payments, and (5) implement adequate procedures and controls to address the findings cited to
       prevent more than $15,000 in program funds from being spent on excessive housing assistance and utility
       allowances over the next year.

          OIG also recommended that HUD take administrative action against the former executive director and
       former board of commissioners for failing to administer the Authority according to HUD’s and its own
       requirements. (Audit Report: 2010-CH-1013)

                                                            ppp

            HUD OIG audited the Section 8 program of the Compton Housing Authority in Compton, CA, and
       found that the Authority did not use Section 8 program funds in accordance with HUD rules and regulations
       as it did not fully comply with portability procedures and responsibilities. It was not fully reimbursed for
       housing assistance payments made for its portability tenants. Additionally, there was a lack of tracking and
       reconciliation between what was paid and what was received. As a result, over the years, the Authority
       used more than $2.2 million from its net restricted assets account to pay for the shortfall, operated in a deficit
       situation, and did not have sufficient funds to pay for its portability tenants. Ultimately, these deficiencies
       put tenants at risk of losing their housing assistance.

           OIG recommended that HUD require the Authority to (1) implement procedures and controls to track and
       reconcile portability tenants’ housing assistance paid and received from the respective initial public housing
       authorities, (2) seek reimbursement of nearly $190,000 from initial housing authorities for unreimbursed




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    37
housing assistance payments for portability tenants, (3) reimburse nearly $56,000 in overpaid housing
assistance to the respective initial housing authorities, (4) and evaluate and reconcile its portability tenant
billings and payments for calendar year 2010 after implementation of the procedures and controls. (Audit
Report: 2010-LA-1016)

                                                    ppp

     HUD OIG audited the Section 8 Housing Choice Voucher program of the Lake Metropolitan Housing
Authority in Painesville, OH, based upon a congressional request and found that the Authority’s program
administration regarding its program procurement and zero-income households was inadequate but it
generally complied with the Family Self-Sufficiency program requirements. The Authority failed to follow
its procurement and ethical policies regarding possible conflicts of interest when obtaining contracted
services for its program. OIG identified deficiencies in all 13 contractual agreements reviewed. As a result,
full and open competition was hindered, and the Authority paid more than $64,000 in unsupported contract
expenses and more than $3,000 in inappropriate contract expenses.

    Further, the Authority failed to comply with its program administrative plan regarding zero-income
household reviews. Of the 58 zero-income households reviewed, 29 had either excluded or unreported
income that affected their housing assistance payments. As a result, the Authority overpaid housing assistance
and utility allowances, totaling more than $36,000, for households that were required to meet their rental
obligations. It generally complied with the Family Self-Sufficiency program requirements. However, of
the 32 participant files with escrow balances reviewed, 20 contained errors in one or more of the escrow
credit applications, resulting in more than $14,000 in escrow credit overpayments and more than $3,000 in
escrow credit underpayments.

    OIG recommended that HUD require the Authority to (1) provide documentation or reimburse its
program from non-Federal funds for the unsupported payments cited, (2) reimburse its program from non-
Federal funds for the improper use of more than $68,000 in program funds, and (3) implement adequate
procedures and controls to address the findings cited to prevent more than $19,000 in program funds from
being spent on excessive escrow credits, housing assistance and utility allowance payments, and contract
payments. (Audit Report: 2010-CH-1015)

Public Housing and Voucher Programs
    HUD OIG audited HUD’s Office of Public Housing and Voucher Programs to determine whether HUD
reasonably ensured that public housing agencies properly managed their housing choice voucher net
restricted assets and appropriately awarded 2009 set-aside fund awards for unforeseen circumstances and
higher than average leasing.

    HUD had discovered that it did not have accurate information about public housing agency net restricted
assets and had taken appropriate steps to improve its controls. In addition, HUD did not ensure that about
$18,000 in set-aside funds was used for its intended purpose. It immediately resolved this discrepancy.

    OIG recommended that HUD (1) rectify the discrepancy for the award overpayment, (2) check the
accuracy of other unforeseen circumstance awards made for similar tenant income reductions and rectify any
discrepancies, and (3) correct the process for future similar awards. HUD agreed with the recommendations
and had addressed them. There were no additional recommendations. (Audit Report: 2010-KC-0001)




                                                                   Chapter 2 - Public and Indian Housing Programs
38
       Public Housing Program Activities
           HUD OIG audited the central office procurement system of the Puerto Rico Public Housing Administration
       (authority) in San Juan, PR, to determine whether (1) the authority’s procurement policies and procedures
       complied with HUD requirements, (2) it followed its policies and procedures and HUD procurement
       requirements, (3) it adequately supported the reasonableness of the cost of goods and services acquired,
       and (4) an electronic surveillance system installed at several of its public housing projects generated the
       intended benefits.

           Generally, the authority complied with requirements for planning, soliciting, and awarding contracts
       and purchase orders. However, the review identified procurement deficiencies in two contracts and three
       purchase orders, which resulted in monetarily significant deficiencies. The authority used an improper
       procurement procedure, failed to perform required cost analyses, and paid for equipment that was not used
       or missing. It also awarded purchase orders for other than the lowest quoted price without justification and
       paid more than the contract price. In addition, the electronic surveillance system installed at several of its
       public housing projects did not generate the intended benefits. As a result, the authority did not support
       the reasonableness of more than $9.7 million in contracts, paid more than $3.57 million for equipment that
       did not provide the intended benefits, and paid more than $28,000 for excessive expenditures.

           OIG recommended that HUD require the authority to (1) provide support showing the eligibility and
       reasonableness of more than $9.7 million spent on contracts that were not awarded in accordance with
       HUD requirements or reimburse its programs from non-Federal funds and (2) reimburse its public housing
       program more than $3.6 million paid for excessive costs and unused/missing equipment. In addition,
       OIG recommended that HUD evaluate the surveillance system installed throughout the authority’s public
       housing projects and determine whether it was implemented in an effective and efficient manner. (Audit
       Report: 2010-AT-1009)

                                                          ppp

           HUD OIG audited the procurement function of the Harrisburg Housing Authority in Harrisburg, PA,
       to determine whether the Authority procured goods and services in accordance with HUD regulations and
       other applicable requirements.

           The Authority did not purchase goods and services in accordance with HUD regulations and its
       procurement policy. OIG identified deficiencies with the Authority’s purchases of goods and services from
       17 of 20 vendors reviewed. The Authority acquired goods and services without having contracts in place
       and after contracts had expired. Also, it improperly awarded noncompetitive contracts and did not maintain
       records to document the significant history of procurements.

            OIG recommended that HUD require the Authority to (1) provide documentation to support that
       payments for goods and services, totaling $1.7 million, were fair and reasonable or reimburse the applicable
       programs from non-Federal funds for any amounts that it cannot support, (2) develop and implement controls
       to ensure that it complies with all applicable procurement requirements, (3) provide procurement training to
       all employees involved in the procurement process, and (4) develop and implement a contract administration
       system. OIG also recommended that HUD expand its monitoring of the Authority’s procurement function
       to ensure that it operates in compliance with applicable requirements. (Audit Report: 2010-PH-1012)

                                                          ppp




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    39
   HUD OIG audited the Housing Authority of Whitesburg, KY, to determine whether the Authority
properly accounted for cash receipts and disbursements and made procurements in accordance with Federal
requirements.

    The Authority mismanaged its operations. It (1) did not properly account for rental receipts, (2) failed
to prepare and file some quarterly tax returns and deposit more than $64,000 in Federal withholding taxes
with the Internal Revenue Service, (3) could not support a number of disbursements and spent more than
$29,000 for various unnecessary and/or unreasonable costs, and (4) failed to follow Federal procurement
regulations when awarding Public Housing Capital Fund program contracts and change orders and could
not support capital fund drawdowns. As a result, fewer funds were available for the Authority’s primary
mission, and it was unable to fully meet its financial obligations.

     OIG recommended that HUD declare the Authority in substantial default in accordance with its annual
contributions contract and require it to (1) establish an effective system of internal controls for all aspects
of its operations, (2) account for nearly $135,000 in tenant rent receipts and support more than $264,000 in
disbursements and more than $275,000 in drawdowns, (3) support that contracts totaling nearly $447,000
were fairly and openly competed, (4) file missing tax returns and make all required tax deposits, and (5)
implement requested actions in the memorandum of agreement between HUD and the Authority. OIG also
recommended that HUD take appropriate administrative action against the Authority officials responsible
for mismanaging its operations. (Audit Report: 2010-AT-1003)

                                                    ppp

    HUD OIG audited the New Rochelle, NY, Municipal Housing Authority’s administration of its low-
rent housing program to determine whether the Authority administered its program in accordance with
applicable regulations.

    The Authority had weaknesses in the administration of its low-rent program because it did not (1)
properly determine tenant eligibility; (2) ensure that program units were decent, safe, and sanitary; and (3)
support rent charged to an employee-tenant. In addition, the Authority had weaknesses in its procurement,
payroll, and financial management functions because it (1) executed contracts contrary to HUD’s and its
own policy, (2) did not maintain adequate support for payroll, and (3) expended and loaned funds among
programs contrary to regulation. As a result, the Authority lacked assurance that low-rent program tenants
were properly certified and resided in units that were decent, safe, and sanitary; services were obtained at
the most economical and efficient price; payroll costs were eligible and adequately supported; and funds
were always expended in accordance with HUD regulations.

    OIG recommended that HUD instruct Authority officials to (1) strengthen controls over low-rent
tenant certification and unit inspection procedures to ensure that tenant eligibility is properly determined
and adequately documented and that annual inspections of low-rent units are conducted; (2) establish
procedures for the approval and calculation of rents; (3) provide documentation to justify the rent charged
to an employee-tenant or pay the more than $57,000 that should have been collected; (4) strengthen controls
to ensure compliance with HUD procurement, payroll, and financial management regulations; and (5) repay
from non-Federal funds the more than $38,000 expended for ineligible costs. (Audit Report: 2010-NY-1010)

                                                    ppp

    HUD OIG reviewed selected transactions at the Wilmington Housing Authority in Wilmington, NC, to
determine whether the Authority misused HUD funds in its purchase of either Eastbrook Apartments or a
tract of vacant land known locally as the “Winfield Smith” property.




                                                                   Chapter 2 - Public and Indian Housing Programs
40
           The Authority misused nearly $210,000 in HUD Section 8 reserves to make mortgage payments on a
       non-HUD development, Eastbrook Apartments, and nearly $58,000 in HUD replacement housing factor
       funds to purchase vacant land. As a result, these funds were not available to assist the Authority’s low-
       income residents as HUD intended.

          OIG recommended that HUD require the Authority to repay its Section 8 administrative fee reserves
       nearly $210,000 and its capital fund account nearly $58,000 from non-Federal funds and provide HUD
       evidence that it has implemented effective controls to better ensure the proper use of HUD funds. (Audit
       Report: 2010-AT-1805)

                                                         ppp

           HUD OIG audited the New Rochelle, NY, Municipal Housing Authority’s administration of its Resident
       Opportunities and Self-Sufficiency (ROSS) and Housing Choice Voucher Family Self-Sufficiency grant
       programs to determine whether the Authority expended ROSS and Family Self-Sufficiency program funds
       for eligible costs and implemented adequate controls over the programs to ensure compliance with HUD
       regulations.

           Contrary to regulations, Authority officials charged the grants ineligible and unsupported expenses
       related to charges incurred before the execution of grant agreements and for costs under another grant. In
       addition, the Authority had control weaknesses in its procedures for administering its ROSS and Family
       Self-Sufficiency programs, causing program participants to not be credited with the proper escrow amount
       and noncompliance with program administrative requirements.

           OIG recommended that HUD instruct Authority officials to (1) repay from non-Federal funds the nearly
       $220,000 in ineligible expenses charged to the grant programs, (2) support or repay from non-Federal funds
       nearly $101,000 related to the unsupported charges paid with ROSS and Family Self-Sufficiency program
       funds, (3) recoup a nearly $300 overpayment from and pay nearly $3,000 due to Family Self-Sufficiency
       program participants, and (4) develop procedures to ensure compliance with all ROSS and Family Self-
       Sufficiency program administrative requirements. (Audit Report: 2010-NY-1011)

                                       ppp

           HUD OIG audited the Georgetown, TX, Housing Authority
       due to a congressional request. The objectives were to determine
       (1) whether the Authority and/or its nonprofit affiliates used HUD
       funding for recent developments and if so, whether they followed
       HUD regulations and (2) whether the Authority used HUD funds only
       for eligible expenditures.

           The Authority’s nonprofit related entities did not develop public
       housing units in their recent development projects; therefore, they
       were not required to follow HUD regulations for the developments.
       However, the Authority violated its annual contributions contract
       when it used nearly $196,000 in HUD funding for development costs
       and other ineligible and unsupported expenditures. In addition,
       the Authority’s financial records were inaccurate. As a result, it had
       fewer funds available to operate its HUD-funded programs, and its
       stakeholders were unaware of its true financial position.


                                                                     Copyright 2010. Austin American Statesman. Austin, TX.
                                                                                                  Reprinted with permission.

     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    41
    OIG recommended that HUD require the Authority to (1) reimburse its Housing Choice Voucher program
fund more than $48,000 from non-Federal sources for ineligible development costs, (2) hire an independent
firm to perform a comprehensive review of the more than $137,000 in questioned low-rent funds to determine
the source and appropriated year and require reimbursements as appropriate, (3) provide support for or
reimburse its Housing Choice Voucher program fund more than $1,000 in unsupported expenditures, (4)
correct its books and records to show its true financial position, (5) reverse more than $9,000 in expenses for
voided checks and record the voids in the general ledger, and (6) develop and implement written policies
and procedures regarding financial and disbursement controls. OIG also recommended that HUD take
appropriate actions to ensure that the former executive director does not place HUD programs at further
risk, including but not limited to issuing a limited denial of participation. (Audit Report: 2010-FW-1004)

Review of Public Housing Authorities To Determine Whether
Multifamily Property Owners Were Overpaid
   HUD OIG conducted a national audit of public housing authorities to determine whether they overpaid
voucher subsidies to multifamily property owners in specific types of subsidized properties.

    Public housing authorities generally did not overpay subsidies to subsidized multifamily properties. OIG
compared addresses of 1.93 million housing choice vouchers with addresses of 17,684 multifamily properties
with Federal loans. OIG identified 193 addresses for which a voucher payment was made to the owner of
a subsidized multifamily property, and 148 of these vouchers were reported correctly. The remaining 45
vouchers were incorrectly reported. For these 45 vouchers, OIG did not find that the vouchers had common
property owners, common public housing authorities, or common management agents.

    OIG recommended that HUD update Housing Choice Voucher Guidebook 7420.10G to include a section
on the relationship between properties with Federal loans and the public housing authorities’ rental payments
to those properties’ owners. (Audit Report: 2010-BO-0003)

                                                    ppp




                                                                   Chapter 2 - Public and Indian Housing Programs
42
       Investigations
          Some investigations discussed in this report were generated from leads provided by HUD public
       and Indian housing program staff and conducted jointly with Federal, State, and local law enforcement
       agencies. The results of various significant investigations are described below.


                   Strategic Initiative 2: Contribute to the reduction of erroneous
                                     payments in rental assistance
            Key program                Cases                  $            Convictions/pleas/       Admin/civil
              results                  closed             recovered             pretrials             actions

           Investigations               143              $10,308,337                 196                    149
                 Our                  Page 43         •	 Public housing authority theft/embezzlement
                focus                 Page 47         •	 Rental assistance fraud
                                      Page 51         •	 FedRent Initiative
                                      Page 51         •	 Fugitive Felon Initiative
                                      Page 52         •	 Civil and administrative actions
                                      Page 52         •	 Other fraud/crimes




                    Chart 2.2: Percentage of OIG public and Indian housing closed
                           investigation cases during this reporting period



                                                                                           Region 1 - 2%
                                                                                           Region 2 - 18%
                                                                                           Region 3 - 5%
                                                                                           Region 13 - 1%
                                                                                           Region 4 - 4%
                                                                                           Region 14 - 7%
                                                                                           Region 5 - 7%
                                                                                           Region 15 - 7%
                                                                                           Region 6 - 11%
                                                                                           Regions 7/8 - 3%
                                                                                           Region 9 - 18%
                                                                                           Region 10 - 13%
                                                                                           Region 11 - 4%




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                        43
Public Housing Authority Theft/Embezzlement
    Doris Abeyta, the former Alamosa Housing Authority (Alamosa) executive director, and Jeffery Guntle
were collectively sentenced in U.S. District Court, Denver, CO, to 37 months incarceration, 3 years supervised
release, and 5 years probation and ordered to perform 200 hours of community service and pay HUD
$643,882 in restitution for their earlier guilty pleas to committing theft from a program receiving Federal
funds or money laundering. In addition, former Alamosa assistant executive director Terri Lucero pled
guilty to filing a false Federal income tax return, Abeyta and Lucero were suspended from procurement and
nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
pending the outcome of related debarment actions, and Guntle was debarred for 36 months. From April
1998 to November 2007, the above defendants and others embezzled more than $1.3 million in Alamosa
funds when they generated or negotiated unauthorized housing authority checks.

                                                   ppp

    Charlesetta Jackson and Danielle Collins, a former Kansas City Housing Authority (Kansas City)
employee and Housing Choice Voucher program participant, were collectively sentenced in U.S. District
Court, Kansas City, KS, to 36 months incarceration, 6 months home confinement, and 5 years probation
and ordered to pay a number of housing authorities $293,782 in restitution for their earlier guilty pleas to
committing a conspiracy, mail fraud, and bribery. From March 2007 to January 2008, Jackson and Collins
accepted bribes from unqualified housing applicants in exchange for Section 8 vouchers. HUD realized
losses of $236,480.

                                                   ppp

    Jennifer Edwards, the former director of the Delaware County Housing Authority (Delaware County),
paid Delaware County $213,000 and was sentenced in U.S. District Court, Indianapolis, IN, to 54 months
probation for her earlier guilty plea to committing theft and embezzlement. From 2004 to 2009, Edwards
created false invoices and fraudulently obtained $170,000 in Delaware County funds and used an additional
$43,000 in Delaware County funds to pay for repairs to her residence.

                                    ppp

    Laura Morales, the former executive director of the Bexar County Housing
Authority (Bexar County), was sentenced in U.S. District Court, San Antonio,
TX, to 5 years probation and ordered to pay Bexar County $131,144 in restitution
for her earlier guilty plea to committing theft of government funds. From 2003
to June 2008, Morales claimed unearned leave hours and fraudulently obtained
$131,144 in Bexar County funds.

                                    ppp

    Tracey White-Jenkins, the former Irvington Housing Authority Section
8 director, was sentenced in U.S. District Court, Newark, NJ, to 18 months
incarceration and 36 months probation and ordered to pay HUD $34,458
and Travelers Insurance $71,918 in restitution for her earlier guilty plea to
committing theft of government funds and submitting a false Federal income
tax return. White-Jenkins fraudulently obtained, deposited, and personally
used $106,376 in Irvington housing assistance payments.

                                    ppp                                   Copyright 2010. San Antonio Express News.
                                                                          San Antonio, TX. Reprinted with permission.


                                                                  Chapter 2 - Public and Indian Housing Programs
44
           Donna Little Dog and Cletus Running Wolf, a former Blackfeet Housing Authority (Blackfeet) payroll
       coordinator and employee, were collectively sentenced in U.S. District Court, Great Falls, MT, to 26 months
       incarceration and ordered to pay Blackfeet $131,563 in restitution for their earlier guilty pleas to committing
       theft from a program receiving Federal funds or aiding and abetting. From 2005 to 2009, Little Dog issued
       $104,343 in unauthorized payroll checks to Running Wolf.

                                                           ppp

           William Deatrick, the former Brevard Family of Housing (Brevard) director of facilities, was arrested
       after his indictment in U.S. District Court, Orlando, FL, for allegedly committing a conspiracy and theft from
       a program receiving Federal funds. In addition, former Brevard contractor Derrick O’Neal pled guilty to
       committing theft or bribery from a program receiving Federal funds. From August 2005 to November 2006,
       Deatrick allegedly solicited and accepted bribes from Brevard contractors in return for Brevard contracts,
       and O’Neal admittedly provided more than $100,000 in kickbacks to Deatrick.

                                                           ppp

          William Pollock, a former assistant executive director for the Knox County Housing Authority (Knox
       County), pled guilty in U.S. District Court, Knoxville, TN, to committing theft and embezzlement. From
       October 2005 to October 2008, Pollock embezzled $37,191 in Knox County funds.

                                                           ppp

           Katisha Simmons, a former St. Louis County Housing Authority (St. Louis County) Section 8 caseworker,
       pled guilty in U.S. District Court, St. Louis, MO, to misapplication of government funds. In addition, former
       St. Louis County Section 8 landlord Michael Moore was sentenced to 60 months probation and ordered to
       pay St. Louis County $30,834 in restitution for his earlier guilty plea to committing blackmail. Between March
       and April 2009, Simmons manipulated the St. Louis County accounting system and caused the issuance of
       $30,834 in unauthorized housing assistance payments to Moore in exchange for about one-half of the funds.

                                                           ppp

           Lesvia Barrera, the former executive director of the Eagle Pass Housing Authority, was sentenced in U.S.
       District Court, Eagle Pass, TX, to 15 months incarceration and 3 years supervised release and ordered to pay
       HUD $21,295 in restitution for his earlier conviction of committing a conspiracy to defraud the government.
       During October 2001 and August 2003, Barrera and previously convicted Juan Sifuentes submitted $17,800
       in false claims to HUD.

                                                           ppp

           Barbara Hollowell, the former executive director of the Benton Harbor Housing Commission (Benton
       Harbor), was sentenced in U.S. District Court, Grand Rapids, MI, to 1 day incarceration and 24 months
       supervised release and ordered to perform 200 hours of community service and pay Benton Harbor $21,401
       and the Social Security Administration (SSA) $4,469 in restitution for her earlier guilty plea to committing
       theft of government funds and SSA fraud. Hollowell fraudulently used a Benton Harbor credit card and
       obtained about $12,000 in personal use items and failed to report employment income on SSA retirement
       certifications.

                                                           ppp




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                   45
    Randy Dinwiddie, the former executive director of the Clinton Housing Authority (Clinton), was charged
in Henry County District Court, Clinton, MO, with allegedly committing theft. In May 2010, Dinwiddie
allegedly stole $9,997 in Clinton funds.

                                                   ppp

    Tomas Rodriguez, the former executive director of the El Paso County Housing Authority (El Paso
County), was sentenced in U.S. District Court, El Paso, TX, to 9 months incarceration and 2 years supervised
release and ordered to perform 100 hours of community service and pay El Paso County $9,900 in restitution
for his earlier guilty plea to committing theft from a program receiving Federal funds. From March 2006
to April 2007, Rodriguez used a former El Paso County maintenance employee to renovate an apartment
complex that he owned while the employee earned wages from the housing authority.

                                                   ppp

   Tammy Sawyers, the former director of the North Chicago Housing Authority (North Chicago), was
charged in Lake County Circuit Court, Chicago, IL, with allegedly committing theft. From 2006 to 2008,
Sawyers allegedly failed to report her ownership interest in or the tenant vacancy of two North Chicago
subsidized housing units and obtained about $9,800 in housing assistance she was not entitled to receive.

                                                   ppp

   Lawand Johnson, the former executive director of the St. John the Baptist Parish Housing Authority (St.
John), was sentenced in Louisiana State Court, Laplace, LA, to 2 months incarceration (suspended) and 6
months probation and fined $500 for his earlier guilty plea to committing theft. From May to November
2009, Johnson used $2,000 in St. John funds to pay personal expenses.

                                                   ppp

    Roman Reyes, a former San Antonio Housing Authority (San Antonio) maintenance supervisor, pled
guilty in U.S. District Court, San Antonio, TX, to accepting bribes, and former San Antonio project manager
Robert Olivares was sentenced to 2 years probation and ordered to pay the U.S. Department of Justice $7,200
in restitution for his earlier guilty plea to accepting bribes. Between May 2008 and March 2009, Reyes and
Olivares accepted bribes from San Antonio contractors in exchange for housing authority contracts.

                                                   ppp

    Rosa Reyes, a former Nassau County Office of Housing and Intergovernmental Affairs (Nassau County)
employee, was indicted in Nassau County Court, Mineola, NY, for allegedly committing grand larceny
and official misconduct, accepting bribes, offering a false instrument for recording, and falsifying business
records. In addition, Catherine Diaz, a former Nassau County housing specialist and treasurer of the
Association of Long Island Housing Agencies (Association), pled guilty to committing grand larceny and
official misconduct. Between July 2003 and July 2008, Reyes allegedly and Diaz admittedly solicited and
accepted bribes from housing applicants in exchange for preferential placement on the subsidized housing
waiting list, and from May 2006 to September 2007, Diaz stole and personally used more than $3,000 in
Association funds.

                                                   ppp




                                                                  Chapter 2 - Public and Indian Housing Programs
46
           Muriel Goldtooth, a former Tohono O’Odham Ki:Ki Association (Tohono O’Odham) employee, was
       charged in Tohono O’Odham Nation Judicial Court, Sells, AZ, with allegedly committing a conspiracy,
       fraud, forgery, and theft. From December 2000 to September 2002, Muriel Goldtooth allegedly misused the
       Tohono O’Odham credit card, fraudulently obtained wages and overtime payments, and conspired with
       previously convicted Tohono O’Odham executive director Loren Goldtooth when he used Tohono O’Odham
       funds for personal expenses. HUD losses have not yet been determined.

                                                          ppp

           Donna English, doing business as Project Managers, Inc., a Michigan City Housing Authority (Michigan
       City) contractor, was charged in U.S. District Court, Hammond, IN, with allegedly committing theft and
       mail and wire fraud. From 2002 to 2008, English allegedly submitted false invoices and obtained payments
       from Michigan City for products and services not provided and failed to repay the Federal Communications
       Commission E-Rate Program for cash advances she obtained. HUD losses have not yet been determined.

                                                          ppp

           Alfredo Lopez, a former San Antonio Housing Authority (San Antonio) maintenance supervisor, was
       sentenced in U.S. District Court, San Antonio, TX, to 3 years probation for his earlier guilty plea to making
       false statements. In December 2007, Lopez accepted a motorcycle trailer from a San Antonio contractor in
       exchange for San Antonio contracts and lied to Federal agents when questioned.

                                                          ppp

           Edward Washburn, the former Cheyenne River Housing Authority (Cheyenne River) director of
       modernization, was indicted in U.S. District Court, Pierre, SD, for allegedly accepting a thing of value and
       being influenced in a transaction. From September 2005 to October 2008, Washburn allegedly accepted
       kickbacks from a contractor in exchange for Cheyenne River contracts.

                                                          ppp

           Kerri Bizzell, a former Philadelphia Housing Authority (Philadelphia) contracting officer, was indicted
       in U.S. District Court, Philadelphia, PA, for allegedly committing extortion and obstruction of justice. From
       December 2007 to May 2008, Bizzell allegedly solicited and accepted kickbacks from contractors in exchange
       for Philadelphia contracts.

                                                          ppp

           John Fischer, the former capital improvements administrator of the Buffalo Municipal Housing Authority
       (Buffalo), pled guilty in U.S. District Court, Buffalo, NY, to interfering with commerce under color of an
       official right. Fischer pressured a Buffalo contractor to provide and install a roof at a private residence
       in exchange for his support on a Buffalo project. In addition, Fischer attempted to influence the official
       statements provided by others after he learned of the ongoing investigation.

                                                          ppp

           Frank Isaac and Charles Williams, former Cuyahoga Metropolitan Housing Authority (Cuyahoga)
       housing inspectors, were each charged in Cuyahoga County Court of Common Pleas, Cleveland, OH, with
       allegedly committing bribery. Isaac and Williams allegedly conducted or granted extensions for Cuyahoga
       Housing Choice Voucher program housing inspections in exchange for cash payments.




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                           47
Rental Assistance Fraud
    Fourteen Palm Beach County Housing Authority (Palm
Beach County) subsidized housing recipients or landlords were
each arrested and charged in the 15th Judicial Circuit Court,
Wellington, FL, with allegedly committing public assistance
or homestead exemption fraud, grand theft, or an organized
scheme to defraud. In addition, Palm Beach County housing
recipient Stephanie Porter entered into a pretrial diversion and
agreed to perform 25 hours of community service and pay Palm
Beach County $2,660 in restitution, and former housing recipients
Sonya Stewart and Anthony Brides were collectively sentenced
to 48 months supervised release and ordered to pay Palm Beach
County $62,215 in restitution for their earlier guilty pleas to
committing grand theft or public assistance fraud. Between April
2001 and July 2010, the above defendants allegedly failed to report
income, assets, unauthorized residents, or the subleasing of their
subsidized units, and from January to December 2009, Stewart
failed to report the criminal histories of authorized residents on
housing certifications. Collectively, the above defendants obtained
more than $590,000 in housing assistance they were not entitled
to receive.

                              ppp

    Michael Chezan and Calvin Early, a Chicago Housing
Authority (Chicago) Section 8 landlord and former Chicago
housing recipient, were each indicted in U.S. District or Cook
County Circuit Courts, Chicago, IL, for allegedly committing theft,
theft by deception, or mail fraud. In addition, former Chicago
housing recipient Hubert Williams was sentenced to 9 months                   Copyright 2010. The Palm Beach Post. Palm
home detention and 27 months probation and ordered to pay HUD                      Beach, FL. Reprinted with permission.
$24,218 and the SSA and others $56,485 in restitution for his earlier
guilty plea to committing theft of government funds, and former
Chicago Section 8 landlord Jonathan Hon was sentenced to 30
months incarceration and 5 years supervised release and ordered
to pay HUD $200,000 and others $1.89 million in restitution for his
earlier guilty plea to committing wire fraud. Between July 2002
and July 2008, Chezan allegedly provided false documents and
obtained housing assistance payments for properties he did not
own, Early allegedly failed to report his receipt of dual housing
subsidies, Williams failed to report income and used the Social
Security number (SSN) belonging to another individual, and Hon
failed to report the sale of his subsidized properties and provided
fraudulent documents used by unqualified borrowers to obtain
conventional mortgages. Collectively, the above defendants
obtained about $404,218 in housing assistance and $56,486 in SSA
and other benefits they were not entitled to receive.

                              ppp



                                                                      Chapter 2 - Public and Indian Housing Programs
48
           Thirty-four current or former Georgia Department of Community Affairs subsidized housing recipients
       were each arrested and charged in various Georgia Courts, GA, with allegedly making false statements and
       writings, committing theft by taking or deception, or obtaining public assistance through fraud. Between
       April 2004 and January 2010, the above defendants allegedly provided false information or failed to report
       income, accurate household compositions, or unauthorized residents on housing certifications and collectively
       obtained $376,329 in housing assistance they were not entitled to receive.

                                                           ppp

           Nine New York City Housing Authority (New York City) housing recipients or landlords were each
       charged in U.S. District Court, Manhattan, NY, with allegedly making false statements or committing theft
       of government funds. In addition, New York City housing recipient Rhonda Jordon was sentenced to 36
       months supervised release and ordered to perform 100 hours of community service and pay New York City
       $37,783 in restitution for her earlier guilty plea to making false statements to HUD. Between May 2002
       and July 2010, Jordan admittedly and the remaining defendants allegedly failed to report income, assets,
       their nonresidency and the subleasing of their subsidized unit, dual housing subsidies, accurate household
       compositions, or familial relationships to their Section 8 landlords or used the identity of another and
       attempted to obtain housing assistance. Collectively, the above defendants obtained $358,848 in housing
       assistance they were not entitled to receive.

                                                           ppp

           Angie Quiroz and Konrad Seisl, a former Easton Housing Authority Section 8 tenant and landlord, were
       each indicted in U.S. District Court, Boston, MA, for allegedly committing a conspiracy and theft of public
       money. In addition, former Chelsea Housing Authority (Chelsea) public housing tenant Lizbeth Valerio
       and Boston Housing Authority (Boston) Section 8 tenant Martine Bastien were collectively sentenced to 24
       months and 1 day incarceration, 1 year probation, and 3 years supervised release and ordered to pay Chelsea
       and Boston $75,114 and the SSA and others $110,592 in restitution for their earlier conviction or guilty plea to
       making a false claim to a government agency or committing mail fraud, identity theft, or larceny. Between
       1995 and January 2010, Quiroz and Seisl allegedly (Valerio was found guilty) and Bastien admittedly failed
       to report income, assets, or unauthorized residents on housing certifications and collectively obtained
       $105,534 in housing assistance they were not entitled to receive.

                                                           ppp

          Five current or former Montgomery County Housing Opportunities Commission (Montgomery County)
       subsidized housing recipients were each charged in Montgomery County District Court, Baltimore or Silver
       Spring, MD, with allegedly making false statements or committing public assistance fraud and theft. In
       addition, former Montgomery County housing recipient Rogie Hancock was sentenced to 4 years supervised
       probation and ordered to pay Montgomery County $22,386 in restitution for her earlier guilty plea to
       making false statements. Between June 2004 and May 2009, the above defendants allegedly and Hancock
       admittedly failed to report income on housing certifications and collectively obtained about $100,806 in
       housing assistance they were not entitled to receive.

                                                           ppp

          Jennifer Mathias-Kraft and Harrison Fobb, former Adams County Housing Authority (Adams County)
       housing recipients, were each charged in Adams County District Court, Thornton, CO, with allegedly
       committing theft or forgery. In addition, former Adams County housing recipient Jacquelyne Garcia was
       sentenced to 2 years probation and fined $1,658 for her earlier guilty plea to committing forgery. Between




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    49
2004 and 2009, Mathias-Kraft and Fobb allegedly and Garcia admittedly failed to report income or accurate
household compositions on housing certifications and collectively obtained $93,436 in housing assistance
they were not entitled to receive.

                                                    ppp

    April Brown, Tamara Cunningham, and Shakeya Dorsey, McKeesport Housing Authority housing
recipients, were each charged in Allegheny County Court, McKeesport, PA, with allegedly committing
theft by deception. The above defendants allegedly failed to report income on housing certifications and
collectively obtained $93,173 in housing assistance they were not entitled to receive.

                                                    ppp

    Five former Salt Lake City or Salt Lake County Housing Authorities authorized and unauthorized
housing recipients or a landlord were each charged in Utah State Court, Salt Lake City, UT, with allegedly
obtaining housing assistance through fraud. In addition, former Salt Lake City housing recipient Katinia
Tuupo was sentenced to 36 months supervised probation and ordered to pay Salt Lake City $23,963 and the
Utah Workforce Services $5,775 in restitution for her earlier guilty plea to attempted housing and public
assistance fraud. Between November 2005 and January 2010, the above defendants allegedly and Tuupo
admittedly failed to report income or unauthorized residents on housing certifications and collectively
obtained $86,982 in housing assistance they were not entitled to receive.

                                                    ppp

    Shichella Wiley, a former Indianapolis Housing Agency (Indianapolis) Section 8 tenant, was charged
in Marion County Superior Court, Indianapolis, IN, with allegedly committing theft, welfare fraud, and
perjury. In addition, former Indianapolis housing recipient Annette Perry pled guilty to committing welfare
fraud, and Indianapolis Section 8 tenant Jonessa Gillespie was sentenced to 2 years electronic monitoring
and 1 year probation and ordered to pay Indianapolis $20,651 in restitution for her earlier guilty plea to
committing welfare fraud. Between 2005 and 2010, Wiley allegedly and Perry and Gillespie admittedly failed
to report income, accurate household compositions, or their criminal histories on housing certifications and
collectively obtained $86,648 in housing assistance they were not entitled to receive.

                                                    ppp

   Nelson Torres, Isabel Gonzales, and Ana Rodriguez, a Brookhaven Housing Authority Section 8 landlord
and tenants, were each arrested and charged in Suffolk County District Court, Coram, NY, with allegedly
committing grand larceny and offering a false instrument for recording. From 2005 to August 2010, the above
defendants allegedly failed to report assets or their joint residency on housing certifications and collectively
obtained about $85,000 in housing assistance they were not entitled to receive.

                                                    ppp

    Tracy Webster, a former Cambridge Housing Authority Section 8 tenant, was arrested and charged in
U.S. District Court, Cambridge, MA, with allegedly making a false statement. From May 2005 to August
2008, Webster allegedly failed to report income on housing certifications and obtained $81,828 in housing
assistance she was not entitled to receive.

                                                    ppp




                                                                   Chapter 2 - Public and Indian Housing Programs
50
          Carlesia Alexander, a former Las Vegas Housing Authority (Las Vegas) Section 8 tenant, was charged in
       Las Vegas Justice Court, Las Vegas, NV, with allegedly committing theft, and former Las Vegas Section 8
       tenant Angela Carpenter pled guilty to committing attempted theft. Between January 2005 and July 2009,
       Alexander allegedly and Carpenter admittedly failed to report income or an accurate marital status or
       household composition on housing certifications and together obtained $79,304 in housing assistance they
       were not entitled to receive.

                                                           ppp

           Larry Spratt and Brenda Grubisich, former Cook County Housing Authority Section 8 tenants, were
       collectively sentenced in Cook County Circuit Court, Chicago, IL, to 2 years incarceration, 1 year supervised
       release, and 48 months probation and ordered to pay HUD $20,000 in restitution for their earlier guilty pleas
       to committing theft. Between 2000 and 2008, Spratt and Grubisich failed to report income or their ownership
       interest in the subsidized property on housing and other certifications and together obtained $79,087 in
       housing assistance and $172,733 in SSA and other benefits they were not entitled to receive.

                                                           ppp

           Ruth Herman, a former Concord Housing Authority public housing tenant, was sentenced in Middlesex
       County Superior Court, Woburn, MA, to 4 years probation and ordered to pay Concord $73,947 in restitution
       for her earlier guilty plea to making false statements and committing larceny and perjury. From August 2001
       to January 2007, Herman failed to report an unauthorized resident or his income on housing certifications
       and obtained $73,947 in housing assistance she was not entitled to receive.

                                                           ppp

           Aesha Johnson, a Cuyahoga Metropolitan Housing Authority (Cuyahoga) Section 8 landlord and tenant,
       pled guilty in Cuyahoga County Court of Common Pleas, Cleveland, OH, to committing theft and tampering
       with records. In addition, former Cuyahoga Section 8 landlords Francis Turner and Roderick Brown were
       collectively sentenced to 22 months incarceration, 60 months probation, and 36 months supervised release
       and ordered to pay Cuyahoga $39,340 in restitution for their earlier guilty pleas to making false statements
       or committing theft. Between March 2004 and September 2009, the above defendants failed to report income,
       familial relationships to their Section 8 landlords, accurate SSNs or identities, or prior criminal histories on
       housing certifications and collectively obtained $70,662 in housing assistance they were not entitled to receive.

                                                           ppp

           Latasha White, Darryle Snyder, Jo’rell Kensey, and Maria Portillo, Housing Authority of the City of Los
       Angeles (Los Angeles) Section 8 tenants, and San Bernardino County Housing Authority Section 8 tenants
       Chevelle Parks, Lashay Roberts, Lisa Howard, and Duvall Rivers were each arrested on probable cause
       for allegedly obtaining housing assistance through fraud. In addition, Los Angeles Section 8 tenants Kim
       Tart and Anthony Carter were each charged in Los Angeles County Superior Court, Los Angeles, CA, with
       allegedly committing grand theft or perjury, obtaining aid by misrepresentation, or failing to provide true
       information on sex offender registrations and failing to file a sex offender change of address. Between May
       2004 and September 2010, the above defendants allegedly failed to report income, unauthorized residents
       and their criminal histories, or their lifetime sex offender status on housing certifications. HUD losses have
       not yet been determined.




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                    51
FedRent Initiative
    HUD’s most recent study estimates the combined gross improper rental housing assistance payments to
be more than $1 billion in fiscal year 2008. In an effort to combat administrative overpayments and tenant
fraud, HUD and HUD OIG commenced Operation FedRent, a joint effort to address rental assistance fraud
involving Federal employees. Operation FedRent compares HUD tenant data to current and retired Federal
employee information maintained by the U.S. Office of Personnel Management. After the data comparison,
an income eligibility determination is made, and the SSNs for family members 6 years of age and older
are verified. If a discrepancy exists, an investigation is opened, and appropriate administrative or legal
actions are initiated to collect any overpaid housing assistance. Results of Operation FedRent during this
semiannual reporting period are described below.

    Natosha Houston, a former Arlington Housing Authority (Arlington) and Tarrant County Housing
Assistance Office (Tarrant County) Section 8 tenant and U.S. Department of Homeland Security employee,
was sentenced in U.S. District Court, Fort Worth, TX, to 6 months incarceration and 12 months supervised
release and ordered to pay Arlington and Tarrant County $53,803 in restitution for her earlier guilty plea to
making false statements to HUD. From 1997 to 2005, Houston failed to report income on housing certifications
and obtained $53,803 in housing assistance she was not entitled to receive.

                                                    ppp

   Arvay Smith, a former Chicago Housing Authority public housing tenant and U.S. Postal Service
employee, pled guilty in U.S. District Court, Chicago, IL, to committing theft of government funds. From
December 2002 to February 2007, Smith failed to report income or assets on housing certifications and
obtained about $41,800 in housing assistance she was not entitled to receive.

                                                    ppp

    Shawnda Burnett, a former Housing Authority for the City of Los Angeles (Los Angeles) Section 8 tenant
and current Equal Employment Opportunity Commission employee, was sentenced in U.S. District Court,
Los Angeles, CA, to 3 years probation and ordered to pay Los Angeles $37,374 in restitution for her earlier
guilty plea to making a false statement. From February 2005 to April 2008, Burnett failed to report income
on housing certifications and obtained $37,374 in housing assistance she was not entitled to receive.

                                                    ppp

    Violet Berry-Simmons, a Newark Housing Authority Section 8 tenant and U.S. Postal Service employee,
pled guilty in U.S. District Court, Newark, NJ, to committing theft of government funds. From July 2003
to April 2007, Berry-Simmons failed to report income on housing certifications and obtained $27,288 in
housing assistance she was not entitled to receive.

Fugitive Felon Initiative
     OIG supports a Fugitive Felon Initiative (FFI) by matching HUD housing assistance information with
crime data from the National Crime Information Center, U.S. Marshals Service (Marshals), and other
participating law enforcement data banks. In addition, OIG special agents actively participate in the Marshals’
Operation FALCON, a joint Federal, State, city, and county law enforcement effort to locate and apprehend
fugitive felons wanted for violent crimes. Conducted in most major cities throughout the United States and
its territories, Operation FALCON places a strong emphasis on apprehending fugitive felons involved in




                                                                   Chapter 2 - Public and Indian Housing Programs
52
       gangs, homicides, sexual assaults, or crimes against the elderly and children. Since the inception of OIG’s
       FFI, hundreds of cases have been opened and closed, resulting in more than 8,738 arrests. OIG strongly
       supports Operation FALCON in an effort to make HUD public and assisted housing a safe place for families
       to live. Below are examples of FFI efforts.

                                                          ppp

           Nine Housing Authority of New Orleans housing recipients were each arrested and charged in Louisiana
       State Court, New Orleans, LA, with allegedly failing to appear; committing aggravated rape, simple battery,
       armed robbery, or accessory after the fact; or possession of cocaine. The above defendants allegedly failed
       to appear for court hearings involving rape, murder, assault, sexual assault, or assault of a child; allegedly
       possessed cocaine; or allegedly committed aggravated rape, simple battery, armed robbery, or accessory
       after the fact.

                                                          ppp

           Clifford Wiggins, a registered sex offender and unauthorized Pensacola Housing Authority (Pensacola)
       tenant, was arrested and charged in Escambia County Circuit Court, Pensacola, FL, with allegedly failing
       to report a name or address change or comply with sex offender registration laws. From December 2009 to
       May 2010, Wiggins allegedly failed to report his residency in a Pensacola subsidized unit.

                                                          ppp

           Ieasha Hale, Teri Tomaskovich, Shanta Davis, and Jermain Jackson, Mobile Housing Board Section 8
       tenants, were each arrested on outstanding State or county warrants in Mobile, AL, for allegedly committing
       probation violations, possessing marijuana, or failing to appear.

                                                          ppp

          Antranette Baker, a Mississippi Regional Housing Authority VI housing recipient, was arrested on an
       outstanding warrant issued by the Mississippi State Court, Jackson, MS, for allegedly committing burglary.

       Civil and Administrative Actions
          Sergio Gonzalez, the former Englewood Housing Authority (Englewood) bookkeeper previously
       sentenced in U.S. District Court, Newark, NJ, for his earlier guilty plea to committing theft of government
       funds, was debarred from procurement and nonprocurement transactions with HUD and throughout the
       Executive Branch of the Federal Government for 36 months. Gonzalez and previously sentenced Englewood
       deputy director Ronnie Faison used about $100,000 in Englewood funds for their personal gain.

                                                          ppp

          Seizure warrants for a 2009 Ford F150 truck and an equipment trailer were issued by the U.S. District
       Court, Ripley, TN, and served on David Ford, the former executive director of the Ripley Housing Authority
       who was previously arrested and charged with allegedly committing forgery. Ford allegedly used embezzled
       Ripley funds to purchase the truck and trailer.




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                         53
Other Fraud/Crimes
    Bobby Ferguson, Michael Woodhouse, Calvin Hall, and Shakib Deria, doing
business as Xcel Construction (Xcel), Ferguson Enterprises, Inc. (Ferguson), A&F
Environmental (A&F), and Johnson Consulting & Construction (Johnson), as
well as Xcel, Ferguson, A&F, and Johnson were each charged in U.S. District
Court, Detroit, MI, with allegedly committing a conspiracy, fraud, money
laundering, and structuring financial transactions; obstructing justice; and
possession of a firearm. Between January 2007 and September 2010, the above
defendants allegedly conspired, rigged bids, and obtained more than $100,000
in HUD HOME Investment Partnerships and Moderate Rehabilitation of
Obsolete Property funds for Gardenview Estates (Gardenview), a Detroit
Housing Commission housing development. In addition, the above defendants
allegedly dumped contaminated soil on the Gardenview property and caused
the Detroit Housing Commission to expend about $4 million in HOPE VI funds
to remove the contaminated soil. HUD realized losses in excess of $4 million.

                                     ppp

    Orlando Brown pled guilty in U.S. District Court, New Orleans, LA, to
committing arson. Brown and others set fire to a number of St. John the Baptist
Parish Housing Authority subsidized housing units. HUD losses are estimated
at $573,480.

                                     ppp

    Gretchen Scott, a St. Petersburg Housing Authority (St. Petersburg) Section 8
landlord and the former president of All-N-One Mortgage Services, Inc. (All-N-
One), pled guilty in U.S District Court, Tampa, FL, to committing a conspiracy
to defraud HUD and bank and wire fraud. In addition, former All-N-One                     Copyright 2010. The Detroit
vice president Eric Scott was convicted of committing bank and wire fraud,               News. “Ferguson indicted on
                                                                                       fraud charges,” by Robert Snell
and former All-N-One employee Lakeisha Gates was sentenced to 60 months
                                                                                           and Christine MacDonald,
probation and ordered to pay Chase Home Finance $146,903 in restitution for                        September 9, 2010
her earlier guilty plea to committing a conspiracy to defraud HUD and bank and
wire fraud. From August 2007 to September 2008, Gretchen and Eric Scott, Gates,
and others conspired to obtain fraudulent mortgage loans for straw buyers,
submitted false property ownership documents and fraudulently obtained
$8,350 in St. Petersburg housing assistance, and overcharged St. Petersburg
Section 8 tenants more than $2,668 in rents.

                                                    ppp

    Adrian Hawkins, a former Lexington-Fayette Urban County Housing Authority (Lexington-Fayette)
Section 8 tenant, and Josh Burgess both pled guilty in U.S. District Court, Lexington, KY, to passing counterfeit
security of an organization with the intent to deceive. From December 2009 to January 2010, Burgess and
Hawkins created or forged and negotiated about $6,500 in bogus Lexington-Fayette checks.

                                                    ppp




                                                                    Chapter 2 - Public and Indian Housing Programs
54
          Terrance McCaa and Roger Wilder, Jr., were each arrested and charged in the 6th Judicial Circuit Court,
       Northport, AL, with allegedly committing forgery. The above defendants allegedly cashed $5,000 in
       counterfeit checks drawn on a Housing Authority of the City of Northport bank account.

                                                          ppp

            Lloyd Royal III, a Montgomery County Housing Opportunities Commission (Montgomery County)
       unauthorized tenant, was sentenced in U.S. District Court, Baltimore, MD, to 37 years incarceration for his
       earlier conviction of committing sex trafficking and a conspiracy to commit sex trafficking and possession of
       a firearm in furtherance of a crime of violence. From April to May 2007, Royal committed the above crimes
       from a Montgomery County subsidized housing unit.

                                                          ppp

           Elizabeth Sammut, a former Detroit Housing Commission, Michigan State Housing Development, and
       other housing authorities Section 8 landlord, and Jeffrey Johnson were collectively sentenced in Wayne
       County Circuit Court, Detroit, MI, to 28 days incarceration and 60 days home confinement and ordered
       to pay Detroit Edison Energy $84,283 in restitution for their earlier guilty pleas to conducting a criminal
       enterprise and malicious destruction of utility property. Sammut and Johnson tampered with Detroit Edison
       Energy electric meters attached to HUD-subsidized properties and stole about $706,000 in electric utilities.

                                                          ppp

           Fifteen individuals were each indicted in U.S. District, Jackson County Circuit, or Jackson and Johnson
       County Courts, Kansas City or Olathe, KS, or Kansas City, MO, for allegedly passing counterfeit securities
       or committing wire fraud, identity theft, or a conspiracy to manufacture counterfeit securities. In addition,
       Christopher Summers was sentenced to 51 months incarceration and 5 years probation and ordered to pay
       the U.S. Department of Treasury and others $379,743 in restitution for his earlier guilty plea to possessing
       counterfeit securities and committing wire fraud and a conspiracy to defraud the U.S. Government. From
       May 2007 to May 2009, Summers admittedly and the remaining defendants and others allegedly conducted
       or participated in a counterfeit check scheme from a public housing unit that involved the Kansas City and
       Independence, MO, Housing Authorities and a number of businesses.

                                                          ppp

           Ali Hassan Zindani was indicted in U.S. District Court, Manhattan, NY, for allegedly committing
       a conspiracy and bribery, and Bashir Zindani was sentenced to 5 months incarceration, 5 months home
       detention, and 31 months supervised release and ordered to forfeit $10,000 to the U.S. Government for his
       earlier guilty plea to committing a conspiracy and bribery. From February to April 2010, Ali Hassan Zindani
       allegedly and Bashir Zindani admittedly paid $10,000 to an individual acting as a New York City Housing
       Authority (New York City) employee in return for his assistance in obtaining a New York City commercial
       property lease.

                                                          ppp

          Denise Dunlap, a Marion Metropolitan Housing Authority (Marion) Section 8 landlord doing business as
       Key Management, was arrested after her indictment in Delaware County Court of Common Pleas, Delaware,
       OH, for allegedly engaging in a pattern of corrupt activity, committing theft and money laundering, and
       securing writings by deception. Between 2005 and 2008, Dunlap allegedly assisted unqualified buyers who




     Chapter 2 - Public and Indian Housing Programs
                                                                                                                 55
fraudulently obtained conventional mortgage loans for 26 properties, including seven properties placed
into the Marion Section 8 program.

                                                  ppp

    María Díaz-Sanchez was charged in San Juan State Court, San Juan, PR, with allegedly committing theft
and fraud. From December 2008 to March 2009, Díaz-Sanchez allegedly portrayed herself as a volunteer for
the Puerto Rico Department of Housing and fraudulently collected advanced deposits and other housing
fees from a number of victims.

                                                  ppp

     Natalie Cole, a St. Landry Parish Housing Authority housing recipient, was charged in Louisiana State
Court, LeBeau, LA, with allegedly obstructing justice and possessing marijuana, drug paraphernalia, and
a firearm with narcotics. Cole allegedly possessed marijuana, drug paraphernalia, and a weapon in her
subsidized unit and stored equipment used in a counterfeit operation.

                                                  ppp

    Michael White, a Housing Authority of New Orleans housing recipient, was charged in Louisiana State
Court, New Orleans, LA, with allegedly committing identity theft and access device fraud. From September
2009 to January 2010, White allegedly used stolen credit card numbers to pay the debts of other individuals
in exchange for cash.

                                                  ppp




                                                                Chapter 2 - Public and Indian Housing Programs
   Chapter 3
   Multifamily
Housing Programs
58
           In addition to multifamily housing developments with U.S. Department of Housing and Urban
       Development (HUD)-held or HUD-insured mortgages, the Department owns multifamily projects acquired
       through defaulted mortgages, subsidizes rents for low-income households, finances the construction or
       rehabilitation of rental housing, and provides support services for the elderly and handicapped.



       Audit
                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                       payments in rental assistance
        Key program results                                        Questioned costs       Funds put to better use
                Audit                    3 audits                      $5.1 million                 ---
                 Our                     Page 59             •	 Owner and management agent operations
                focus




                      Chart 3.1: Percentage of OIG multifamily housing audit reports
                                       during this reporting period




                                                                                             Region 1 - 34%
                                                                                             Region 2 - 0%
                                                                                             Region 3 - 0%
                                                                                             Region 4 - 0%
                                                                                             Region 5 - 33%
                                                                                             Region 6 - 0%
                                                                                             Regions 7/8/10 - 0%
                                                                                             Region 9 - 33%
                                                                                             Region 11 - (N/A)*




       * This does not include disaster relief audits. See chapter 6 for these reviews.




     Chapter 3 - Multifamily Housing Programs
                                                                                                                59
Owner and Management Agent Operations
    HUD OIG audited the Avesta Housing Management Corporation in Portland, ME, to review Avesta’s
management of 30 HUD projects and determine whether HUD funds were used in accordance with its
regulatory agreement and HUD requirements. Specifically, OIG wanted to determine whether (1) Avesta
complied with HUD procurement policies and procedures, (2) services provided by Avesta under identity-
of-interest contracts were reasonable and adequately supported, and (3) Avesta’s method of cost allocation
was adequate and supported.

    Avesta did not comply with HUD procurement procedures because it could not furnish documentation
to substantiate that it solicited bids and/or obtained cost estimates when procuring ongoing services and
construction contracts. In addition, it had not established written procurement policies. Procurements
totaling more than $2.6 million covering a 3-year period were unsupported.

    OIG recommended that HUD require Avesta to (1) comply with all terms and conditions of its
management certifications and HUD requirements for soliciting written or verbal cost estimates and
maintaining documentation supporting the basis for contract awards and (2) provide an independent
cost analysis for each procurement cited to ensure that all procurements were reasonable and supported.
HUD should also require Avesta to provide acceptable documentation in support of the fees charged for
maintenance, janitorial, and resident service coordinator services and determine whether the costs were
reasonable. For fees not considered reasonable, HUD should ask Avesta to reimburse the HUD projects
from non-Federal funds.

    Lastly, OIG recommended that HUD require Avesta to provide documentation in support of the
distribution of more than $470,000 in property manager salaries to the HUD projects. For any amounts not
reasonable or supported, it should reimburse the HUD projects from non-Federal funds. In addition, OIG
recommended that HUD require Avesta to provide documentation to determine whether nearly $326,000
in accounting/bookkeeping service costs was at or below market rate. For any service costs that exceeded
the market rate, Avesta should reimburse the HUD projects from non-Federal funds. (Audit Report: 2010-
BO-1008)

                                                 ppp

   In response to a congressional request, HUD OIG reviewed allegations that Columbus Properties Limited
Partnership in Columbus, OH, did not renovate six apartment complexes in Ohio for which it obtained
HUD-insured mortgages. Congresswoman Mary Jo Kilroy asked OIG to provide answers to five specific
questions. The objectives were to determine whether HUD followed its standard operating procedures for
monitoring the inspection of renovation activities designed to ensure compliance with the specifications
and to address the questions outlined in the congressional request.

   OIG concluded that HUD followed its procedures to monitor the renovation of the six projects and
addressed the congresswoman’s questions. Based on the results of the review, OIG made no recommendations.
(Audit Report: 2010-CH-1809)

                                                 ppp

   In response to a congressional request, HUD OIG reviewed the Retreat at Santa Rita Springs in Green
Valley, AZ, a Federal Housing Administration (FHA)-insured multifamily project under Section 231 of the
National Housing Act, to determine whether the operations of the community complied with applicable
HUD rules and regulations and other Federal requirements.




                                                                     Chapter 3 - Multifamily Housing Programs
60
          The community did not comply with applicable Federal rules and regulations and its regulatory
       agreement with HUD in the operation of the project. This noncompliance included (1) resident security
       deposits converted to community fees and/or commingled with operating funds and (2) prohibited
       management costs and erroneous and duplicative billings charged to the project.

           OIG recommended that HUD require the owner to (1) refund former residents and prospective residents
       $11,000 in security deposits and (2) reimburse the project more than $19,000 for ineligible and unsupported
       expenses. (Audit Report: 2010-LA-1014)

                                                         ppp




     Chapter 3 - Multifamily Housing Programs
                                                                                                               61
Investigations
    Some investigations discussed in this report were generated from leads provided by HUD multifamily
housing program staff and conducted jointly with Federal, State, and local law enforcement agencies. The
results of various significant investigations are described below.


           Strategic Initiative 2: Contribute to the reduction of erroneous
                             payments in rental assistance
    Key program               Cases                  $           Convictions/pleas/      Admin/civil
      results                 closed             recovered            pretrials            actions

   Investigations               29               $1,910,932               37                     48
         Our                 Page 62         •	 Theft/embezzlement
        focus                Page 62         •	 Rental assistance fraud
                             Page 64         •	 Other fraud/crimes




   Chart 3.2: Percentage of OIG multifamily housing closed investigation cases
                         during this reporting period



                                                                                Region 1 - 7%
                                                                                Region 2 - 35%
                                                                                Region 3 - 22%
                                                                                Region 13 - 0%
                                                                                Region 4 - 3%
                                                                                Region 14 - 0%
                                                                                Region 5 - 3%
                                                                                Region 15 - 3%
                                                                                Region 6 - 3%
                                                                                Regions 7/8 - 15%
                                                                                Region 9 - 3%
                                                                                Region 10 - 3%
                                                                                Region 11 - 3%




                                                                    Chapter 3 - Multifamily Housing Programs
62
       Theft/Embezzlement
           Christopher Grimsley, a former construction manager for AIMCO Apartment Management, a HUD
       multifamily management agent, pled guilty in U.S. District Court, Kansas City, MO, to committing mail
       fraud. From May 2003 to June 2009, Grimsley solicited $538,341 in kickbacks from contractors in exchange
       for HUD-subsidized and conventional multifamily housing development contracts.

                                                           ppp

           Brenda Phillips, a former manager for the Quail Ridge Apartments, a HUD-subsidized multifamily
       housing development, was sentenced in U.S. District Court, Wichita, KS, to 12 months incarceration and
       36 months probation and ordered to pay Cohen Esry Management Company $227,978 in restitution for her
       earlier guilty plea to making a false statement. From 2001 to 2006, Phillips submitted false tenant information
       on HUD certifications and fraudulently obtained $160,234 in housing assistance.

                                                           ppp

           Meredith Sullivan, a former manager for Sycamore Grove Apartments, a HUD-subsidized multifamily
       housing development, was sentenced in U.S. District Court, Kansas City, MO, to 16 months incarceration
       and 24 months supervised release and ordered to pay HUD $34,444 in restitution for his earlier guilty
       plea to making false statements. From 2004 to 2009, Sullivan submitted false tenant information on HUD
       certifications and provided housing applicants with preferential placement on the housing waiting list in
       exchange for actual or anticipated sexual relations. HUD realized losses of $138,611.

                                                           ppp

          Stanislaw Paul, the owner of JRDKS Construction, was charged in Louisiana State Court, Jefferson,
       LA, with allegedly committing theft of funds. Paul allegedly submitted a false risk and liability insurance
       invoice and overcharged the developer of a HUD-funded project $42,122.

                                                           ppp

           Richard Arroyo and Margarita Villegas, the president and director of the South Bronx Community
       Corporation Management Corporation (South Bronx), a HUD multifamily management agent, were
       collectively sentenced in U.S. District Court, Bronx, NY, to 22 months and 1 day incarceration, ordered to pay
       a not yet named victim $169,415 in restitution, and fined $6,000 for their earlier guilty pleas to committing
       theft of government funds. From May 2005 to February 2009, Arroyo and Villegas used a South Bronx credit
       card for unauthorized personal use items. HUD losses have not yet been determined.

       Rental Assistance Fraud
           Seven current or former Section 8 tenants residing in HUD-subsidized multifamily housing developments
       were each arrested and charged in U.S. District or Manhattan Criminal Courts, Manhattan, NY, with
       allegedly committing theft of government funds or grand larceny or falsifying business records. In addition,
       former housing recipients Sandy Colon and Annette Vargas each pled guilty to committing petit larceny,
       and former housing recipients Latasha Greene and Phyllis Pigford were collectively sentenced to 7 months
       incarceration and 36 months probation and ordered to pay HUD $24,096 in restitution for their earlier
       conviction or guilty plea to making false statements, committing grand larceny, or falsifying business
       records. Between 2004 and May 2010, the above seven defendants allegedly (Greene was found guilty) and




     Chapter 3 - Multifamily Housing Programs
                                                                                                                      63
Colon, Vargas, and Pigford admittedly failed to report income, unauthorized residents, or the subleasing
of their subsidized units on housing certifications and collectively obtained $283,427 in housing assistance
they were not entitled to receive.

                                                      ppp

                                                       Six Section 8 tenants residing in HUD-subsidized
                                                   multifamily housing developments were each arrested
                                                   and charged in U.S. District or Staten Island Criminal
                                                   Courts, Staten Island, NY, with allegedly committing theft
                                                   of government funds or grand larceny, offering a false
                                                   instrument for filing, or falsifying business records. Between
                                                   February 2005 and December 2009, the above defendants
                                                   allegedly failed to report income on housing certifications
                                                   and collectively obtained $179,840 in housing assistance they
                                                   were not entitled to receive.

                                                      ppp

                                    Tyese Wilson, Gilberto Torres, and Kewanna Sheppard, Section 8 tenants in
                                HUD-subsidized multifamily housing developments, were each arrested and
                                charged in U.S. District or Bronx Criminal Courts, Bronx, NY, with allegedly
                                committing theft of public funds or grand larceny or falsifying business records.
                                In addition, Section 8 tenant Francina N’Diaye pled guilty to committing theft
                                of government funds. Between February 2005 and January 2010, the above
                                defendants allegedly and N’Diaye admittedly failed to report income on housing
                                certifications and collectively obtained $133,300 in housing assistance they were
                                not entitled to receive.

                                                      ppp

                                    Glenda Rivera and Sylvester Okonoboh, former Section 8 tenants at Amiff
                                Housing, a HUD-subsidized multifamily housing development, were collectively
                                sentenced in U.S. District Court, Boston, MA, to 3 months home confinement
                                and 72 months probation and ordered to pay HUD $82,579 in restitution for
                                their earlier guilty pleas to committing theft of government funds. Between
                                October 2004 and June 2009, Rivera and Okonoboh failed to report income on
                                housing certifications and together obtained $82,579 in housing assistance they
                                were not entitled to receive.
Copyright 2010. Staten Island
Advance. Staten Island, NY.                           ppp
Reprinted with permission.
                                    Annette Rhue, a Section 8 tenant at Central Gardens I Apartments (Central
                                Gardens), a HUD-subsidized multifamily housing development, was indicted in
                                Prince Georges Circuit Court, Upper Marlboro, MD, for allegedly making false
                                statements and committing theft, welfare fraud, and perjury. In addition, Central
                                Gardens Section 8 tenant Crystal Bailey was convicted of committing theft,
                                and Section 8 tenants Sonia Johnson and Chequetia Burnett were collectively
                                sentenced to 1 year incarceration (suspended) and 8 years supervised probation




                                                                           Chapter 3 - Multifamily Housing Programs
64
       and ordered to perform 200 hours of community service and pay the Maryland Department of Housing
       and Community Development $27,421 in restitution for their earlier guilty pleas to making false statements
       or committing theft. Rhue allegedly (Bailey was found guilty) and Johnson and Burnett admittedly failed
       to report income or unauthorized residents on housing certifications and collectively obtained $65,146 in
       housing assistance they were not entitled to receive.

                                                         ppp

           Fatimah Washington, Shalleka Stephens, Estelle Fryar, and Deborah Young, Section 8 tenants at Druid
       Hills II Apartments, a HUD-subsidized multifamily housing development, were each arrested and charged
       or indicted in Walterboro Municipal or Colleton County Courts, Walterboro, SC, for allegedly making false
       statements. Between October 2004 and January 2010, the above defendants allegedly failed to report income
       on housing certifications and collectively obtained $62,510 in housing assistance they were not entitled to
       receive.

                                                         ppp

          John Martinez, an unauthorized tenant at San Juan Del Centro Apartments, a HUD-subsidized
       multifamily housing development, was charged in Boulder District Court, Boulder, CO, with allegedly
       committing theft and forgery and obtaining a signature by deception. From January 2000 to March 2010,
       Martinez allegedly duped a mentally challenged individual into claiming residency in the subsidized housing
       unit and providing annual housing certifications, but Martinez actually resided in the subsidized housing
       unit and obtained more than $40,500 in housing assistance he was not entitled to receive.

       Other Fraud/Crimes
          Ronald Gifford, an attorney for Garden Court Apartments (Garden Court), a HUD-subsidized elderly
       housing development, was sentenced in Marshall County Superior Court, Plymouth, IN, to 12 months
       home detention and 24 months probation and ordered to perform 200 hours of community service and pay
       Garden Court $17,000 in restitution for his earlier guilty plea to committing theft and deception. In June
       2006 and June 2007, Gifford submitted fraudulent documents to HUD and falsely claimed that Garden
       Court was a nonprofit entity.

                                                         ppp




     Chapter 3 - Multifamily Housing Programs
    Chapter 4
Community Planning
 and Development
    Programs
66
           The Office of Community Planning and Development (CPD) seeks to develop viable communities by
       promoting integrated approaches that provide decent housing, suitable living environments, and expanded
       economic opportunities for low- and moderate-income persons. The primary means toward this end is the
       development of partnerships among all levels of government and the private sector. In addition to the audits
       and investigations described in this chapter, the U.S. Department of Housing and Urban Development, Office
       of Inspector General (HUD OIG), has conducted a number of outreach efforts (see chapter 8, page 122).



       Audit
               Strategic Initiative 3: Contribute to the strengthening of communities
        Key program results                                    Questioned costs                  Funds put to better use
               Audit                 34 audits*                   $52.8 million                         $71.7 million
                Our                   Page 67            •	 Community Development Block Grant programs
               focus                  Page 68            •	 HOME Investment Partnerships Program
                                      Page 71            •	 Neighborhood Stabilization Program
                                      Page 72            •	 Youthbuild and Supportive Housing program

       * The total CPD audits, questioned costs, and funds put to better use amounts include any American Recovery and
       Reinvestment Act of 2009 (eight audits) and disaster recovery (seven audits) type audits conducted in the CPD area. The
       writeups for these audits are shown separately in chapters 5 and 6 of this semiannual report.




                 Chart 4.1: Percentage of OIG community planning and development
                              audit reports during this reporting period



                                                                                                     Region 1 - 3%
                                                                                                     Region 2 - 3%
                                                                                                     Region 3 - 3%
                                                                                                     Region 4 - 29%
                                                                                                     Region 5 - 9%
                                                                                                     Region 6 - 6%
                                                                                                     Regions 7/8/10 - 20%
                                                                                                     Region 9 - 12%
                                                                                                     Region 11 - 15%




     Chapter 4 - Community Planning and Development Programs
                                                                                                                    67
    OIG audited the Community Development Block Grant (CDBG) program, the HOME Investment
Partnerships Program (HOME), and the Neighborhood Stabilization Program (NSP). While OIG’s objectives
varied by auditee, the majority of the reviews were to determine whether the grant funds were administered
for eligible activities and that the auditee met program objectives. The following section illustrates the audits
conducted in the community planning and development area.

Community Development Block Grant Programs
     HUD OIG audited the City of Jersey City, NJ’s CDBG float loan activity and found that the City did not
comply with applicable regulations and failed to take timely action when the float loan defaulted. Specifically,
it did not (1) make a good faith effort to collect payment on the float loan in the amount of $3.5 million, (2)
identify a proper default remedy in case the float loan defaulted, (3) properly account for and report float
loan program income to HUD, (4) follow the required steps when the terms of the float loan were extended,
and (5) maintain adequate supporting documentation to show that the national objective was met.

    OIG recommended that HUD instruct the City to (1) reimburse the CDBG program from non-Federal
funds for the defaulted float loan, (2) provide supporting documentation related to nearly $73,000 in
program income generated from the float loan, (3) establish adequate policies and procedures to ensure
that it complies with applicable CDBG float loan rules, and (4) and provide the supporting documents to
show that the CDBG national objective was met. (Audit Report: 2010-NY-1012)

                                                    ppp

    HUD OIG audited the City of East St. Louis, IL’s CDBG program and found that the City awarded
CDBG funds to 143 recipients without adequately verifying their eligibility to receive housing rehabilitation
assistance. Specifically it did not verify eligibility criteria such as evidence of flood insurance, homeowners
insurance, code compliance, and income eligibility.

    OIG recommended that HUD require the City to (1) provide supporting documentation or reimburse
its CDBG program more than $1.2 million expended on ineligible recipients, (2) develop and implement a
quality assurance plan to ensure that all program recipients meet program eligibility requirements, and (3)
provide training to ensure future compliance. (Audit Report: 2010-KC-1008)

                                                    ppp

    HUD OIG audited the CDBG program administered by the City of Deerfield Beach, FL, and found
that the City did not administer its program in accordance with applicable HUD requirements. It did not
request exception to HUD’s conflict-of-interest provision before the awarding of funds. As a result, HUD
had no assurance that the City did not practice favoritism in the awarding of funds and may have placed
HUD’s funds at risk.

    The City did not maintain adequate supporting documentation to demonstrate that it properly allocated
salaries to the program. Without supporting documentation to substantiate the allocation of actual services
performed by personnel, there was no assurance that the salary expenditures were accurate and program
related.

    The City did not comply with HUD requirements in meeting the national objective for its housing
activities. It did not maintain adequate supporting documentation to demonstrate that the individuals
served were low- and moderate-income persons. As a result, there was no assurance that expended program
funds achieved the intended national objective.




                                                       Chapter 4 - Community Planning and Development Programs
68
           OIG recommended that HUD require the City to (1) reimburse its program nearly $225,000 from non-
       Federal funds for ineligible costs, (2) provide supporting documentation or reimburse its program more
       than $142,000 from non-Federal funds for unsupported salary expenditures, and (3) provide supporting
       documentation or reimburse its program more than $28,000 from non-Federal funds for an activity for which
       the national objective was unsupported. (Audit Report: 2010-AT-1015)

       HOME Investment Partnerships Program
           HUD OIG audited the HOME program of the Puerto Rico Department of Housing in San Juan, PR, and
       found that the Department did not have adequate controls and procedures to ensure that HOME-funded
       activities met program objectives. It (1) disbursed more than $4.4 million for ineligible expenditures and
       activities that failed to meet the HOME program objectives, (2) disbursed more than $9 million for activities
       that reflected slow progress without assurance that the activities would generate the intended benefits,
       and (3) failed to reprogram and put to better use more than $7.9 million in unexpended HOME funds for
       activities that were not carried out or terminated. As a result, HUD had no assurance that funds were used
       solely for eligible purposes and that HOME objectives were met.

           OIG recommended that HUD require the Government of Puerto Rico or its designee to (1) reimburse the
       HOME program more than $4.4 million for ineligible expenses and activities that failed to meet program
       objectives, (2) reprogram and put to better use more than $7.9 million in unexpended funds for activities
       that had not generated the intended benefits, and (3) establish and implement controls and procedures for
       its HOME program to ensure that HUD requirements and objectives are met. OIG also recommended that
       HUD determine the eligibility of more than $9 million disbursed for projects with signs of slow progress,
       reevaluate the feasibility of these activities, and recapture any shortfall generated by the closure and
       deobligation of funds associated with terminated activities that do not meet statutory requirements for the
       timely commitment and expenditure of funds. (Audit Report: 2010-AT-1011)

                                                            ppp

           HUD OIG audited the Polk County, FL, NSP and HOME program and found that while implementing
       its NSP, the County did not comply with requirements that governed procurements, safeguarding of assets,
       and accurate reporting of NSP obligations. It also did not take proper actions to protect the ownership of
       abandoned and foreclosed-upon properties acquired with NSP funds or the revenues expected from their
       disposition. These violations put more than $6.1 million at risk because the County allowed a nonprofit
       entity, with which it had no contract, to acquire abandoned and foreclosed-upon properties in its name
       without title restrictions and sell the properties. In addition, the County did not accurately report NSP
       acquisition obligations in HUD’s Disaster Recovery Grant Reporting (DRGR) system and did not post NSP
       performance reports to its Web page in a timely manner.

           While implementing its HOME program, the County did not require its community housing development
       organization (CHDO) to comply with its contract that required it to obtain competitive bids for procurements.
       As a result, the CHDO did not have documentation to support the reasonableness of more than $1.2 million
       in construction contract costs examined during the review. OIG determined that the costs were reasonable.
       However, the violations reflected a lack of attention by County and CHDO officials to their obligation to
       enforce contract procurement requirements for construction costs paid with HOME funds.

           OIG recommended that HUD require the County to (1) terminate its NSP administrative contract and
       arrange for the continued administration and implementation of its NSP by County staff or a properly
       procured contractor, (2) reimburse its NSP more than $4.4 million if title to NSP-acquired properties is not
       transfered to the County or an entity with the legal authority to hold the titles, (3) establish proper safeguards




     Chapter 4 - Community Planning and Development Programs
                                                                                                                69
over its NSP funds, and (4) reimburse more than $98,000 for questionable fees. OIG also recommended
that HUD review and determine the accuracy of NSP obligations made after the completion of OIG’s onsite
review and ensure that the County posts its quarterly NSP performance reports to its Web page and that its
CHDO complies with procurement requirements. (Audit Report: 2010-AT-1014)

                                                   ppp

    HUD OIG audited the Puerto Rico Department of Housing HOME program in San Juan, PR, and found
that the Department (1) did not reimburse the HOME program more than $2 million for three activities that
were terminated and did not meet HOME objectives, (2) failed to reprogram and put to better use more than
$1.84 million in unexpended HOME funds, (3) failed to collect more than $1.26 million in overdue HOME
loans and did not return to the United States Treasury more than $275,000 in repayments, and (4) improperly
reported to HUD more than $6.4 million in HOME commitments without executing written agreements.
Further, the Department’s financial management system (1) did not account for more than $991,000 in HOME
receipts, (2) did not support the allocability of more than $301,000 in disbursements and allowed the use of
more than $151,000 for ineligible expenditures, (3) did not deposit into its bank account more than $137,000
in HOME receipts, and (4) failed to disburse funds in a timely manner. As a result, HUD had no assurance
that the Department met HOME objectives and commitment requirements.

     OIG recommended that HUD require the Department to (1) repay more than $3.58 million for ineligible
expenditures associated with terminated activities, unexpended 2002 HOME funds, and unallowable
administrative costs; (2) collect and/or reprogram and put to better use more than $3.62 million for
HOME funds for terminated activities, uncollected loans, repayment funds not remitted to its treasury
account, receipts not deposited into its bank account, and unsupported commitments; and (3) provide
all supporting documentation to demonstrate the allocability and eligibility of more than $1.29 million in
HOME disbursements. (Audit Report: 2010-AT-1006)

                                                   ppp

    HUD OIG audited the Mobile Housing Board in Mobile, AL, which serves as both the public housing
agency and the administering agency for the City of Mobile’s HOME and CDBG programs, and found
that the City did not perform annual monitoring of the Housing Board to ensure that its HOME funds
were used in accordance with all program requirements. Cost allocation plans were not developed by the
Housing Board to properly allocate or prorate its HOME program costs for phases III and IV of its HOPE
VI redevelopment project. The Housing Board arbitrarily charged more than $1 million to phases III and
IV. As a result, it disbursed nearly $840,000 in unsupported costs in both phases. The Housing Board used
nearly $340,000 of its HOME funds to pay for ineligible costs in all four phases of its HOPE VI redevelopment
project. As a result, nearly $340,000 in HOME funds was not used as intended under the HOME program.

     OIG recommended that HUD ensure that the City (1) establishes and maintains a subrecipient agreement
with the Housing Board pursuant to HUD requirements, (2) develops procedures to monitor the Housing
Board at least annually, and (3) reallocates the excessive $1.9 million in HOME and CDBG funds to other
eligible activities and program recipients. OIG also recommended that HUD require the Housing Board to
(1) support the nearly $840,000 in HOME funds it charged to phases III and IV with either a cost allocation
or proration plan, repaying any amount that cannot be supported; (2) lower the sales prices of the HOME
units in phase I to within HUD requirements and ensure that they are occupied by qualified low-income
persons in a timely manner or repay the more than $156,000 in ineligible HOME funds; and (3) recapture
the nearly $184,000 in HOME funds used to pay for ineligible costs for phases II, III, and IV of the HOPE
VI redevelopment. (Audit Report: 2010-AT-1004)

                                                   ppp


                                                     Chapter 4 - Community Planning and Development Programs
70
          HUD OIG reviewed the City of Montebello, CA’s HOME program and found that the City’s Whittier
       and 6th Street project was not timely and the City committed and disbursed $1.3 million in HOME funds
       without the required written agreement. It also recorded the project as completed in HUD’s Integrated
       Disbursement and Information System (IDIS), although no project construction had begun.

          OIG recommended that HUD require the City to (1) repay the HOME project funds, plus any interest due,
       and place the funds into the HOME U.S. Treasury account; (2) implement written procedures and controls
       regarding the HOME program; and (3) obtain IDIS training. (Audit Report: 2010-LA-1013)

                                                          ppp

           HUD OIG audited Polk County, FL. The audit identified more than $1.6 million in incorrect commitment
       entries that the County made in IDIS. The incorrect entries masked a shortfall of more than $400,000 that
       is subject to recapture by HUD. In addition, the County improperly executed agreements for its HOME-
       funded tenant-based rental assistance activities that obligated Section 8 funds to pay the costs, although
       the County used HOME funds to make the assistance payments. The Section 8 contracts did not legally
       support the commitment of HOME funds.

           OIG recommended that HUD (1) recapture the HOME funds not committed by the County’s October
       31, 2008, deadline; (2) require the County to implement controls to ensure that future HOME funds are
       committed by the required deadline, monitor commitments entered into IDIS, and take appropriate action to
       promptly correct detected violations; and (3) require the County to prepare a proper legal contract template
       for its HOME-funded tenant-based rental assistance activities and use that contract template for all future
       HOME funds committed to those activities. (Audit Report: 2010-AT-1008)

                                                          ppp

       HUD OIG audited HUD’s Office of Affordable Housing Programs’ oversight of resale and recapture
       provisions for HOME-assisted home ownership projects and found that HUD did not ensure that participating
       jurisdictions complied with HUD’s requirements in their use of resale and recapture provisions to enforce
       HUD’s affordability requirements for HOME-assisted projects. Of the 40 projects reviewed, 27 participating
       jurisdictions did not include appropriate resale and/or recapture provisions in their 29 consolidated and/
       or action plans that were in effect at the time the participating jurisdictions set up 32 projects in IDIS.
       Further, 18 participating jurisdictions did not ensure that appropriate resale or recapture provisions were
       implemented for 21 projects. In addition, three participating jurisdictions did not ensure that HUD’s
       interest was sufficiently protected in three projects for which more than $43,000 in HOME funds was used
       for home-buyer assistance.

       OIG recommended that HUD require the Office to (1) ensure that the State of New York and Cobb County,
       GA, Consortium reimburse their programs $30,000 and nearly $10,000, respectively, for two projects for which
       they did not ensure that they met HUD’s affordability requirements; (2) ensure that the State of Montana
       places a deed restriction, land covenant, affidavit, and/or lien on a property to ensure that it would recoup
       all or a portion of the more than $3,000 in HOME funds used for a project if the housing does not continue
       to be the principal residence of the household for the duration of the affordability period or reimburse its
       program more than $3,000; and (3) implement adequate procedures and controls to address the finding
       cited. (Audit Report: 2010-CH-0002)




     Chapter 4 - Community Planning and Development Programs
                                                                                                                71
Neighborhood Stabilization Program
    HUD OIG audited the State of Kansas’ Neighborhood Stabilization Program I (NSP I) and found that
the State improperly obligated more than $12 million of its NSP I funds by reporting its funds as obligated
in HUD’s DRGR system without those funds’ being linked to a specific address and/or household. Also,
the State entered into NSP I contracts without all of the required provisions.

    OIG recommended that HUD require the State to (1) implement a system to track and support its
obligations as defined by HUD rules and regulations and (2) deobligate any portion of the more than
$12 million in NSP I funds that has not been expended and was improperly obligated. In addition, OIG
recommended that the State amend its NSP I contracts with its subrecipients to include the missing provisions
and the additional NSP I funding awarded. Finally, OIG recommended that the State’s NSP staff receive
training regarding the required provisions of NSP I contracts. (Audit Report: 2010-KC-1006)

                                                   ppp

    HUD OIG audited the Sacramento Housing Redevelopment Agency in Sacramento, CA, and found that
the Agency did not administer its NSP in accordance with HUD rules and regulations. Specifically, it (1)
allowed ineligible properties to be rehabilitated; (2) did not adequately monitor projects, which resulted in
ineligible costs; (3) permitted the developer to make unnecessary upgrades and overinflate the construction
budget; (4) did not ensure that it met its reporting requirements; and (5) lacked management controls. These
deficiencies resulted in ineligible costs and funds that could be put to better use.

    OIG recommended that HUD require the Agency to repay from non-Federal funds more than $1.1 million
in ineligible costs and establish and implement effective management controls. Improvement of controls
would ensure that more than $5.3 million in funds could be put to better use. (Audit Report: 2010-LA-1011)

                                                   ppp

     HUD OIG audited the City and County of Denver, CO’s NSP I and found that the City improperly
obligated more than $1.5 million of its NSP I funds by recording its funds as obligated in HUD’s DRGR
system without the funds being linked to a specific address and/or household. Additionally, the City did
not follow HUD’s NSP I reporting regulations. It did not post two quarterly NSP I performance reports on
its official Web site within the 30-day requirement.

    OIG recommended that HUD (1) require the City to develop and implement policies and procedures to
ensure proper obligation of NSP I funding and deobligate any portion of the more than $1.5 million in NSP
I funds that was not properly obligated and (2) provide technical assistance to the City regarding HUD’s
reporting requirements to ensure that it posts quarterly NSP I performance reports on its official Web site
within the 30-day requirement. (Audit Report: 2010-DE-1006)

                                                   ppp

     HUD OIG reviewed the City of Chattanooga, TN’s NSP and found that the City generally administered
its program in accordance with HUD’s rules and regulations. However, it was sometimes inconsistent in
identifying obligations and was not always accurate in its reporting to HUD.

   OIG recommended that HUD continue to monitor the City’s progress in obligating its program funds to
ensure that it meets the September 6, 2010, deadline and that the City be required to develop and implement
improved internal controls for tracking obligations and reporting. (Audit Report: 2010-AT-1012)

                                                   ppp


                                                     Chapter 4 - Community Planning and Development Programs
72
            HUD OIG reviewed the Louisville/Jefferson County, KY, Metropolitan Government’s (Louisville Metro)
       NSP and found that Louisville Metro generally administered its program in accordance with HUD’s rules
       and regulations and was making progress in obligating its funds. However, it was not always accurate in
       its reporting to HUD.

           OIG recommended that HUD continue to monitor Louisville Metro’s progress in obligating its program
       funds to ensure that it meets the September 20, 2010, deadline. OIG also recommended that Louisville Metro
       strengthen its internal controls over reporting. (Audit Report: 2010-AT-1013)

                                                           ppp

            HUD OIG reviewed the City of Augusta, GA’s NSP I and found that the City demonstrated the capacity
       to properly obligate its entire $2.4 million NSP I grant by the September 5, 2010, statutory deadline. However,
       it (1) did not have internal controls in place to perform continuous and routine monitoring of its obligation
       process to ensure that its obligations were processed as intended and were valid and (2) entered its NSP I
       obligations into the DRGR system database in June 2010 for its LH25 set-aside activities. At that time, the
       obligations were not valid because the contracts for those obligations had not been signed by all parties.

          Overall, the City’s actions taken or planned indicated its willingness to make necessary improvements.
       Therefore, OIG made no recommendations. (Audit Report: 2010-AT-1806)

                                                           ppp

           HUD OIG reviewed Clark County, NV’s NSP and found that Clark County generally had sufficient
       capacity and had been administering its NSP in accordance with HUD requirements. However, it needs to
       revise its written procedures and developer agreements to ensure that properties to be sold to eligible home
       buyers will be sold at a price permitted by NSP requirements.

          OIG recommended that HUD require Clark County to revise its written procedures and developer
       agreements to ensure that rehabilitated properties will be sold at no more than the cost of acquisition and
       rehabilitation. (Audit Report: 2010-LA-1012)

       Youthbuild and Supportive Housing Program
           HUD OIG audited Sasha Bruce Youthwork, Incorporated, in Washington, DC, to determine whether
       it used its Youthbuild and Supportive Housing program grant funds in accordance with HUD regulations
       and its grant agreements.

           Youthwork did not support the eligibility of more than $1.9 million in expenditures. It failed to maintain
       records identifying the source and application of funds for its HUD-sponsored activities as required by
       HUD regulations and its grant agreements. Its accounting system did not separately track expenses paid
       by HUD versus expenses paid through other funding sources. Therefore, HUD had no assurance that $1.9
       million in grant funds it disbursed to Youthwork were used for eligible activities that met the intent of its
       grant agreements.

           OIG recommended that HUD evaluate the issues identified and if appropriate, initiate administrative
       actions against responsible Youthwork officials. OIG also recommended that HUD require Youthwork
       to provide documentation to demonstrate that more than $1.9 million was used for eligible activities or
       repay HUD from non-Federal funds, improve its financial management system, and implement improved
       accounting procedures to ensure that it meets Federal requirements. At a minimum, the financial management
       system should maintain accounting records that (1) track expenses paid by HUD versus expenses paid



     Chapter 4 - Community Planning and Development Programs
                                                                                                            73
through other funding sources; (2) demonstrate that expenditures paid were for eligible activities; (3)
determine and adequately document the reasonableness, allocability, and allowability of costs; and (4)
demonstrate that expenditures tie in with HUD-approved budget line items, thereby ensuring that more
than $686,000 in program funds will be used for eligible purposes. (Audit Report: 2010-PH-1008)

                                                ppp




                                                  Chapter 4 - Community Planning and Development Programs
74                                                                                                                  74
       Investigations
           Some investigations discussed in this report were generated from leads provided by HUD CPD program
       staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
       significant investigations are described below.


                        Strategic Initiative 3: Contribute to the strengthening
                                             of communities
           Key program               Cases                   $            Convictions/pleas/     Admin/civil
             results                 closed              recovered             pretrials           actions

           Investigations              51                $2,283,104               30                      6
                Our                 Page 75         •	 Theft/embezzlement
               focus                Page 76         •	 Other fraud/crimes




               Chart 4.2: Percentage of OIG community planning and development
                     closed investigation cases during this reporting period



                                                                                        Region 1 - 4%
                                                                                        Region 2 - 11%
                                                                                        Region 3 - 2%
                                                                                        Region 13 - 0%
                                                                                        Region 4 - 2%
                                                                                        Region 14 - 4%
                                                                                        Region 5 - 2%
                                                                                        Region 15 - 4%
                                                                                        Region 6 - 2%
                                                                                        Regions 7/8 - 8%
                                                                                        Region 9 - 2%
                                                                                        Region 10 - 2%
                                                                                        Region 11 - 57%




     Chapter 4 - Community Planning and Development Programs
4                                                                                                                                75
    Theft/Embezzlement
        Belinda Exon, an escrow administrator for Rehab Financial Corporation, an organization that manages
    HUD community planning and development and CDBG funds for a number of California municipalities, pled
    guilty in U.S. District Court, Los Angeles, CA, to committing embezzlement of property from organizations
    receiving Federal funds. From September 2002 to October 2008, Exon diverted and used about $3.9 million
    in HUD funds for personal investments, including $22,000 in City of Pomona American Recovery and
    Reinvestment Act funds.

                                                                    ppp

        Eugene Telfair, president of the Florida Agriculture and Mining University Federal Credit Union (A&M
    Credit Union), and A&M Credit Union grant administrator Robert Nixon were each indicted in U.S. District
    Court, Tallahassee, FL, for allegedly committing theft of government funds, wire fraud, and a conspiracy
    to embezzle grant funds from HUD and others and filing false Federal income tax returns. From January
    2002 to August 2009, Telfair and Nixon allegedly provided false consulting and administrative billings and
    obtained and embezzled $134,253 in HUD Historically Black College grant funds through the A&M Credit
    Union.




    Copyright 2010. Tallahassee Democrat. Tallahassee, FL. Reprinted with permission.


                                                                    ppp

        Emmanuel Nwadike, a former contractor for the City of Opa-Locka who is currently suspended from
    doing business with the Federal government, was arrested and charged in Miami-Dade District Court,
    Miami, FL, with allegedly making a false statement and committing organized fraud, grand theft, and
    money laundering. From June 2009 to April 2010, Nwadike allegedly obtained about $50,000 in HUD CDBG
    funds through the City of Opa-Locka for engineering services provided by General Design Professionals,
    a company Nwadike allegedly controls.

                                                                    ppp




                                                                       Chapter 4 - Community Planning and Development Programs
76
           Kortni Calabrese, a former bookkeeper for Community Action in Self Help, Inc. (Community Action), a
       nonprofit organization that receives HUD HOME program funds, was sentenced in Wayne County District
       Court, Lyons, NY, to 12 months probation and ordered to pay Community Action $3,692 in restitution for
       her earlier guilty plea to committing grand larceny and a scheme to defraud. From September 2004 to
       December 2005, Calabrese issued $15,000 in unauthorized Community Action checks.

                                                          ppp

          Lola May, the former executive director of the Queensborough Neighborhood Association
       (Queensborough), an organization that receives HUD CDBG funds, was sentenced in Louisiana State
       Court, Shreveport, LA, and ordered to pay Queensborough $2,335 in restitution for her earlier guilty plea to
       unauthorized use of a moveable. During 2009, May used $2,335 in Queensborough funds for personal gain.

                                                          ppp

           Randy McRae, a former board member of the Central Prince Georges County Community Development
       Corporation (CDC), was indicted in Prince Georges County District Court, Upper Marlboro, MD, for
       allegedly uttering a counterfeit document and committing theft, aggravated theft, and counterfeiting.
       McRae allegedly forged CDC board member signatures on documents he submitted to become a certified
       CHDO, fraudulently obtained $50,000 in HUD HOME and private investor funds, and used these funds
       for personal investments or expenses. HUD losses have not yet been determined.

                                                          ppp

           Russell McLaughlin, Jr., the former president of Building Inspections Underwriters, Inc., was sentenced
       in U.S. District Court, Newark, NJ, to 12 months incarceration and 36 months supervised release and fined
       $20,100 for his earlier guilty plea to giving and offering a bribe. McLaughlin paid about $5,000 to previously
       sentenced Anthony Saccomanno, the former director of the Cherry Hill Department of Code Enforcement
       and Inspections (Cherry Hill), an organization that receives HUD CDBG funds, in return for $240,000 in
       Cherry Hill contracts.

       Other Fraud/Crimes
           Anthony Sharpe, a former HUD Real Estate Assessment Center inspector and current City of Detroit
       building inspector, doing business as Sharpe Environmental; City of Detroit building inspector MoReno
       Taylor, doing business as Taylor Environmental Sampling & Testing (Taylor Environmental); Sharpe
       Environmental; and Taylor Environmental were each charged in U.S. District Court, Detroit, MI, with
       allegedly making false statements and committing mail fraud and fraud through the interstate transportation
       of money. From 2004 to 2007, Sharpe and Sharpe Environmental allegedly provided false residential lead
       inspection reports for Wayne Metropolitan Community Action Agency, an organization that receives HUD
       CDBG funds. In addition, Sharpe, Taylor, Sharpe Environmental, and Taylor Environmental allegedly
       created false lead inspection records for seven HUD-subsidized multifamily housing developments located
       in Cincinnati, OH, and four HUD-subsidized multifamily housing developments located in Detroit, MI.
       HUD losses have not yet been determined.

                                                          ppp

          Robert Jacumin, also known as Roy or Kris King, a former HUD Housing Opportunities for Persons with
       AIDS (HOPWA) program participant, was sentenced in U.S. District Court, Fort Lauderdale, FL, to 5 years
       supervised release and ordered to pay HUD $45,000 and the Social Security Administration (SSA) $24,428




     Chapter 4 - Community Planning and Development Programs
                                                                                                                 77
in restitution for his earlier guilty plea to making false statements and committing theft of government
funds. Jacumin failed to report income or assets on housing and other certifications and obtained $59,300
in housing assistance and $21,695 in SSA benefits he was not entitled to receive.

                                                   ppp

    Janice Morelock was charged in Atchison County District Court, Atchison, KS, with allegedly providing
false information and committing theft by deception. Morelock, a HUD HOME program recipient through
the Atchison County Housing Authority, allegedly provided false information on grant certifications and
fraudulently obtained $27,493 in HUD funds.

                                                   ppp

    Richard Norton, a HUD HOME program participant, was arrested after his indictment in U.S. District
Court, Fresno, CA, for allegedly committing mail fraud and interstate transportation of stolen property.
Between October 2005 and September 2009, Norton allegedly stole more than $900,000 in merchandise from
his employer, resold the items and received more than $1 million but failed to report this income on his
HUD HOME loan application, and fraudulently obtained $25,312 in HOME funds.

                                                   ppp

   Josephine Moore pled guilty in U.S. District Court, Buffalo, NY, to committing theft of government
funds. Between March and October 2008, Moore provided false information when she applied for and
obtained $24,000 in Community Block Lead Abatement grant funds through the City of Rochester, NY, a
HUD CDBG-funded municipality.

                                                   ppp

    Malcolm Crawford, also known as Calvin Gamble, a West Valley City Housing Authority HOPWA
program recipient, was charged in U.S. District Court, Salt Lake City, UT, with allegedly committing mail
fraud and willfully causing another to commit a Federal crime. From August 1993 to July 2010, Crawford
allegedly failed to report income, used multiple names and Social Security numbers on housing and other
certifications, and obtained about $21,844 in housing assistance and about $161,156 in SSA and other benefits
he was not entitled to receive.

                                                   ppp

     Michael Cenzi, Ronald Caceci, and Herbert Babcock, employees of Sinisgalli, Inc., a demolition contractor
for the City of Rochester, a municipality that receives HUD CDBG funds, each pled guilty in Monroe County
District Court, Rochester, NY, to endangering public health and illegally dumping hazardous waste. Cenzi,
Caceci, and Babcock illegally discarded asbestos and other hazardous waste products removed from Rochester
properties that received CDBG funds.

                                                   ppp




                                                      Chapter 4 - Community Planning and Development Programs
     Chapter 5
 American Recovery
and Reinvestment Act
      of 2009
80
       Introduction and Background
           The United States Department of Housing and Urban Development (HUD) has received $13.61 billion in
       funding under the American Recovery and Reinvestment Act of 2009 (ARRA) in several housing program
       areas. Table 1 shows the HUD program areas receiving funding and the amounts appropriated to each
       program.

                           Table 1: HUD programs receiving ARRA funding
                     Program                                      Area                       Funding amount
        Office of Public and Indian         •	 Public Housing Capital Fund                 $4,000,000,000
        Housing                             •	 Native American Housing Block                $510,000,000
        				                                   Grant                                      			
        	
        Office of Community                 •	 Community Development Block                 $1,000,000,000
        Planning and Development               Grant                                      			
                                            •	 Neighborhood Stabilization Program          $2,000,000,000
                                            •	 HOME Investment Partnerships                $2,250,000,000
        					                                  Program-Tax Credit Assistance
        				                                   Program
                                            •	 Homelessness Prevention Fund                   $1,500,000,000

        Office of Multifamily Housing       •	 Assisted Housing Stability grant               $2,000,000,000
                                            •	 Green Retrofit grant                            $250,000,000
        				
        Office of Healthy Homes and         •	 Lead Hazard Reduction                           $100,000,000
        Lead Hazard Control                    Demonstration program

                                                                                  Total      $ 13,610,000,000



          ARRA also provided $15 million to the HUD Office of Inspector General (OIG). This funding will
       remain available until September 2013. The purpose of the funding is for “oversight and audit of programs,
       grants, and activities funded by this Act and administered by the Department of Housing and Urban
       Development.”

           	 Through its audit and investigative programs, HUD OIG will constantly tailor and adjust its short-
       and long-term activities for timely and effective oversight of the ARRA funds expended by HUD programs.
       OIG’s plan will be adjusted as the HUD programs develop plans and distribute their ARRA funds. OIG
       will step up outreach and training efforts for the prevention of fraud, waste, and abuse to the Department
       and recipients of ARRA funds.

                                                          ppp




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                         81
Audit
    The Office of Audit initiated a three-phased approach to conducting related audit work. The actions it
has taken and plans to take will help position it to meet the increased workload under ARRA and protect
the Federal investment over the long term.

  The Office of Audit’s overall oversight objectives for HUD funding under ARRA are to determine
whether

    •	 Funds are awarded and distributed in a prompt, fair, and reasonable manner;
    •	 The recipients and uses of all funds are transparent to the public, and the public benefits of these
       funds are reported clearly, accurately, and in a timely manner;
    •	 Funds are used for authorized purposes, and instances of fraud, waste, error, and abuse are
       mitigated;
    •	 Projects funded under ARRA avoid unnecessary delays and cost overruns; and
    •	 Program goals are achieved, including specific program outcomes and improved results on broader
       economic indicators.

    In the prior semiannual reporting periods, HUD OIG reviewed HUD’s front-end risk assessments,
audited HUD’s formula allocation dictated in ARRA programs, and assessed the administrative capacity
for selected grantees to effectively administer ARRA funds. During this semiannual reporting period, our
focus has shifted from the capacity assessments to audits of the grantee expenditures. OIG has also started
to focus on HUD’s oversight activities.

    The following section demonstrates the audit work that has been completed during this reporting
period.

        Strategic Initiative 3: Contribute to the strengthening of communities
 Key program results                                   Questioned costs                 Funds put to better use
        Audit                28 audits*                    $9 million                         $13.8 million
         Our                   Page 82           •	 Departmentwide audits
        focus                  Page 82           •	 Public Housing Capital Fund audits and reviews
                               Page 87           •	 Native American Housing Block Grant audits and reviews
                               Page 88           •	 Community Development Block Grant audits and reviews
                               Page 88           •	 Neighborhood Stabilization Program audits and reviews
                               Page 89           •	 Tax Credit Assistance Program
                               Page 89           •	 Homelessness Prevention and Rapid Re-housing Program

* The total ARRA-related audits consist of community planning and development, public and Indian housing, and other
activity audits. The questioned costs and funds put to better use amounts relate only to ARRA-related costs.




                                                            Chapter 5 - American Recovery and Reinvestment Act of 2009
82
           In addition to the audits described in this chapter, HUD OIG, has conducted a number of outreach
       efforts (see chapter 8, page 123).

       Departmentwide Audits

           HUD OIG audited HUD’s internal control structure for ensuring that ARRA recipient data are reported
       completely, accurately, and in a timely manner and to determine whether material omissions and significant
       errors were identified correctly.

           HUD established the Recovery Implementation Team (Recovery Team) to monitor and maintain ARRA
       funding and reporting. The Recovery Team’s accomplishments as of the March 31, 2010, reporting period
       were as follows: (1) developed policies and procedures for validating recipient reporting, (2) completed
       several rounds of validation checks of recipient data, (3) successfully assisted approximately 99 percent of the
       prime recipients (4,849 of 4,911) in meeting reporting requirements, and (4) met with OIG on a monthly basis
       to discuss ARRA activities. The overall quality assurance process was successful. However, the Recovery
       Team should provide additional and updated guidance to HUD program offices pertaining to enforcement
       actions for nonreporting. In accordance with Office of Management and Budget Memorandum 10-17, Federal
       agencies have additional requirements to ensure that recipients report in a timely manner. OIG recommended
       that the Recovery Team ensure that program offices have implemented this new memorandum and request
       updated enforcement action procedures from the program offices. (Audit Report: 2010-DP-0003)

                                                           ppp

           In response to a request from the Recovery Accountability and Transparency Board, HUD OIG reviewed
       HUD’s guidance to ARRA recipients to post signs, logos, and emblems intended to publicly identify the
       expenditure of ARRA or “stimulus” funds. The Board was asked by Congressman Darrell Issa, ranking
       member of the Committee on Oversight and Government Reform, to determine the scope and impact of
       the Obama Administration’s guidance to recipients on what he stated was politicized stimulus advertising.
       The Board in turn asked OIG to respond to a series of inquiries regarding such advertising as it pertained to
       HUD’s ARRA programs. Congressman Issa characterized HUD’s stimulus advertising as the most overtly
       political guidance that “provided recipients a suggested sign template informing the public that projects
       have been funded by American Recovery and Reinvestment Act, Barack Obama, President.” The objective
       was to determine whether HUD required or encouraged its ARRA recipients to post signs to publicly identify
       projects that were funded with stimulus funds.

           For two programs, HUD initially included provisions in the grant agreements requiring the posting of
       signs. HUD later issued agencywide guidance that “encouraged” ARRA recipients to post signs. (Audit
       Report: 2010-HA-0801)

       Office of Public and Indian Housing Audits and Reviews

       Public Housing Capital Fund Audits and Reviews

           HUD OIG reviewed the Housing Authority of the City of Wilson, NC, which was granted $9.2 million
       for Public Housing Capital Fund projects under ARRA, to evaluate the Authority’s capacity to administer
       additional capital funds received under ARRA and determine whether the Authority followed Federal
       procurement regulations. OIG expanded the objectives to include an assessment of the eligibility of the
       Authority’s planned green renovation of 68 senior housing units using a $7.6 million Public Housing
       Capital Fund competitive grant.


     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                   83
     The Authority lacked sufficient capacity to administer the additional $9.2 million in capital funds it
received under ARRA. It failed to comply with procurement and financial management requirements in
its administration of other capital and operating funds and could not provide assurance that it properly
awarded more than $2.4 million for contracts. The Authority’s plan to substantially rehabilitate 68 senior
housing units into an energy-efficient, green community using a $7.6 million ARRA competitive capital
fund grant was ineligible. The cost of renovating this development as planned would result in the inefficient
and wasteful use of Federal funds and the unnecessary displacement of elderly tenants.

     OIG recommended that HUD continue increased oversight and monitoring of the Authority and require
it to develop, implement, and enforce written policies and procedures for its procurement and financial
management functions. The Authority must also provide acceptable support for unsupported costs or
repay them. OIG also recommended that HUD rescind the Authority’s $7.6 million ARRA competitive
grant. (Audit Report: 2010-AT-1007)

                                                   ppp

   HUD OIG audited the Housing Authority of the City of Terre Haute, IN’s Public Housing Capital Fund
(Capital Fund) program to determine whether the Authority (1) properly administered its program and (2)
had the capacity to administer its ARRA funds.

     Under the direction of its former executive director, the Authority violated its annual contributions
contract with HUD when it obtained a $2.3 million construction loan and a $2 million line of credit to
finance capital improvements without HUD approval. Further, the Authority did not follow HUD’s and
its own procurement requirements and failed to pay its maintenance staff and a contractor the appropriate
Federal labor standard wage rates as required by the Davis-Bacon Act. The Authority obligated its
ARRA funds in a timely manner. However, it lacked adequate written policies and procedures and staff
knowledgeable of HUD’s and other Federal procurement requirements. Therefore, it lacked sufficient
capacity to expend the funds. As a result, the Authority encumbered $2.3 million of its project assets, and
HUD lacked assurance that it (1) used more than $1.4 million in program funds for the intended purposes,
(2) operated its program in an efficient manner, and (3) had the capability to effectively expend its ARRA
funding. Further, the Authority owed more than $49,000 in wage restitution.

    OIG recommended that HUD require the Authority to provide documentation or reimburse HUD for
the various costs associated with its finding, implement adequate procedures and controls to address the
findings cited, and require the Authority to acquire the capacity to manage its ARRA and other similar
funding.

    OIG also recommended that HUD make an appropriate legal determination and (1) pursue the
appropriate administrative sanction(s) against the Authority’s former executive director for failing to
enforce HUD’s requirements and (2) determine legal sufficiency and if legally sufficient, pursue remedies
under the Program Fraud and Civil Remedies Act against the Authority’s former board chairperson/
principals for incorrectly certifying that the information contained in the Authority’s annual plans was
true and accurate. (Audit Report: 2010-CH-1010)

                                                   ppp

     HUD OIG audited the Hartford Housing Authority in Hartford, CT, regarding its $5 million
Public Housing Capital Fund grant under ARRA to determine whether the Authority (1) had adequate
management controls over its obligation process, (2) maintained support for obligations, and (3) obligated
its grant funds for eligible projects.




                                                      Chapter 5 - American Recovery and Reinvestment Act of 2009
84
           Overall, the Authority had adequate controls over obligating and supporting its ARRA capital grant.
       However, it did not always obligate funds for eligible activities. The Authority planned to use its ARRA
       funds to repair and federalize its State housing units. However, its plans changed when the full scope of
       the required repairs and funds needed was determined. The Authority shortened the normal procurement
       time and executed site improvement and boiler replacement contracts for the full amount of the grant before
       the statutory deadline. Most of the Authority’s obligations were for eligible activities, properly procured,
       and adequately supported. However, the Authority contracted to replace 224 boilers, including 33 that
       had not reached the end of their useful life, with boilers that did not meet energy efficiency requirements.

           OIG recommended that HUD ensure that the Authority stops its plans to replace boilers that have
       not reached the end of their economic life and reprograms nearly $138,000 in future annual capital funds
       and ensures that boilers scheduled for replacement in years 2015-2018 are replaced with energy-efficient
       boilers, thereby putting more than $954,000 in ARRA funds to better use. (Audit Report: 2010-BO-1005)

                                                           ppp

            HUD OIG performed a capacity review to assess the Rochester, NY, Housing Authority’s administration
       of its Capital Fund program. The Authority was awarded $5.9 million in capital funds under ARRA.

            The Authority had weaknesses in its financial controls that if left unaddressed could lead to its having a
       diminished capacity to effectively administer its supplemental ARRA funds. Specifically, the Authority (1)
       charged ineligible and unsupported expenses to its Capital Fund program, (2) failed to reimburse eligible
       expenses from its Capital Fund program, and (3) inaccurately allocated employee payroll expenses charged
       to its Capital Fund program. Except for these issues, Authority officials demonstrated a positive attitude
       toward establishing and implementing additional financial controls, their procurement controls complied
       with regulations, and their capital program outputs were in accordance with their established plans. Thus,
       overall, the Authority had the capacity to effectively administer its Capital Fund program supplemental
       funds provided under ARRA according to applicable requirements.

           OIG recommended that (1) HUD monitor and oversee the Authority’s charges and withdrawals for
       Capital Fund program administrative expenses and ensure that only allocable 2009 payroll expenditures
       are charged to the Authority’s Capital Fund programs. Further, OIG recommended that HUD instruct
       the Authority to (2) ensure that nearly $380,000 in ineligible charges and withdrawals of capital funds is
       properly accounted for and reimbursed to HUD from non-Federal funds, (3) provide documentation to
       justify the more than $177,000 in unsupported withdrawals and reimburse HUD for any unsupported costs
       determined to be ineligible, (4) provide documentation to HUD to ensure that nearly $3,000 in relocation
       expenses was reclassified and charged to the Authority’s operating fund and that more than $3,000 in
       eligible modernization-related expenses is reimbursed from capital funds, (5) establish and implement
       policies and procedures that will ensure that allocation plan percentages are accurate and vouchers are
       supported, eligible, and in accordance with Capital Fund program policies and procedures; and (6) review
       and revise its financial controls for tracking capital fund expenditures to ensure that Capital Fund program
       expenses are requested in a timely manner and that all eligible expenses are included in voucher requests.
       (Audit Report: 2010-NY-1804)

                                                           ppp

          HUD OIG reviewed the Housing Authority of the County of Salt Lake, UT’s Public Housing Capital
       Fund ARRA grant to determine whether the Authority properly obligated and expended its formula grant
       funds.




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                    85
   The Authority did not properly obligate more than $500,000 of its grant funds. It obligated the funds
without executing contracts for the planned improvements. However, it generally expended more than
$600,000 of its formula grant funds properly.

    OIG recommended that HUD recapture the nearly $561,000 in grant funds that was not properly
obligated by the deadline. (Audit Report: 2010-DE-1007)

                                                    ppp

    HUD OIG audited the Elkton Housing Authority in Elkton, MD, to determine whether the Authority
obligated and disbursed capital funds received under ARRA according to ARRA requirements and
applicable HUD rules and regulations.

   The Authority did not comply with HUD regulations in obligating and disbursing capital funds.
Specifically, it (1) did not award a contract totaling nearly $125,000 in accordance with its request for
proposals, (2) did not ensure that goods used for its ARRA project complied with the “buy American”
requirement, and (3) improperly drew down nearly $29,000 for administrative costs before incurring ARRA
expenditures. It also did not accurately report the number of jobs created as a result of its ARRA projects.

    OIG recommended that HUD require the Authority to (1) provide documentation to support the
evaluation of proposals and the selection of the contractor or reimburse HUD nearly $125,000 from non-
Federal funds, (2) provide documentation to support that goods used for its ARRA project were produced
in the United States, (3) provide documentation to support the administrative costs requested and received
or reimburse HUD nearly $29,000 from non-Federal funds, and (4) develop and implement adequate
procedures to ensure that ARRA activities meet HUD requirements. (Audit Report: 2010-PH-1007)

                                                    ppp

    HUD OIG audited the Housing Authority of Baltimore City in Baltimore, MD, to determine whether
the Authority administered capital funds provided under ARRA according to ARRA requirements and
applicable HUD rules and regulations.

   The Authority generally administered its grant funds in accordance with ARRA requirements and
applicable HUD rules and regulations.

     OIG recommended that HUD require the Authority to (1) properly record a $19,000 transaction on
its books, (2) strengthen controls for maintaining documentation to support cell phone expenditures and
recording transactions in its general ledger, (3) track the performance of its energy conservation program, (4)
report performance annually, and (5) identify funds it will use to repay the funds it borrowed to implement
energy conservation measures if the projected savings from implementing the measures are not realized.
(Audit Report: 2010-PH-1013)

                                                    ppp

    HUD OIG audited the ARRA funds awarded to the Housing Authority of the Sac and Fox Nation of
Oklahoma in Shawnee, OK, to determine whether the Authority had the capacity to use its ARRA funds
in accordance with HUD requirements.

  The Authority did not always administer its procurement contracts or acquire property for planned
ARRA activities in accordance with requirements. Specifically, it did not prepare a cost estimate or technical




                                                       Chapter 5 - American Recovery and Reinvestment Act of 2009
86
       evaluation factors for its architectural services contract or acquire two low-rent homes in accordance with
       HUD regulations. Further, it charged ARRA expenditures to other grants, which resulted in an inaccurate
       ARRA report.

          OIG recommended that HUD (1) initiate enforcement actions to require the Authority to follow
       procurement and acquisition requirements, (2) ensure that Authority staff understands and complies with
       procurement and environmental review requirements, and (3) require the Authority to properly report
       ARRA activities. Further, HUD should increase monitoring and oversight of the Authority’s planned
       ARRA activities and/or provide technical assistance and enter into a performance agreement with the
       Authority. (Audit Report: 2010-FW-1003)

                                                          ppp

           HUD OIG reviewed the Housing Authority of the City of Pueblo, CO, to determine whether the Authority
       obligated and expended its Public Housing Capital Fund Stimulus (formula) Recovery Act Funded grant
       funds in accordance with ARRA rules and regulations and whether it properly reported ARRA information
       in federalreporting.gov. The Authority generally followed ARRA rules and regulations when obligating
       and expending its ARRA capital funds. However, it did not accurately report in federalreporting.gov the
       number of jobs created and the number of jobs retained using its ARRA capital funds.

          OIG recommended that HUD assist the Authority in receiving formal training on how to properly
       report the number of jobs created and the number of jobs retained. (Audit Report: 2010-DE-1005)

                                                          ppp

           HUD OIG audited HUD’s compliance with obligation, recapture, and reallocation requirements for
       the ARRA Capital Fund program, specifically, its plans to recapture unobligated formula grants by the
       March 17, 2010, obligation deadline and reallocate the recaptured funds. HUD’s plan was a generalized
       description of the process it would undertake to recapture and reallocate formula grant funds not obligated
       by the deadline.

           OIG recommended that HUD improve its plan by revising it to include more detailed procedures for
       accomplishing HUD’s goals and a timeline for completing them and use this plan for future recapture and
       reallocation events. (Audit Report: 2010-FW-0002)

                                                          ppp

          HUD OIG audited the Omaha, NE, Housing Authority to determine whether the Authority (1) obligated
       ARRA grant funds in accordance with ARRA requirements and applicable HUD rules, (2) expended ARRA
       grant funds in accordance with ARRA requirements and applicable HUD rules, and (3) accurately and
       completely reported the ARRA grant information to Recovery.gov.

          The Authority generally obligated and expended ARRA grant funds in accordance with ARRA
       requirements, but it did not accurately or completely report ARRA grant information to Recovery.gov.

          OIG recommended that HUD require the Authority to obtain training for its staff and management on
       requirements for reporting to Recovery.gov. (Audit Report: 2010-KC-1009)

                                                          ppp




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                    87
   HUD OIG audited the Housing Authority of the City of Pottsville, PA, regarding a nearly $993,000
grant that it received for its Capital Fund program under ARRA, to determine whether the Authority
administered its grant funds according to ARRA requirements and applicable HUD rules and regulations.

    Overall, the Authority administered its grant funds in accordance with ARRA requirements and HUD
rules and regulations. Specifically, it (1) used grant funds for eligible activities included in its annual plan
or 5-year action plan, (2) obligated and expended grant funds within established deadlines, (3) received and
disbursed grant funds in a timely manner, (4) effectively monitored and reported on its grant funds, and (5)
generally procured goods and services in accordance with applicable HUD requirements. However, it did
not prepare independent cost estimates before soliciting bids for its grant-funded activities.

     OIG recommended that HUD require the Authority to develop and implement controls to ensure that
it creates independent cost estimates as required and documents them in its contract files. (Audit Report:
2010-PH-1006)

                                                    ppp

    HUD OIG audited the Harrisburg, PA, Housing Authority’s administration of its Public Housing
Capital Fund grant that it received under ARRA to determine whether the Authority administered its $4.4
million in grant funds provided under ARRA according to ARRA requirements and applicable HUD rules
and regulations.

    The Authority generally administered its grant according to ARRA requirements and applicable HUD
rules and regulations. However, it did not accurately enter job creation information into the appropriate
Federal reporting Web site.

   OIG recommended that HUD require the Authority to develop and implement controls to ensure that
ARRA job creation data that it enters into the Federal reporting Web site are accurate. (Audit Report: 2010-
PH-1009)

Native American Housing Block Grant Audits and Reviews
   HUD OIG conducted a capacity review of the Ft. Belknap Indian Community in Harlem, MT, to
determine whether there was evidence that Ft. Belknap lacked the capacity to adequately administer its
ARRA funding in accordance with requirements.

    There were weaknesses in Fort Belknap’s administration of its block grant program that could
significantly affect its capacity to administer its ARRA funding. Fort Belknap (1) completed renovation
work in violation of its Indian housing plans, (2) completed purchases in violation of cost principles for
Federal awards, (3) did not submit its audited financial statements when required, (4) did not pursue
collection of its past-due tenant accounts receivable, and (5) did not maintain equity accounts on its home
buyers.

   OIG recommended that HUD increase monitoring and oversight of Fort Belknap’s administration
and disbursement of ARRA funds, to include increased onsite monitoring if deemed necessary, to ensure
compliance with program rules and regulations. (Audit Report: 2010-DE-1801)




                                                       Chapter 5 - American Recovery and Reinvestment Act of 2009
88
       Office of Community Planning and Development Audits
       and Reviews
       Community Development Block Grant Audits and Reviews
           HUD OIG reviewed HUD’s Office of Community Planning and Development’s (CPD) risk assessment
       process to determine whether CPD had established and properly implemented a risk assessment process
       that used appropriate measures to determine risk and identify grantees for monitoring.

           CPD had established and implemented a risk assessment process that used relevant assessment factors
       to determine risk and identify grantees for monitoring. OIG identified and reviewed risk assessment factors
       in existence, evaluated whether they were adequate, and considered additional factors required under
       ARRA. The risk assessment factors in place were adequate to identify grantees for appropriate monitoring.
       Additionally, the risk analyses prepared annually were used to select grantees for later monitoring.

         OIG made no recommendations since no reportable deficiencies were identified. (Audit Report: 2010-
       BO-0801)

       Neighborhood Stabilization Program Audits and Reviews
           HUD OIG audited the State of Illinois’ Neighborhood Stabilization Program (NSP) to determine
       whether the State (1) had the capacity to effectively and efficiently administer its NSP and obligate NSP
       funds before the required 18-month obligation deadline, (2) awarded NSP funds for eligible projects, and
       (3) used NSP funds for eligible administrative costs.

           The State needs to improve its capacity to effectively and efficiently administer its NSP. Although
       the Illinois Housing Development Authority, the current administrator of the State’s NSP, had sufficient
       staffing levels and extensive experience with HUD programs, it is at risk of not meeting the required
       18-month obligation deadline for NSP funds. Further, the Illinois Department of Human Services, the
       former administrator of the State’s NSP, allocated more than $4.8 million in NSP funds for a project that
       did not comply with HUD’s requirements and did not comply with Federal requirements for maintaining
       sufficient documentation to support the use of nearly $8,000 in NSP funds for administrative expenses.
       As a result, a significant portion of the State’s nearly $20.9 million in unobligated NSP funds is at risk of
       being recaptured by HUD and not being used to stabilize neighborhoods and stem the decline in value of
       neighboring homes in the State, and HUD lacked assurance that the State used nearly $8,000 in NSP funds
       for eligible NSP administrative costs.

           OIG recommended that HUD require the State to (1) implement adequate procedures and controls
       to ensure that it obligates its NSP funds for eligible projects before September 4, 2010; (2) implement the
       Authority’s NSP reallocation award plan for the more than $4.8 million in NSP funds available after the
       Authority rescinded one of the Department’s allocations for a project; (3) provide sufficient supporting
       documentation or reimburse its NSP from non-Federal funds, as appropriate, for the nearly $8,000 in NSP
       funds used for unsupported administrative costs; and (4) implement adequate procedures and controls to
       address the finding cited. (Audit Report: 2010-CH-1011)

                                                          ppp

          HUD OIG evaluated HUD’s award process for the Neighborhood Stabilization Program 2 (NSP 2) to
       determine whether HUD’s methodology and controls for the evaluation and selection of applications for




     Chapter 5 - American Recovery and Reinvestment Act of 2009
                                                                                                                    89
the $1.93 billion in NSP 2 funds were in accordance with applicable requirements. OIG added a second
objective to determine whether HUD included special conditions in the grant agreements of high-risk
grantees.

    HUD’s methodology and controls for evaluating and selecting the applications were in accordance with
requirements in the notice of funding availability. HUD followed the required procedures for evaluating
applications against threshold requirements, such as program eligibility, and then rated the applications
that passed threshold requirements against the six rating factors. At each step, HUD applied quality control
procedures to ensure that its decisions were correct and supportable. HUD then ranked the applications
according to their scores and properly selected 56 for funding. OIG also reviewed the grant agreements for
the 56 selected grantees and found that HUD included special conditions as required by the regulations.

   OIG made no recommendations since no reportable deficiencies were identified. (Audit Report: 2010-
AT-0001)

Tax Credit Assistance Program
   HUD OIG audited the ARRA-funded Tax Credit Assistance Program (TCAP) of the Missouri Housing
Development Commission in Kansas City, MO, to determine whether the Commission obtained wage reports
and lobbying certifications required by Federal law and accurately reported job creation to Recovery.gov.

    The Commission did not obtain and review all Davis-Bacon Act reports and lobbying certifications from
contractors working on TCAP-funded projects. In addition, it did not accurately report job creation data
to Recovery.gov.

     OIG recommended that HUD require the Commission to (1) design and implement a system for
identifying contractors working during the month on TCAP-funded projects and tracking the receipt of
required documentation, (2) obtain and review the required lobbying certifications and Davis-Bacon Act
files that were missing, (3) restate its fourth quarter 2009 and first quarter 2010 job creation figures in its
administrative files, and (4) restate its second quarter jobs creation figures to Recovery.gov during the
continuous correction period and establish an adequate system for reviewing the job creation reports to
ensure proper reporting in future quarters. (Audit Report: 2010-KC-1007)

Homelessness Prevention and Rapid Re-Housing Program
    HUD OIG audited the Washington State Department of Commerce to determine whether the State
disbursed its Homelessness Prevention and Rapid Re-Housing Program (HPRP) grant in accordance with
ARRA requirements.

   The State paid for HPRP services for ineligible participants and participants whose eligibility was not
supported. In addition, it made a duplicate payment to one of its subgrantees for HPRP.

    OIG recommended that HUD require the State to (1) reimburse its HPRP more than $3,000 from non-
Federal funds for one ineligible participant and either provide supporting documentation for the participants
lacking adequate documentation or reimburse its program nearly $167,000 from non-Federal funds for those
affected participants and (2) reimburse its HPRP more than $7,000 from non-Federal funds for the duplicate
payment to its subgrantee. (Audit Report: 2010-SE-1001)

                                                    ppp




                                                       Chapter 5 - American Recovery and Reinvestment Act of 2009
90
          HUD OIG audited the HPRP of the State of Arizona Housing Department to determine whether the
       Department administered the grant in compliance with ARRA and other applicable regulations.

           The Department had adequate policies and procedures to ensure that ARRA funds were accounted
       for separately and reporting requirements were met. However, it did not have adequate policies and
       procedures to ensure that its subrecipients properly established eligibility for program participants and
       activities and maintained source documents for program expenditures in accordance with the applicable
       documentation requirements for Federal grants. Further, the Department’s policies and procedures were
       not adequate to ensure that subrecipients received adequate training and monitoring to ensure compliance
       with the specific HPRP regulations.

           OIG recommended that HUD require the Department to (1) provide supporting documentation or repay
       unsupported amounts for nearly $76,000 in program expenditures and (2) provide adequate training and
       monitoring to its subrecipients to ensure that they have implemented policies and procedures to comply
       with HPRP requirements and maintain appropriate source documentation for program expenditures. By
       ensuring that its subrecipients properly establish and document that program participants and activities
       are eligible, the Department will reduce the risk of waste, fraud, and abuse for its remaining ARRA funds
       under the program. (Audit Report: 2010-LA-1010)

                                                          ppp

          HUD OIG audited The Other Place, Inc., in Dayton, OH, regarding its use of ARRA HPRP funds to
       determine whether The Other Place used program funds effectively and efficiently and complied with
       HUD’s requirements.

           The Other Place generally used its HPRP funds in accordance with HUD’s and its requirements.
       However, it provided rental assistance for units with program rents that exceeded fair market rents for the
       area and for a larger unit than the one in which a program participant resided. As a result, nearly $1,000
       in program funds was not used effectively and efficiently or in accordance with HUD’s requirements.
       Further, The Other Place did not ensure that the initial program participant consultation and eligibility
       determination was completed in a timely manner. Program participants began receiving rental assistance
       on October 1, 2009, but the program application forms were not completed by the participants until
       December 2009. However, the participants were eligible to receive program rental assistance.

           OIG recommended that HUD require The Other Place to reimburse its program from non-Federal
       funds for the improper use of program funds and implement adequate procedures and controls to ensure
       that its program is operated in accordance with HUD’s and its requirements. (Audit Report: 2010-CH-
       1006)

                                                          ppp




     Chapter 5 - American Recovery and Reinvestment Act of 2009
  Chapter 6
Disaster Grant
  Programs
92
       Introduction and Background
           Over the past several years, the U.S. Department of Housing and Urban Development (HUD) has
       allocated more than $29.4 billion to various States through its Community Development Block Grant (CDBG)
       program. These supplemental appropriations provide additional funds for disaster relief; long-term recovery;
       and restoration of infrastructure, housing, and economic revitalization in areas affected by severe storms
       and flooding for which the President has declared a major disaster. As a result of the continuing natural
       disasters, HUD faces significant management challenges in administering these disaster recovery programs.
       A significant challenge for HUD is how to encourage States to undertake long-term strategies that focus on
       reducing damage from future natural disasters.

           HUD, Office of Inspector General (OIG), audit efforts have highlighted these problems, as well as
       offering appropriate recommendations to resolve these challenges. Further, the HUD OIG Office of Audit
       continues to be diligent in its efforts to pursue fraud, waste, and abuse in the audits of the $29.4 billion in
       HUD emergency supplemental funding provided for disaster recovery. In addition to performing audits of
       Hurricane Katrina funding, the Office of Audit has pursued audits of funding for the Midwest floods and
       Hurricanes Ike and Gustav. During the current semiannual period, the Office of Audit has completed five
       audits of Katrina funding and three audits of other disaster funding.

                                                           ppp




     Chapter 6 - Disaster Grant Programs
                                                                                                                                  93
Audit
   During this period, the OIG Office of Audit issued eight new audit reports on various HUD disaster
programs. There were seven reviews involving the CDBG disaster programs and one review of the Federal
Emergency Management Agency’s (FEMA) and HUD, Office Public and Indian Housing’s Disaster Housing
Assistance Program (DHAP)-Ike. In addition to the audits, inspections, and investigations described in this
chapter, OIG has conducted a number of outreach efforts (see chapter 8, page 126).



 Key program results                                      Questioned costs                   Funds put to better use
        Audit                   8 audits*                     $19 million                           $28.1 million

* The total disaster audits, questioned costs, and funds put to better use amounts include seven audits conducted in the
community planning and development area and one audit in the public and Indian housing area.


    HUD OIG performed a review of the State of Louisiana, Office of Community Development’s Louisiana
Tourism Marketing Program, administered by the State’s subrecipient, the Department of Culture, Recreation
and Tourism (DCRT) in Baton Rouge, LA, to determine whether DCRT, as the State’s subrecipient, ensured
that Program disbursements were adequately supported.

    DCRT generally ensured that Program disbursements were adequately supported. However, in a few
instances, it did not maintain adequate records to support the eligibility of costs. In addition, DCRT did
not always ensure that supporting documentation was readily available for review. As a result, the State
was unable to support its Program costs.

   OIG recommended that HUD require the State to (1) support or repay its Program nearly $83,000 in
unsupported costs, (2) consider reviewing a sample of the remaining 128 disbursements related to its five
subrecipients to provide reasonable assurance that the disbursements are adequately supported, and (3)
ensure that DCRT’s invoice file records are readily available for review. (Audit Report: 2010-AO-1003)

                                                            ppp

    HUD OIG audited the State of Iowa’s business rental assistance program funded by CDBG disaster
funds to determine whether the State ensured that the City of Cedar Rapids provided rental assistance to
eligible businesses based on appropriate leases.

    The State did not implement adequate controls over its program. It did not provide adequate guidance
for determining whether leases were market rate. It also did not perform a complete duplicate benefits
check to verify that the businesses did not receive duplicate benefits from any other program, insurance,
or source before awarding the disaster assistance funds. In addition, it did not perform onsite monitoring
reviews to evaluate program operations.

     OIG recommended that HUD require the State to (1) provide documentation to support that program
funds were properly paid or reimburse the CDBG program from non-Federal sources any amounts that
it cannot support and (2) implement adequate controls over the program. (Audit Report: 2010-KC-1004)

                                                            ppp



                                                                                            Chapter 6 - Disaster Grant Programs
94
          HUD OIG audited the State of Mississippi, a $5.5 billion CDBG disaster recovery grantee, to determine
       whether the State ensured that contracts were procured in accordance with its and other applicable policies
       and procedures under its disaster recovery program.

           Although the State generally ensured that contracts were procured in accordance with its program
       policies and procedures, it paid program funds to one contractor that exceeded the contract maximums.

          OIG recommended that HUD require the State to support or repay its program nearly $22,000 in
       unsupported costs and ensure that its staff is knowledgeable of its invoice verification policies and procedures.
       (Audit Report: 2010-AO-1004)

                                                           ppp

           HUD OIG audited HUD’s CDBG Supplemental II Disaster Recovery program funds administered
       by the Texas Department of Housing and Community Affairs (TDHCA) to determine whether TDHCA
       followed Federal and State of Texas regulations in procuring the program management firm to administer
       the Housing Assistance and Sabine Pass Restoration Programs.

           TDHCA did not follow requirements or best practices in the acquisition of its Disaster Recovery-funded
       program management firm. Specifically, it accepted and approved the only proposal received when the
       proposal’s cost exceeded the request for proposals’ specification by $3.68 million. TDHCA made material
       changes to the contract that increased the maximum cost by $1.99 million, budgeted $210,000 in prohibited
       costs, and contracted to pay its program management firm using multiple payment types including $2.23
       million for a cost plus a percentage of cost type, which is prohibited by Federal regulations. In addition,
       TDHCA’s contract with its program management firm lacked sufficient detail tying construction management
       services and oversight to the payment and budget section costs for the proper identification and allocation
       of $14.33 million in costs. As a result, TDHCA could not ensure that it received the best value for the State,
       and its contract included ineligible and unsupported costs of nearly $18.76 million.

          OIG recommended that HUD require TDHCA to (1) adopt sound agency business procedures for Disaster
       Recovery-funded procurements in accordance with State policy, (2) train its staff members to ensure that
       they follow its policies, (3) reimburse its Disaster Recovery account for $2.44 million in ineligible costs, (4)
       provide support for or reimburse $16.32 million in unsupported costs, and (5) modify its contract language.
       (Audit Report: 2010-FW-1005)

                                                           ppp

           HUD OIG audited the State of Louisiana, Office of Community Development’s Orleans Parish Long
       Term Community Recovery Program, in Baton Rouge, LA, administered by the State’s subrecipient, the
       City of New Orleans, to determine whether the City, as the State’s subrecipient, met the requirements of its
       cooperative endeavor agreement with the State during its administration of the New Orleans Redevelopment
       Authority’s projects under the Program.

           The City, as the State’s subrecipient, did not always meet the requirements of its agreement with the
       State during its administration of the Authority’s projects. Specifically, the City failed to meet agreement
       obligations as it did not (1) execute agreements with the Authority in a timely manner and ensure that the
       Authority completed projects within specified timeframes; (2) ensure that the Authority met its performance
       standards, reporting, and consultation requirements or implemented projects in an efficient manner; (3) set
       progressive deadline dates for the Authority or appropriately develop the Authority’s initial agreement
       performance standard requirements; and (4) have monitoring controls in place to ensure that the Authority’s
       projects effectively progressed. The State did not (1) conduct an onsite monitoring review of the City to



     Chapter 6 - Disaster Grant Programs
                                                                                                                       95
correct deficiencies, (2) set progressive deadline dates in its agreement with the City to adequately track
the Program’s progress, or (3) exercise its agreement options when the City failed to meet its obligations in
a timely and effective manner. As a result, Program funds were not used in a timely, efficient, or effective
manner, thus delaying the City’s recovery from the damage caused by Hurricanes Katrina and Rita.

    OIG recommended that HUD require the State to exercise its agreement option by deobligating the
$28.1 million in Program funds allocated to the Authority’s projects and reallocate those funds to other
disaster programs. In addition, the State must finalize its monitoring plan and consider including an
individual subrecipient risk assessment requirement in its final monitoring plan to determine the frequency
of monitoring. (Audit Report: 2010-AO-1005)

                                                     ppp

    HUD OIG audited DHAP-Ike in Southeastern Texas to determine whether HUD ensured that four
housing agencies in Texas correctly calculated and paid DHAP-Ike payments to eligible tenants and for
eligible units in accordance with program requirements.

     HUD did not ensure that the 4 housing agencies in Texas that received the most assistance followed
DHAP-Ike requirements for 51 of the 68 active files reviewed. Further, for 27 of the files, the housing agencies’
errors affected the payment or tenant/unit eligibility. Projecting the results of the sample showed that of
the 9,817 families assisted by the 4 housing agencies, at least 6,374 of the families likely had an error in their
file, and at least 2,920 of the families’ payments or eligibility was affected.

    OIG recommended that HUD (1) perform additional monitoring of its contractor, (2) provide standardized
guidance to the housing agencies, (3) perform onsite monitoring at the housing agencies, and (4) require the
4 housing agencies to correct the file documentation errors in the 51 identified files and repay or support
the 27 questioned payments totaling nearly $49,000. (Audit Report: 2010-FW-0004)

                                                     ppp

    HUD OIG audited the State of Alabama, Department of Economic and Community Affairs’ Hurricane
Katrina CDBG Disaster Funds program, administered by the State’s subrecipient, the City of Bayou La
Batre, to determine whether the State and Bayou La Batre administered the program in accordance with
the requirements of their grant agreements.

    In general, the State and Bayou La Batre properly administered the program by adequately documenting
the housing applicants’ use of financial assistance provided by other sources, ensuring that housing applicants
did not receive a duplicate benefit. The State also ensured that Bayou La Batre adequately supported and
expended program funds only for eligible costs.

   Since the State ensured that Bayou La Batre properly administered its program in accordance with the
requirements of its grant agreements, OIG did not recommend corrective action. (Audit Report: 2010-AO-
1006)

                                                     ppp

    HUD OIG audited the State of Alabama, Department of Economic and Community Affairs’ Hurricane
Katrina CDBG Disaster Funds program, administered by the State’s subrecipient, Mobile County Commission,
to determine whether the State and Mobile administered the program in accordance with the requirements
of the State’s grant agreements.




                                                                                 Chapter 6 - Disaster Grant Programs
96
          In general, Mobile, as the State’s subrecipient, met the requirements of its agreements when it usually
       ensured that program disbursements were (1) adequately supported and expended for only eligible expenses
       and (2) not used for the same purpose as financial assistance provided by other sources.

            Since the State ensured that Mobile properly administered its program in accordance with the requirements
       of its grant agreements, OIG did not recommend corrective action. (Audit Report: 2010-AO-1007)

                                                          ppp




     Chapter 6 - Disaster Grant Programs
                                                                                                                            97
Investigation
    The HUD OIG Office of Investigation continues to pursue HUD disaster assistance crimes with other
law enforcement agencies, including the Federal Bureau of Investigation and other Federal, State, and
local partners. While the majority of prosecutions during this reporting period involved individuals who
obtained disaster assistance through fraud, OIG is vigorously pursuing public corruption, infrastructure,
and procurement crimes. Working with the Louisiana Recovery and Mississippi Development Authorities,
OIG is taking a proactive role to prevent fraudulent disaster-related claim payments and assist with the
recovery of deceptive or fraudulent grants. In addition, HUD OIG continues to be a dedicated partner in
the National Center for Disaster Fraud Task Force (previously known as the Hurricane Katrina Fraud Task
Force). HUD OIG provides personnel to support the joint command center in Baton Rouge, LA, continues to
support disaster-related investigative efforts throughout the country, and actively participates in the sharing
of information and the receipt and referral of complaints with other law enforcement agencies.

Homeowner Grant Fraud
    Former HUD attorney Diane Walder and her
husband James Groomes each pled guilty in U.S. District
Court, Gulfport, MS, to committing theft of government
funds. Walder and Groomes applied for and received
$150,000 in CDBG Disaster Recovery Assistance funds
through the Mississippi Development Authority (MDA)
and $50,000 in Small Business Administration (SBA)
disaster assistance for hurricane-damaged residential
property, but the damaged property was not their
primary residence during Hurricane Katrina.

                         ppp

    Denise Gibbons-Stobaugh and Keith Stobaugh
were collectively sentenced in U.S. District Court, New
Orleans, LA, to 12 months and 1 day incarceration, 3
years supervised release, and 3 years probation; ordered
to pay the Louisiana Office of Community Development
$150,000 in restitution; and fined $1,500 for their earlier
guilty pleas to committing theft of government funds
or misprision of a felony. Gibbons-Stobaugh applied
for and received $150,000 in CDBG Disaster Recovery
Assistance funds through the Louisiana Road Home                     (2010) The Times-Picayune Publishing Co. All rights
                                                                    reserved. Used with permission of the Times-Picayune.
(Road Home) program and $38,800 in SBA disaster
assistance after she claimed extensive property damage
from Hurricane Katrina, but the property sustained
only minimal storm damage; Keith Stobaugh concealed
information and failed to report that his wife used false
information when she fraudulently applied for and
received CDBG and SBA disaster funds.

                                                    ppp




                                                                                 Chapter 6 - Disaster Grant Programs
98
           Robert and Chressye Wallace each pled guilty in U.S. District Court, New Orleans, LA, to committing
       theft of government funds. Robert and Chressye Wallace applied for and received $150,000 in CDBG
       Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged residential
       property, but the damaged property was not their primary residence during Hurricane Katrina.

                                                          ppp

           Ellaine Mullone was charged in U.S. District Court, New Orleans, LA, with allegedly committing theft
       of government funds. Mullone applied for and received $150,000 in CDBG Disaster Recovery Assistance
       funds through the Road Home program, $219,000 in SBA disaster assistance, and $26,676 in FEMA
       assistance for hurricane-damaged residential property, but allegedly the damaged property was not her
       primary residence during Hurricane Katrina.

                                                          ppp

           Ruth Goodman was charged in U.S. District Court, New Orleans, LA, with allegedly making false
       statements, committing theft of government funds and mail fraud, and possessing a false passport.
       Goodman applied for and received $132,146 in CDBG Disaster Recovery Assistance funds through the
       Road Home program and $342,000 in SBA disaster assistance for hurricane-damaged residential property,
       but allegedly the damaged property was not her primary residence during Hurricane Katrina. In addition,
       Goodman allegedly submitted false documents to FEMA and possessed a fraudulent passport.

                                                          ppp

           Frederick Rabito was sentenced in U.S. District Court, New Orleans, LA, to 36 months probation and
       fined $3,000 for his earlier guilty plea to making false statements. Rabito applied for and received $122,396
       in CDBG Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged
       residential property, but the damaged property was not his primary residence during Hurricane Katrina.

                                                          ppp

           Thomas Steele was sentenced in U.S. District Court, New Orleans, LA, to 6 months in a halfway house,
       6 months home confinement, and 24 months probation; ordered to pay the Louisiana Office of Community
       Development $119,935 in restitution; and fined $1,500 for his earlier guilty plea to making false statements.
       Steele applied for and received $119,935 in CDBG Disaster Recovery Assistance funds through the Road
       Home program for hurricane-damaged residential property, but the damaged property was not his primary
       residence during Hurricane Katrina.

                                                          ppp

           Ryant Price was sentenced in U.S. District Court, New Orleans, LA, to 3 years probation and ordered
       to pay the Louisiana Office of Community Development $105,000 and FEMA $14,858 in restitution for his
       earlier guilty plea to committing theft of government funds. Price applied for and received $105,000 in
       CDBG Disaster Recovery Assistance funds through the Road Home program and $14,858 in FEMA disaster
       assistance for hurricane-damaged residential property, but the damaged property was not his primary
       residence during Hurricane Katrina.

                                                          ppp

           Garrett Goodbee paid the Louisiana Office of Community Development $104,900 and was sentenced
       in U.S. District Court, New Orleans, LA, to 2 years probation for his earlier guilty plea to committing theft



     Chapter 6 - Disaster Grant Programs
                                                                                                                  99
of government funds. Goodbee applied for and received $104,900 in CDBG Disaster Recovery Assistance
funds through the Road Home program for hurricane-damaged residential property, but the damaged
property was not his primary residence during Hurricane Katrina.

                                                  ppp

    Walter Thayer was sentenced in U.S. District Court, Gulfport, MS, to 17 months incarceration and 3
years supervised release and ordered to perform 100 hours of community service and pay MDA $100,000
and FEMA $33,000 in restitution for his earlier guilty plea to committing theft of government funds. Thayer
applied for and received $100,000 in CDBG Disaster Recovery Assistance funds through MDA and $26,200
in FEMA disaster assistance for hurricane-damaged residential property, but the damaged property was
not his primary residence during Hurricane Katrina.

                                                  ppp

    LaTanicia McMillan-Rogers and Wayne Rogers each pled guilty in U.S. District Court, Jackson, MS,
to committing theft of government funds. McMillan-Rogers and Wayne Rogers applied for and received
$91,021 in CDBG Disaster Recovery Assistance funds through MDA and $156,358 in SBA and FEMA
disaster assistance for hurricane-damaged residential property, but the damaged property was not their
primary residence during Hurricane Katrina.

                                                  ppp

    William Turnage, Jr., pled guilty in U.S. District Court, New Orleans, LA, to making a false statement.
Turnage applied for and received $89,355 in CDBG Disaster Recovery Assistance funds through the Road
Home program and $12,500 in FEMA disaster assistance for hurricane-damaged residential property, but
the damaged property was not his primary residence during Hurricane Katrina.

                                                  ppp

    Robert Kenney was sentenced in U.S. District Court, Hattiesburg, MS, to 2 years probation, ordered
to perform 100 hours of community service, and fined $15,000 for his earlier guilty plea to making false
statements. Kenney applied for and received $86,490 in CDBG Disaster Recovery Assistance funds
through MDA for hurricane-damaged residential property, but the damaged property was not his primary
residence during Hurricane Katrina.

                                                  ppp

    Mary Guidry was sentenced in U.S. District Court, Gulfport, MS, to 5 months home confinement and
3 years probation, ordered to perform 80 hours of community service and pay MDA $69,742 in restitution,
and fined $3,000 for her earlier guilty plea to making false statements and committing theft of government
funds. Mary Guidry applied for and received $69,742 in CDBG Disaster Recovery Assistance funds
through MDA and $6,706 in FEMA disaster assistance for hurricane-damaged residential property, but the
damaged property was not her primary residence during Hurricane Katrina.

                                                  ppp

    Wayne Manning was sentenced in U.S. District Court, New Orleans, LA, to 5 years probation and
ordered to pay the Louisiana Office of Community Development $64,877 in restitution for his earlier guilty
plea to making false statements. Manning applied for and received $64,877 in CDBG Disaster Recovery




                                                                            Chapter 6 - Disaster Grant Programs
100
        Assistance funds through the Road Home program for hurricane-damaged residential property, but the
        damaged property was not his primary residence during Hurricane Katrina.

                                                          ppp

           Michelle Carroll and Steven Gardner each pled guilty in U.S. District Court, Gulfport, MS, to committing
        mail fraud or aggravated identify theft. Carroll and Gardner applied for and received $63,105 in CDBG
        Disaster Recovery Assistance funds through MDA for hurricane-damaged residential property as husband
        and wife, but Carroll and Gardner were not married, and Carroll provided false identification and other
        documents to obtain the funds.

                                                          ppp

            Sylvia Fleming was sentenced in U.S. District Court, Gulfport, MS, to 6 months home confinement
        and 5 years probation and ordered to perform 70 hours of community service and pay FEMA $33,000
        in restitution for her earlier guilty plea to committing theft of government funds. Fleming applied for
        and received $60,074 in CDBG Disaster Recovery Assistance funds through MDA for hurricane-damaged
        residential property, but the damaged property was not her primary residence during Hurricane Katrina.

                                                          ppp

           Hubert Sentino pled guilty in U.S. District Court, New Orleans, LA, to committing theft of government
        funds. Sentino applied for and received $60,000 in CDBG Disaster Recovery Assistance funds through the
        Road Home program for hurricane-damaged residential property, but the damaged property was not his
        primary residence during Hurricane Katrina.

                                                          ppp

            Albert McCarty, Sr., was sentenced in U.S. District Court, New Orleans, LA, to 5 years probation and
        ordered to pay the Louisiana Office of Community Development $56,000 and SBA $43,067 in restitution
        for his earlier guilty plea to committing theft of government funds. McCarty applied for and received
        $56,000 in CDBG Disaster Recovery Assistance funds through the Road Home program and $50,800 in
        SBA disaster assistance for hurricane-damaged residential property, but the damaged property was not his
        primary residence during Hurricane Katrina.

                                                          ppp

            Elizabeth Holiday was sentenced in U.S. District Court, New Orleans, LA, to 5 months home
        confinement and 5 years probation and ordered to pay the Louisiana Office of Community Development
        $54,566 in restitution for her earlier guilty plea to committing theft of government funds. Holiday applied
        for and received $54,566 in CDBG Disaster Recovery Assistance funds through the Road Home program
        for hurricane-damaged residential property, but the damaged property was not her primary residence
        during Hurricane Katrina.

                                                          ppp

            Carlas Williams was charged in U.S. District Court, Baton Rouge, LA, with allegedly committing wire
        fraud. Williams allegedly provided fraudulent information when she applied for and received $51,449 in
        CDBG Disaster Recovery Assistance funds through the Road Home program and $98,000 in SBA disaster
        assistance for hurricane-damaged residential property.

                                                          ppp


      Chapter 6 - Disaster Grant Programs
                                                                                                                 101
   David and Cindy Cole each pled guilty in U.S. District Court, Gulfport, MS, to committing theft of
government funds and mail fraud. David and Cindy Cole applied for and received $46,695 in CDBG
Disaster Recovery Assistance funds through MDA for hurricane-damaged residential property, but the
damaged property was not their primary residence during Hurricane Katrina.

                                                 ppp

    Sharon Baker paid the Louisiana Office of Community Development $33,500 and was sentenced in
U.S. District Court, New Orleans, LA, to 6 months home confinement and 2 years probation for her earlier
guilty plea to committing theft of government funds. Baker applied for and received $33,500 in CDBG
Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged residential
property, but the damaged property was not her primary residence during Hurricane Katrina.

                                                 ppp

    Barbara Dennis was charged in U.S. District Court, Jackson, MS, with allegedly making false statements
and committing theft of government funds. Dennis applied for and received $23,883 in FEMA disaster
assistance and attempted to obtain $48,452 in CDBG Disaster Recovery Assistance funds through MDA
for hurricane-damaged residential property, but allegedly the damaged property was not her primary
residence during Hurricane Katrina.

                                                 ppp

    Shawntell Manuel was sentenced in U.S. District Court, New Orleans, LA, to 12 months and 1 day
incarceration and 3 years supervised probation and ordered to pay SBA $122,641 in restitution for her
earlier guilty plea to committing theft of government funds. Manuel provided false information and
fraudulent documents when she applied for and received $122,641 in SBA disaster assistance loan funds
and attempted to obtain CDBG Disaster Recovery Assistance funds through the Road Home program.

                                                 ppp

   Lionel Perkins was charged in a superseding indictment filed in U.S. District Court, New Orleans, LA,
with allegedly committing obstruction of justice. Perkins, who was previously charged with allegedly
committing theft of government funds, aggravated identity theft, and other crimes, allegedly instructed
other individuals to tamper with documents relating to his pending criminal trial.

HUD and FEMA Disaster Housing Assistance Fraud
    Karen Jones, a Housing Authority of New Orleans (New Orleans) Section 8 tenant and FEMA disaster
housing recipient, was charged in U.S. District Court, New Orleans, LA, with allegedly committing mail
and wire fraud. From December 2006 to January 2009, Jones allegedly failed to report her nonresidency in
her subsidized unit or her dual receipt of disaster housing assistance and obtained $33,525 in New Orleans
housing assistance she was not entitled to receive.

                                                 ppp

    Alicia Watt, a former Dupage Housing Authority (Dupage) Section 8 tenant and FEMA disaster
housing recipient, was indicted in U.S. District Court, Chicago, IL, for allegedly committing mail fraud.
From 2005 to 2009, Watt allegedly claimed Hurricane Katrina evacuee status and obtained FEMA disaster
housing assistance at the same time she resided in Dupage subsidized housing; failed to report her receipt
of FEMA disaster housing assistance on Dupage certifications or her receipt of dual housing benefits to



                                                                           Chapter 6 - Disaster Grant Programs
102
        the Social Security Administration (SSA); and obtained $32,971 in Dupage housing assistance, $29,751 in
        FEMA disaster housing assistance, and $60,000 in SSA benefits she was not entitled to receive.

                                                           ppp

           Donna Gaines, a former Alameda County Housing Authority Section 8 tenant, was charged in U.S.
        District Court, Oakland, CA, with allegedly committing theft of government funds. From 2001 to 2008,
        Gaines allegedly failed to report income or her receipt of FEMA disaster assistance on housing certifications
        and obtained $14,174 in housing assistance she was not entitled to receive.

                                                           ppp

            Adrienne Breaux, a Harris County Housing Authority Hurricane Katrina disaster housing assistance
        recipient, was sentenced in U.S. District Court, Houston, TX, to 12 months and 1 day incarceration and
        3 years supervised release and ordered to pay FEMA $50,293 in restitution for her earlier guilty plea to
        making false statements and committing wire fraud and a conspiracy to submit false claims. Breaux and
        her previously sentenced husband, Odell Chambers, used the identities and Social Security numbers
        belonging to other individuals and applied for and received about $11,322 in housing and $92,890 in other
        disaster assistance they were not entitled to receive.

                                                           ppp

            Cynthia Dixon, a former Marietta Housing Authority Housing Choice Voucher program participant
        and FEMA disaster housing assistance recipient, was sentenced in Cobb County Superior Court, Marietta,
        GA, to 5 years probation for her earlier guilty plea to making false statements and committing theft by
        deception. From March 2007 to February 2008, Dixon failed to report her receipt of disaster housing
        assistance on housing certifications and obtained $7,882 in housing and utility assistance she was not
        entitled to receive.

                                               ppp

            Piquela Stelly, a former housing recipient at Wurzbach Manor Apartments
        (Wurzbach Manor), a HUD-subsidized multifamily housing development, was
        sentenced in U.S. District Court, San Antonio, TX, to 5 years probation and ordered
        to collectively pay HUD, FEMA, and the American Red Cross (Red Cross) $78,484
        in restitution for her earlier guilty plea to submitting a false or fraudulent claim.
        From October 2005 to June 2006, Stelly filed false FEMA and Red Cross disaster
        assistance claims, failed to report unauthorized residents or her receipt of disaster
        assistance on housing certifications, and fraudulently obtained $6,957 in housing
        and $71,535 in FEMA and Red Cross disaster assistance she was not entitled to
        receive.

                                               ppp

            Millie Singleton, a former Tarrant County Housing Authority Housing Choice
        Voucher program participant and FEMA disaster housing assistance recipient
        through the Harris County Housing Authority, was sentenced in Tarrant County
        District Court, Fort Worth, TX, to 4 years deferred adjudication and ordered to pay
        HUD $4,405 in restitution for her earlier guilty plea to securing the execution of a

                                                                                              Copyright 2010. San Antonio
                                                                                           Express News. San Antonio, TX.
                                                                                                Reprinted with premission.

      Chapter 6 - Disaster Grant Programs
                                                                                                                   103
document by deception. Between June and November 2008, Singleton failed to report her receipt of dual
housing subsidies on housing certifications and obtained $4,405 in housing assistance she was not entitled
to receive.

                                                   ppp

    Monique Morris and Dawn Eppers, a former Brazos Valley Councils of Government Section 8 tenant
and landlord and Hurricane Katrina disaster housing assistance recipients, were each indicted in Brazos
County State Court, Bryan, TX, for allegedly securing the execution of a document by deception. From
January 2006 to June 2007, Morris and Eppers allegedly submitted fraudulent documents, failed to report
their receipt of dual housing subsidies, and together obtained $3,243 in housing assistance they were not
entitled to receive.

                                                   ppp

    George Magee, a Housing Authority of New Orleans Section 8 tenant and Hurricane Katrina disaster
housing assistance recipient, was sentenced in U.S. District Court, New Orleans, LA, to 14 months home
confinement and 5 years probation and ordered to pay FEMA $10,000 and the Louisiana Department of
Social Services $7,753 in restitution for his earlier guilty plea to committing theft of government funds and
mail fraud. Magee submitted false documents and obtained $15,474 in disaster housing assistance he was
not entitled to receive.

                                                   ppp

    Leslie Landrio, also known as Leslie Washington, a former Houston Housing Authority Housing
Choice Voucher program participant and FEMA disaster housing assistance recipient through the Harris
County Housing Authority, pled guilty in Harris County District Court, Houston, TX, to committing theft.
From June 2006 to November 2007, Landrio failed to report her receipt of dual housing subsidies and
fraudulently obtained $5,824 in disaster housing assistance she was not entitled to receive.

                                                   ppp

    Christine Tate, a former New Britain Housing Authority Section 8 tenant, was sentenced in U.S. District
Court, Hartford, CT, to 3 years probation and ordered to pay the U.S. Department of Homeland Security,
Office of Inspector General, $3,742 in restitution for her earlier guilty plea to making false statements.
From September 2005 to November 2006, Tate applied for and received $3,742 in FEMA disaster assistance
after she claimed Hurricane Katrina evacuee status, but Tate resided in either Connecticut or Alabama
during the storm.

FEMA and Other Fraud by HUD Tenants
    Alton Donahue and Jabar Triplett, unauthorized East Baton Rouge Housing Authority Section 8 tenants,
were collectively sentenced in U.S. District Court, Baton Rouge, LA, to 12 months incarceration, 3 years
supervised release, and 3 years probation, and Donahue was ordered to pay FEMA $10,391 in restitution
for their earlier guilty pleas to committing theft of government funds or mail fraud, illegal conversion of
government property, or aiding and abetting. Donahue and Triplett fraudulently obtained and negotiated
a $10,391 FEMA disaster assistance check that belonged to another individual.

                                                   ppp




                                                                             Chapter 6 - Disaster Grant Programs
       Chapter 7
Other Significant Audits
  and Investigations/
      OIG Hotline
106
            In addition to the audits and investigations described in this chapter, the U.S. Department of Housing
        and Urban Development (HUD), Office of Inspector General (OIG), has conducted a number of outreach
        efforts (see chapter 8, page 126).



        Audit
                     Strategic Initiative 4: Contribute to improving HUD’s execution
                         and accountability of fiscal responsibilities as a relevant
                      and problem-solving advisor to the Department’s execution
          Key program results                                  Questioned costs                  Funds put to better use
                Audit                 9 audits*                     $3 million                          $15.2 million
                 Our                  Page 106           •	 HUD’s Office of the Chief Procurement Officer
                focus                 Page 107           •	 Collections made under the False Claims Act
                                      Page 107           •	 Fiscal Year 2009 review of information systems controls
                                      Page 107           •	 Review of HUD’s network devices
                                      Page 107           •	 Review of controls over HUD’s property and equipment
                                      Page 108           •	 Review of HUD’s Lead Hazard Reduction Demonstration
                                                            Grant program

        * The total “other” audits include American Recovery and Reinvestment Act of 2009 (two audits) type audits conducted in
        other areas. The writeups for these audits are shown separately in chapter 5 of this semiannual report.



            HUD OIG’s more significant audits are discussed below.

        HUD’s Office of the Chief Procurement Officer
             HUD OIG audited HUD’s procedures for administering completed and expired contracts in compliance
        with applicable regulations to determine whether HUD performed contract closeout procedures on completed
        and expired contracts in a timely manner. OIG’s objective was expanded to determine whether the contract
        files were complete and properly maintained.

            HUD did not close contracts in a timely manner. Specifically, it did not close out more than 1,800 contract
        actions for which the performance period had expired or the work had been completed more than 6 months
        before OIG’s review. Of these actions, 35 contracts had outstanding balances totaling $15.2 million that
        should have been deobligated. Also, HUD did not maintain accountability for contract files. As a result, it
        could not locate 15 of the 94 files sampled, and 11 files were incomplete because required documents were
        missing.

            OIG recommended that HUD (1) deobligate the outstanding balances remaining on the contracts
        reviewed, (2) increase the priority for closing expired and completed contracts and appropriately deobligate
        outstanding balances to avoid future backlogs, and (3) establish adequate administrative controls to properly
        maintain and safeguard contract files. (Audit Report: 2010-HA-0003)




      Chapter 7 - Significant Audits and Investigations/OIG Hotline
                                                                                                                    107
Collections Made Under the False Claims Act
   HUD OIG reviewed the loan origination practices of Anchor Mortgage Corporation in Chicago, IL, to
identify violations of Federal Housing Administration (FHA) requirements and the related losses incurred
by HUD.

    HUD sued the lender and its owner under the False Claims Act. In August 2010, the court entered a
judgment of nearly $3 million against the lender and its owner. The court concluded that Anchor had provided
false information or violated HUD regulations for 11 loans. The lender had provided false gift affidavits
in connection with applications it submitted to obtain FHA-insured loans. It had also paid fees to a real
estate company for referring borrowers, although it certified to HUD that it had paid no kickbacks, fees, or
consideration of any type to anyone in connection with the transaction except as permitted by HUD rules.

   OIG recommended that HUD collect nearly $2.8 million in damages and penalties awarded against
Anchor and more than $226,000 in damages and penalties awarded against the owner for violating the False
Claims Act. (Audit Report: 2010-CF-1801)

Fiscal Year 2009 Review of Information Systems Controls
(Report Not Available to the Public)

     HUD OIG reviewed general and application controls for selected information systems to assess
management controls over HUD’s computing environments as part of its audit of HUD’s financial statements
for fiscal year 2009 under the Chief Financial Officer’s Act of 1990. The review was based on the Government
Accountability Office’s “Federal Information Systems Controls Audit Manual” and information technology
guidelines established by the Office of Management and Budget and the National Institute of Standards
and Technology.

    OIG determined that the contents of this report would not be appropriate for public disclosure and has,
therefore, limited its distribution to selected officials. (Audit Report: 2010-DP-0002)

Review of HUD’s Network Devices
(Report Not Available to the Public)

    HUD OIG audited HUD’s network devices to determine whether the security configurations implemented
on the devices provided adequate controls to prevent abuse or unauthorized access to HUD’s information
resources. OIG evaluated security measures that protect HUD information by scanning identified network
devices and identifying vulnerabilities and suspect configurations that place sensitive information at risk.
OIG conducted the audit as a component of the testing of general and technical controls for information
systems in connection with (1) an audit of HUD’s consolidated financial statements and (2) the annual
evaluation of HUD’s information system security program and practices required by the Federal Information
Security Management Act of 2002.

    OIG determined that the contents of this report would not be appropriate for public disclosure and,
therefore, limited its distribution to selected HUD officials. (Audit Report: 2010-DP-0004)

Review of Controls Over HUD’s Property and Equipment
    HUD OIG audited HUD’s property and equipment to determine whether HUD properly recorded and
tracked the acquisition and disposal of its capitalized and other accountable property and equipment.




                                                    Chapter 7 - Significant Audits and Investigations/OIG Hotline
108                                                                                                                  10
           Not all purchases of accountable equipment were recorded in HUD’s inventory management system, the
        Facilities Integrated Resource Management System (FIRMS). Additionally, HUD lacked sufficient purchase
        documentation for accountable equipment in FIRMS. Also, there were deficiencies noted in FIRMS, and
        HUD’s inventory policies and procedures needed to be updated. HUD properly recorded and tracked its
        capitalized equipment.

             OIG recommended that HUD (1) develop and implement a system which would allow it to identify
        when equipment is purchased, (2) update and reissue the standard operating procedures for reporting the
        purchases of equipment and implement a set of standard operating procedures for users of purchase cards,
        (3) develop and implement system interfaces, and (4) develop and implement a process that can distinguish
        between capitalized and expensed equipment in FIRMS. OIG further recommended that HUD ensure that
        its employees are properly trained in the procedures for identifying which equipment needs to be reported
        and are aware of the requirement to report the purchase and, in some instances, the lease of equipment to
        HUD. (Audit Report: 2010-FO-0004)

        Review of HUD’s Lead Hazard Reduction Demonstration Grant
        Program
            HUD OIG audited HUD’s grant program for Lead Hazard Reduction Demonstration (LHRD) to determine
        whether (1) HUD awarded grants in accordance with the selection criteria specified in the fiscal year 2009
        notice of funding availability (NOFA) and (2) a hotline complaint, alleging that HUD changed application
        scores to award grants to applicants that were not ranked high enough to receive funding under the 2009
        NOFA, had merit.

           OIG found no intent to change scores to fund certain applicants; thus, the allegation could not be
        substantiated. The scores were changed to correct errors in the waiver matching requirement percentage
        during the threshold review. In addition, five LHRD applicants incorrectly received two bonus points
        because they were not in designated empowerment zones.

            OIG recommended that HUD ensure that (1) the accuracy of threshold reviews is verified before the
        applications are sent to the application review panel, (2) the quality control reviews are completed and
        documented before the application review panel report is submitted for approval, and (3) the review panel
        members do not perform quality control reviews of applications that they reviewed. OIG also recommended
        that HUD follow the new procedures requiring the reviewers to verify that applicants are in a designated
        empowerment zone. (Audit Report: 2010-HA-0002)

                                                             ppp




      Chapter 7 - Significant Audits and Investigations/OIG Hotline
09                                                                                                                      109
     Investigations
                Strategic Initiative 4: Contribute to improving HUD’s execution
                    and accountability of fiscal responsibilities as a relevant
                 and problem-solving advisor to the Department’s execution

         Key program               Cases                   $            Convictions/pleas/       Admin/civil
           results                 closed              recovered             pretrials             actions

        Investigations               36                 $216,234                  1                    6



         Herman Ransom, a former director of the HUD Office of Multifamily Housing, was sentenced in U.S.
     District Court, Kansas City, KS, to 12 months incarceration and 2 years probation and ordered to pay HUD
     $46,926 in restitution for his earlier conviction of committing theft of government funds and wire fraud.
     From September 2001 to June 2007, Ransom played tennis or gambled at local casinos during work hours.
     HUD realized losses of $46,926.

                                                      ppp

         Louis Simpson, the owner of Worldwide Communications Group, was sentenced in U.S. District Court,
     Plano, TX, to 183 months incarceration and 3 years supervised release and ordered to pay an amount of
     restitution not yet determined for his earlier conviction of committing wire fraud and aggregated identity
     theft. Simpson claimed an association with HUD and provided fraudulent HUD and financial institution
     documents in an attempt to gain investors and sell products or medical benefits to HUD low-income tenants.

                                                      ppp




                                                        Chapter 7 - Significant Audits and Investigations/OIG Hotline
110
        OIG Hotline
            The HUD OIG hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 4:30 p.m.
        The hotline is staffed by nine full-time OIG employees, who take allegations of waste, fraud, abuse, or serious
        mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and the public. The
        hotline also coordinates reviews with internal audit and investigative units or with HUD program offices.

            During this reporting period, the hotline received and processed 10,489 complaints -- 74 percent (7,784)
        received by telephone, 10 percent (1,001) by mail, and 16 percent (1,704) by e-mail. Every allegation
        determined to be related to the OIG mission is logged into a database and tracked.

           Of the complaints received, 493 were related to the mission of OIG and were addressed as hotline cases.
        Hotline cases are referred to OIG’s Offices of Audit and Investigation or to HUD program offices for action
        and response. The following illustration shows the distribution of hotline case referrals by percentage.



                              Chart 7.1: Hotline cases opened by program area




                                                                                     Public and Indian housing, 40%
                                                                                     Multifamily housing, 12%
                                                                                     Community planning and
                                                                                     development, 3%
                                                                                     OIG audit and investigation, 30%
                                                                                     Single-family housing, 4%
                                                                                     Other, 11%




            The hotline closed 310 cases this reporting period. The closed hotline cases included 61 substantiated
        allegations. The substantiated allegations resulted in 20 administrative sanctions, including action taken
        against a tenant for failing to report all income and allowing unauthorized live-ins to reside in her HUD-
        subsidized residence. The Department also took 47 corrective actions that resulted in $140,614 in recoveries
        of losses and $933,674 in HUD funding that could be put to better use. The recoveries included repayments
        of overpaid rental subsidies. Some of the funds that could be put to better use were the result of cases
        in which tenants were terminated from public housing or multifamily housing programs for improperly
        reporting their incomes or family composition to qualify for rental assistance.




      Chapter 7 - Significant Audits and Investigations/OIG Hotline
                                                                                                              111
           Chart 7.2: Hotline dollar impact from program offices



                     $725,420

$900,000


$700,000


$500,000


$300,000

                                                                 $160,590
$200,000                          $72,926                                    $47,194


     $0        Public and Indian housing                    Multifamily housing

                    Funds put to better use           Recoveries



                                            ppp




                                              Chapter 7 - Significant Audits and Investigations/OIG Hotline
Chapter 8
Outreach
 Efforts
114
            To foster cooperative, informative, and mutually beneficial relationships with agencies and organizations
        assisting the U.S. Department of Housing and Urban Development (HUD) in accomplishing its mission,
        the Office of Inspector General (OIG) participates in special outreach efforts. The outreach efforts described
        below complement routine coordination with Federal, State, and local law enforcement agencies, various
        congressional committees or subcommittees, and other OIGs. During outreach efforts, OIG personnel
        present information about HUD OIG’s role and function, provide audit and investigative results, and discuss
        desired goals and objectives.

        Single-Family Housing Programs
           Deputy Assistant Inspector General for Audit (DAIGA) Joan Hobbs and Special Agent in Charge (SAC)
        Rene Febles provided information and insight and described the resources available for civil and criminal
        mortgage fraud investigations as panelists during a U.S. Attorney’s Civil Chiefs conference in Columbia,
        SC. Approximately 80 prosecutors attended.

                                                           ppp

             SAC Barry McLaughlin provided an overview of HUD OIG operations and mortgage fraud as a panelist
        at a Mortgage Bankers Association conference in Chicago, IL. The panel was moderated by Federal Deposit
        Insurance Corporation Inspector General Jon Rymer and included Deputy Special Inspector General for
        the Troubled Asset Relief Program Christopher Sharpley and Rachel Dollar from Smith-Dollar PC. Other
        panel members included personnel from the U.S. Department of Justice, the Federal Housing Administration
        (FHA), and the mortgage industry. Approximately 250 individuals attended each session.

                                                           ppp

            SAC Herschell Harvell, Assistant Special Agent in Charge (ASAC) Lisa Gore, and Special Agent (SA)
        Eric Wilkins provided an overview of HUD OIG’s mission and goals and described fraud and “red flag”
        indicators relating to the HUD Home Equity Conversion Mortgage (HECM) program at a training symposium
        sponsored by the National Association of Consumer Credit Counselors and the American Association of
        Residential Mortgage Regulators in Memphis, TN. Approximately 75 mortgage regulators attended.

                                                           ppp

            SAC Rene Febles, SA Christina Scaringi, and Assistant U.S. Attorney (AUSA) Richard Hayes participated
        in a panel discussion and described issues found in mortgage fraud investigations at a meeting held for
        New York State Bar Association members in Manhattan, NY. Approximately 80 New York State attorneys
        attended.

                                                           ppp

            SAC Barry McLaughlin sponsored and hosted an Illinois Mortgage Fraud Working Group meeting in
        Chicago, IL, and Federal Bureau of Investigation Supervisory SA Paul Holdeman provided an overview of
        the latest trends in mortgage fraud, suspicious activity reports, and law enforcement efforts. Approximately
        25 regulators, investigators, and prosecutors attended.

                                                           ppp




      Chapter 8 - Outreach Efforts
                                                                                                                  115
    ASAC Brad Geary and SA Julien Kubesh provided a presentation, entitled “The Latest Trends in Mortgage
Fraud”; described the FHA, HECM, and the Neighborhood Stabilization programs (NSP); and discussed
various Federal statutes and enforcement efforts for individuals attending an International Association of
Financial Crime Investigators conference in Minneapolis, MN. Approximately 25 financial institution and
law enforcement personnel attended.

                                                  ppp

    ASAC Ray Espinosa provided a presentation, entitled “The Latest Trends in Mortgage Fraud,” described
the FHA and HECM programs, and illustrated OIG’s undercover operations and enforcement efforts at a
Bank and Credit Union Safety and Fraud seminar sponsored by the Chicago Police Department in Chicago,
IL. Approximately 25 financial institution loss prevention and Federal, State, and local law enforcement
personnel attended.

                                                  ppp

   ASAC Suzanne Steigerwald and Assistant Regional Inspector General for Audit (ARIGA) Sarah Pon
provided an overview of HUD OIG’s mission and hosted a question and answer forum for approximately
40 Colorado, Utah, Montana, Wyoming, and North and South Dakota congressional staff members and
HUD personnel meeting in Denver, CO.

                                                  ppp

    ASAC Gene Westerlind provided an overview of HUD OIG’s mission and priorities and described
mortgage fraud schemes and OIG’s role in mortgage fraud investigations at the New England Chapter
of the International Association of Financial Crimes Investigators conference in Uncasville, CT. At the
conclusion, a question and answer forum was held for approximately 150 financial and law enforcement
personnel in attendance.

                                                  ppp

   ASAC Lisa Gore and SA Casey Fincher provided an overview of HUD and HUD OIG’s mission and
goals, described the functions of the Offices of Investigation and Audit, explained common and emerging
mortgage fraud schemes, and illustrated a short-sale mortgage fraud investigation at a Tennessee Land Title
Association conference in Nashville, TN. Approximately 50 title industry professionals attended.

                                                  ppp

    ASAC Michael Gibson provided an overview of reverse mortgage products and HECM fraud schemes,
described potential FHA mortgage fraud indicators, and illustrated current investigations and the fraud
referral process at a Reverse Mortgage Risk Management meeting in Los Angeles, CA. Approximately eight
Bank of America senior executives and Financial Crimes Enforcement Network representatives attended.

                                                  ppp

    ASAC Kedric McKnight provided an overview of HUD OIG’s mission and role in FHA mortgage fraud
and described mortgage fraud detection and prevention strategies at a Mortgage Bankers Association meeting
in Fort Worth, TX. More than 160 association members attended.

                                                  ppp




                                                                                   Chapter 8 - Outreach Efforts
116
           ASAC Tony Meeks and SA James Carrieres provided an overview of HUD OIG’s mission and described
        successful Arizona mortgage fraud investigations for about 100 loan officers and underwriters meeting at
        AmeraFirst Mortgage in Scottsdale, AZ.

                                                           ppp

            ASAC James Luu provided an overview of HUD OIG’s mission and function and described investigative
        priorities relating to mortgage fraud and FHA programs at a seminar sponsored by the Chico Association
        of Realtors in Chico, CA. Approximately 75 real estate professionals attended.

                                                           ppp

            ASAC Lisa Gore provided an overview of HUD OIG’s mission and goals, described the functions of the
        office of Investigation, explained OIG’s role in the use and analysis of Bank Secrecy Act data, and discussed
        the HECM program and foreclosure fraud schemes at a Southern District of Georgia Bank Secrecy Act
        Seminar in Savannah, GA. Approximately 100 financial industry professionals attended.

                                                           ppp

            ASAC Kevin McBride provided an overview of the latest trends in FHA mortgage fraud and discussed
        mortgage fraud indicators at a HUD-sponsored training conference held in Greensboro, NC. Approximately
        150 loan counselors attended.

                                                           ppp

           ASAC Wallace Merriman provided an overview of HUD OIG’s mission and described predatory lending,
        property flipping, equity skimming, and appraisal and HECM program fraud as a panelist at a housing
        conference in Columbia, MD. The conference was sponsored by the Baltimore Homeownership Preservation
        Coalition and the Maryland Housing Counselor Network. Approximately 100 State, local, and nonprofit
        agency representatives attended.

                                                           ppp

            ASAC Brad Geary and Barbara Anderson, an attorney from Latimer, Levay, and Jurasek, LLC, provided
        a presentation, entitled “Real Time: Updates in Real Estate, Construction, and Lending Litigation,” and
        discussed FHA mortgages, deed theft schemes, Federal statutes, and current law enforcement efforts at a
        continuing legal seminar held for attorneys and real estate professionals in Chicago, IL. Approximately 40
        attorneys and title company employees attended.

                                                           ppp

            ASAC James Luu provided an overview of HUD OIG’s mission and function and described investigative
        priorities relating to mortgage fraud, FHA programs, and economic stimulus packages at a HUD-sponsored
        congressional briefing held in San Francisco, CA. Approximately 40 congressional, HUD, and local
        government representatives attended.

                                                           ppp

           ASAC Brad Geary provided a presentation, entitled “The Latest Trends in Mortgage Fraud,” and
        described the FHA and HECM programs and current law enforcement efforts as a panelist during a seminar




      Chapter 8 - Outreach Efforts
                                                                                                                 117
in Chicago, IL. The seminar was sponsored by the Practicing Law Institute. Other panelists included AUSA
Toi Houston and Robert Burson, the Senior Associate Regional Director for the Securities and Exchange
Commission. Approximately 50 attorneys attended.

                                                 ppp

   ASAC Kedric McKnight provided an overview of HUD OIG’s mission and role and described FHA
and housing assistance fraud schemes at a “Housing Summit” held in Fort Worth, TX. Approximately 110
home buyers and mortgage and banking industry professionals attended.

                                                 ppp

    ASAC Brad Geary provided a presentation, entitled “The Latest Trends in Mortgage Fraud,” and
discussed FHA mortgages, property flipping, and deed theft schemes; the HECM program and NSP; and
Federal statutes and current law enforcement efforts for Chicago Association of Government Accountants
meeting in Chicago, IL. Approximately 25 auditors from various OIG agencies attended.

                                                 ppp

   ASAC Korey Brinkman and SA Rebecca Nickell provided an overview of HUD OIG’s mission during
a CitiMortgage teleconference in St. Louis, MO. Approximately 50 CitiMortgage fraud investigators
participated.

                                                 ppp

   SA James Carrieres provided an overview of HUD OIG’s mission and described successful Arizona
mortgage fraud investigations for about 300 real estate professionals attending an “Industry Partners”
conference in Scottsdale, AZ.

                                                 ppp

    SA John Raney provided an overview of HUD OIG’s mission and described the HECM program,
mortgage fraud schemes, and issues related to predatory lending at a public benefits forum hosted by AARP
in Denver, CO. Approximately 85 individuals attended.

                                                 ppp

   SAs Herminia Neblina and Ira Long provided an overview of HUD OIG and described the HECM
program and schemes associated with fraudulent mortgages and loan modifications at a home rescue fair in
La Puente, CA. The fair was hosted by Congresswoman Grace Napolitano. Approximately 105 La Puente
government officials and others attended.

                                                 ppp

   SA James Carrieres provided an overview of HUD OIG’s mission and described successful Arizona
mortgage fraud investigations at a meeting held for about 75 real estate agents from Coldwell Banker and
Keller Williams Realty in Mesa, AZ.

                                                 ppp




                                                                                  Chapter 8 - Outreach Efforts
118
            SA Brian Gosselin provided an overview of HUD OIG’s mission and role and described mortgage
        fraud for Vermont Mortgage Bankers Association members meeting in Williston, VT. Approximately 12
        mortgage professionals attended.

                                                           ppp

            SAs Timothy Lishner and Thomas Osting provided an overview of HUD OIG’s mission and role in FHA
        mortgage fraud and described mortgage fraud detection and prevention strategies at a meeting held for the
        Colorado Association of Hispanic Real Estate Professionals in Denver, CO. Approximately 75 individuals
        attended.

                                                           ppp

            ARIGA William Nixon, Senior Auditor Tamara Wallinger, and Auditor Stacey Streeter provided a mortgage
        fraud update to the 2010 Oklahoma Mortgage Broker Association Conference in Tulsa, OK. Approximately
        45 people attended the seminar. Auditors answered questions before and after the presentation.

                                                           ppp

            Regional Inspector General for Audit (RIGA) Heath Wolfe and SAC Barry McLaughlin provided a
        presentation to the Downstate Chapter of the Illinois Mortgage Bankers Association in Bloomington, IL.
        RIGA Wolfe discussed the new Civil Fraud Initiative, lender-related audit findings, and what to expect when
        undergoing an audit. SAC McLaughlin discussed the recent mortgage fraud trends, red flags of mortgage
        fraud, and what to do when you suspect fraud. The audience included managers and staff from mortgage
        bankers, real estate offices, and new home builders.

                                                           ppp

            ARIGA William Nixon and Senior Auditor Danita Wade provided a mortgage fraud update to the
        Dallas-Ft.Worth Association of Mortgage Brokers/Professionals in Dallas, TX. Approximately 60 people
        attended the seminar. Auditors answered questions before and after the presentation.

                                                           ppp

            RIGA Heath Wolfe gave two presentations in Springfield, IL, on HUD OIG’s mission and goals and
        the functions of the Office of Audit. The first session consisted of 29 individuals representing FHA lenders,
        municipalities, housing authorities, nonprofits, and homeless advocacy groups. The second was made up
        of 19 State and Federal congressional staffers.

        Public Housing and Rental Assistance Programs
            SAC Michael Powell and RIGA Ron Hosking provided an overview of HUD OIG’s priorities, past results,
        and future objectives during four breakout sessions at HUD’s 2010 Sustainable Homes and Communities
        conference in Fargo, ND. The breakout sessions included one session for elected officials, board members,
        and policy makers; two sessions for public housing authority management; and one session for Native
        American program participants. Approximately 500 government and industry leaders and managers
        attended the conference, including U.S. Senator Kent Conrad and other Federal, State, and local government
        representatives.

                                                           ppp



      Chapter 8 - Outreach Efforts
                                                                                                                  119
    SAC Wayne North provided an overview of HUD OIG’s role in Indian housing and Community
Development Block Grant (CDBG) investigations as a panelist at an Affiliated Tribes of Northwest Indians
conference in Spokane, WA. Other panel members included representatives from the U.S. Department of
Justice, the U.S. Attorney’s Office, the Bureau of Indian Affairs, Warm Springs and Coleville Tribal Police
chiefs, and HUD personnel from the Office of Native American Programs. More than 200 tribal leaders
representing 56 Indian tribes attended.

                                                  ppp

   SAC Rene Febles, ASAC Kevin Chan, and SAs Rasove Ramirez and Elizabeth Peralta provided an
overview of HUD housing assistance investigations and described potential fraud within the American
Recovery and Reinvestment Act of 2009 (ARRA) and NSP during a meeting with Westchester County Section
8 Administrators in White Plains, NY. More than 15 housing representatives attended.

                                                  ppp

   SAC Mike Powell and Senior Auditor Dan Tipton provided an overview of HUD OIG’s mission and
described multifamily program investigations and audits at a Heartland Affordable Housing Management
Association meeting in Kansas City, MO. At the conclusion, a question and answer forum was held for
approximately 60 housing professionals in attendance.

                                                  ppp

    SAC Barry McLaughlin and ARIGA Ron Farrell provided an overview of HUD OIG investigations
and audits; explained “red flag” fraud indicators, rental assistance fraud schemes, and recent audits and
civil enforcement efforts; and described ARRA funding fraud at a National Association of Housing and
Redevelopment Officials (NAHRO) conference in Indianapolis, IN. Approximately 60 NAHRO members
attended.

                                                  ppp

    SAC Wayne North and ARIGA Ed Schmidt provided an overview of HUD OIG and described recent
ARRA audit findings and housing investigations at an Idaho NAHRO conference in Boise, ID. Approximately
30 housing officials attended.

                                                  ppp

    SAC Herschell Harvell and ASAC Nadine Gurley provided a presentation, entitled “How to Combat
Fraud, Waste, and Abuse within Georgia Housing Authorities,” at a Georgia Association of Housing and
Redevelopment Authorities conference in Savannah, GA. Approximately 60 housing authority executive
directors attended.

                                                  ppp

   SAC Breck Nowlin and RIGA Heath Wolfe made presentations to more than 65 individuals at the
Michigan NAHRO conference in Troy, MI. SAC Nowlin and RIGA Wolfe discussed the Public Housing
Capital Fund program being funded by ARRA. Both presentations included ARRA accountability and
reporting requirements. RIGA Wolfe’s presentation covered the audit process, common findings in public
housing agency nonprofit development activities and HUD’s Section 8 Housing Choice Voucher and Project-




                                                                                   Chapter 8 - Outreach Efforts
120
        Based Voucher programs, and the Office of Audit’s affirmative civil enforcement initiative. SAC Nowlin’s
        presentation also included an overview of OIG’s Office of Investigation’s roles and responsibilities plus its
        priority areas.

                                                            ppp

            ASAC Wallace Merriman, ARIGA Kimberly Harrison, and SA Michael Wagenhauser provided an overview
        of HUD OIG’s mission and the Offices of Investigation and Audit; described HUD OIG investigations and
        audits, the audit process, prevention and risk management controls, best practices for housing authorities,
        and rental assistance fraud and identity theft; and provided avenues for protecting information and
        identifying and preventing fraud in multifamily housing programs at the Virginia Association of Housing
        and Community Development Officials conference in Virginia Beach, VA. Approximately 60 housing
        agency representatives attended.

                                                            ppp

           ASAC Eric Bizjak provided an overview of HUD OIG’s mission, goals, and priorities; explained the
        functions of the Office of Investigation; and described HUD OIG initiatives that monitor HUD ARRA and
        Housing and Economic Recovery Act of 2008 (HERA) funding at a meeting held for Federal, State, and local
        public and private housing representatives in Columbus, OH.

                                                            ppp

            ASAC Suzanne Steigerwald and SA Trevor Wood provided an overview of HUD OIG’s mission, described
        the functions of the Office of Investigation, and illustrated fraud detection and enforcement methods
        used to successfully prosecute housing investigations at a Colorado NAHRO conference in Pueblo, CO.
        Approximately 60 housing professionals attended.

                                                            ppp

            ASAC Kevin Chan and SA Jarred Palmiotto provided an overview of the FHA, CDBG, and Section 8
        programs and discussed HUD OIG’s authority and the process for detecting and preventing fraud and
        selecting and conducting investigations at a New York State Association of Renewal and Housing Officials
        conference in Albany, NY. Approximately 25 housing officials attended.

                                                            ppp

            ASAC Korey Brinkman and Senior Auditor Kim Dahl provided an overview of HUD OIG’s mission at
        an annual NAHRO conference in St. Louis, MO. Approximately 80 housing officials attended.

                                                            ppp

           ASAC Louis Mancini and SA Heather Yannello provided an overview of HUD OIG’s mission, HUD
        programs, and the assistance available for housing authorities at the New York State Public Housing
        Authority Directors Association conference in Verona, NY. Approximately 150 housing officials attended.

                                                            ppp

            ASAC Eric Bizjak and SA David Fredrick provided an overview of HUD OIG’s mission, goals, and
        priorities; explained the functions of the Offices of Audit and Investigation; and described housing assistance




      Chapter 8 - Outreach Efforts
                                                                                                                 121
fraud trends at an Ohio Housing Authorities conference in Columbus, OH. Approximately 50 housing
professionals and others attended.

                                                 ppp

    ARIGA Sonya Lucas made a presentation to 70 members of the Georgia Association of Housing and
Redevelopment Authorities Spring Conference in Macon, GA. She provided an overview of OIG and
discussed fraud prevention for public housing authorities.

                                                 ppp

   SA John Raney provided an overview of HUD OIG’s mission, described the Office of Investigation
functions, and illustrated fraud detection and enforcement methods used to successfully prosecute housing
investigations at a Mountain Plains NAHRO conference in Deadwood, SD. Approximately 50 NAHRO
members attended.

                                                 ppp

    SA Tammy Hernandez provided an overview of HUD OIG’s mission, goals, and priorities; explained
the function of the Offices of Audit and Investigation; and described HUD OIG initiatives that relate to
HUD funding in both ARRA and NSP at a Southwest Regional NAHRO conference in Springdale, AR.
Approximately 75 NAHRO members attended.

                                                 ppp

   SAs Edward Redmond and Stephen Tufts provided an overview of HUD OIG’s mission and role and
described the detection and investigation of waste, fraud, and abuse in HUD-funded programs at a New
England NAHRO conference in Breton Woods, NH. At the conclusion, a question and answer forum was
held for approximately 100 housing representatives in attendance.

                                                 ppp

    SA Heather Yannello provided an overview of HUD programs and described HUD OIG’s mission as it
relates to the detection and investigation of program fraud at a training seminar hosted by the New York
State Division of Criminal Justice in Buffalo, NY. Approximately 120 government officials attended.

                                                 ppp

    SAs James Fincher, Keith Benderoth, and Jeffery Monnin provided an overview of HUD OIG’s mission
and goals; described the Offices of Investigation and Audit, rental assistance initiatives, and the HUD
Enterprise Income Verification system; and illustrated management and tenant fraud schemes at a Housing
Management conference in Louisville, KY. At the conclusion, a question and answer forum was held for
275 management agents and others in attendance.

                                                 ppp

    SA Robert Petrole provided an overview of HUD OIG’s mission and role in the Housing Choice Voucher
and Multifamily housing programs, described current trends in rental assistance fraud investigations, and
illustrated fraud detection methods at a Maryland Association of Housing and Redevelopment Agency
conference in Ocean City, MD. Approximately 50 housing representatives attended.

                                                 ppp


                                                                                  Chapter 8 - Outreach Efforts
122
           SA Ronnyne Bannister provided an overview of HUD OIG’s mission and described housing authority
        investigations and reviews at a meeting for Prince Georges County Housing Authority landlords in Prince
        Georges County, MD. At the conclusion, a question and answer forum was held for approximately 40
        prospective landlords in attendance.

                                                           ppp

            SA Gregory Williams provided an overview of HUD OIG’s mission, role, and priorities and discussed
        fraud detection, prevention, and reporting methods at two public safety meetings held at Worcester Housing
        Authority housing units in Worcester, MA. Approximately 70 residents and law enforcement personnel
        attended.

                                                           ppp

           SAs Jeffery Monnin and Keith Benderoth provided an overview of HUD OIG’s mission and role and
        described rental fraud initiatives and reporting methods at a Kentucky Housing Corporation conference in
        Bowling Green, KY. More than 380 housing professionals attended.

                                                           ppp

           SAs Eric Huhtala and Paul Richard provided an overview of HUD OIG’s mission and authority and
        described fraud prevention and detection during a “Fraud Prevention and Personal Safety Training” seminar
        hosted by the Housing Authority of the County of San Joaquin in Stockton, CA. More than 30 housing
        authority representatives and law enforcement personnel attended.

                                                           ppp

           SAs Bozena Schrank and Daniel Austin provided an overview of HUD OIG’s mission and described the
        HUD Public and Indian housing program and OIG’s role in tenant fraud at a Washington Auditor Managers
        meeting in Olympia, WA. Approximately 24 audit managers and legal staff attended.

         Community Planning and Development
            Michael Beard, Charlene Mills, and Lakesha Mays of the Technical Oversight and Planning Division
        (TOP) participated in a panel at the HUD Office of Community Planning and Development (CPD) Managers
        Training in Washington, DC. TOP joined headquarters CPD representatives Jenny Sardone and Jessie Kome
        to discuss the fiscal year 2011 CPD audit plan and the results of recent audits. Discussion centered around
        the national NSP and HOME Investment Partnerships Program (HOME) program.

                                                           ppp

            SAC Diane DeChellis and ARIGA Michael Motulski presented an overview of HUD OIG’s mission and
        priorities; described OIG’s organizational structure, the functions of the Offices of Audit and Investigation,
        current management challenges, HUD stimulus funds, and recent audits and investigations; and provided
        information relating to audit reports and the OIG Internet Web site for Rhode Island Bureau of Audit staff
        members meeting in Providence, RI. At the conclusion, a question and answer forum was held for 15 staff
        members in attendance.

                                                           ppp




      Chapter 8 - Outreach Efforts
                                                                                                                   123
   SAC Rene Febles, ASAC Steven Perez, and SA Jennifer Schofield-Lake provided an overview of HUD
Community Planning and Development programs and fraud detection and prevention methods and
described the NSP and recovery funds for Nassau County Intergovernmental and Housing Agency employees
meeting in Hempstead, NY. Approximately 20 individuals attended.

                                                  ppp

    RIGA Tanya Schulze, ASAC James Luu, and ARIGA Vincent Mussetter provided an overview of HUD
OIG’s mission and conducted two workshops that described fraud detection and prevention methods at
a CDBG and HOME conference in Sacramento, CA. Approximately 50 nonprofit grantees and State and
local government officials attended.

                                                  ppp

     ARIGA Helen Sparks and Senior Auditor Chad Gagon attended a “welcome home” ceremony for the
first homeowner in the City of North Las Vegas, NV, to receive keys to an NSP-acquired and -rehabilitated
home. The ceremony was attended by the mayor and staff of the City of North Las Vegas, HUD CPD
representative M. Roy Porter, and staff from the nonprofit developer.

                                                  ppp

    SAs Chris Conn and Tim Mugrage provided an overview of HUD OIG’s mission and described the
functions of the Office of Investigation at a Missouri CDBG training seminar held in Jefferson City, MO.
At the conclusion, a question and answer forum was held for approximately 100 grantees in attendance.

                                                  ppp

    SA Victoria Marquez provided an overview of HUD OIG’s mission at a “Faith-based and Neighborhood
Partners” grant writing seminar held in San Antonio, TX. Approximately 75 grant writers and grantees
attended.

                                                  ppp

    SA David Smith provided an overview of HUD OIG’s mission, described the functions of the Office of
Investigation, and illustrated fraud detection and enforcement methods used to successfully prosecute grant
fraud investigations for Utah grant administrators meeting in West Valley, UT. Six grant administrators
attended.

                                                  ppp

   SA Victoria Marquez provided an overview of HUD OIG’s mission and priorities at a meeting held for
community development directors in San Antonio, TX. Approximately 25 directors attended.

American Recovery and Reinvestment Act
    SAC Joseph Clarke and ARIGA David Kasperowicz gave a presentation on HUD OIG reviews involving
funds provided under ARRA at a Middle Atlantic NAHRO conference in Wilmington, DE. The presentation
included an overview of HUD OIG’s mission and goals and the functions of the Offices of Audit and
Investigation and focused primarily on anticipated and ongoing HUD OIG oversight of ARRA funding.
ARIGA Kasperowicz presented information on the Office of Audit’s plans for auditing ARRA funds and




                                                                                    Chapter 8 - Outreach Efforts
124
        concerns about the risks in ARRA programs. SAC Clarke described the HUD OIG zero tolerance stance,
        presented information on potential criminal activities associated with the ARRA programs, and provided
        examples of HUD OIG criminal cases involving government funds. Approximately 30 grantees attended
        the presentation.

                                                          ppp

            RIGA John Buck and ARIGA David Kasperowicz were guest speakers at the 2010 Governor’s Conference
        on Housing and Community Development hosted by the New Jersey Housing and Mortgage Finance
        Agency and the New Jersey Department of Community Affairs in Atlantic City, NJ. RIGA Buck presented
        an overview of HUD OIG’s mission and goals and the function of the Office of Audit. ARIGA Kasperowicz
        presented information on the Office of Audit’s plans for auditing ARRA funds; concerns about the risk of
        fraud, waste, and abuse in ARRA programs; and information on findings identified in recent audits of the Tax
        Credit Assistance Program. Approximately 20 housing development professionals attended the presentation.

                                                          ppp

            RIGA Tanya Schulze and ARIGA Helen Sparks met with the directors of the State of Nevada Legislative
        Auditors and the Internal Auditors in Reno, NV. The main focus of the discussion was ARRA and how
        efforts and resources related to HUD’s ARRA-funded activities can be coordinated. The officials expressed
        an interest in coordinating with OIG in the future.

                                                          ppp

            RIGA Tanya Schulze and SAC James Todak participated in a briefing in Los Angeles, CA, with about
        35 local congressional representatives and HUD officials. They spoke about OIG’s organization, workload,
        and current initiatives and priorities. The questions and discussions focused largely HUD’s and OIG’s
        current activities related to ARRA.

                                                          ppp

           ASAC Eric Bizjak provided an overview of HUD OIG’s mission, goals, and priorities; explained the
        functions of the Offices of Audit and Investigation; and described HUD OIG initiatives that monitor HUD
        ARRA and HERA funding for seven congressional staff members meeting in Columbus, OH.

                                                          ppp

            ASAC Kedric McKnight and ARIGAs Nikita Irons and Tracey Carney provided an overview of the
        ARRA, FHA mortgage fraud, and the HECM program; described HUD program requirements, current
        trends, audit findings, and fraud schemes; and discussed OIG’s investigative enforcement strategies and
        audit expectations at an “Annual Neighborhoods” conference in Little Rock, AR. Approximately 50 real
        estate and mortgage industry professionals attended.

                                                          ppp

            ASAC Korey Brinkman and ARIGA Carrie Gray provided an overview of HUD OIG’s mission and
        described fraud schemes, recent audit findings, and HUD ARRA funding at a project-based contract
        administrator summit held in St. Louis, MO. At the conclusion, a question and answer forum was held
        for approximately 50 housing finance agency staff members from Missouri, Iowa, Kansas, Nebraska, and
        Oklahoma.

                                                          ppp


      Chapter 8 - Outreach Efforts
                                                                                                                    125
    ASAC Eric Bizjak provided an overview of HUD OIG’s mission, goals, and priorities; explained the
Office of Investigation functions; and described HUD OIG initiatives that monitor ARRA and HERA HUD
funding at a meeting held for employees from the Cincinnati/Hamilton County Continuum of Care for
the Homeless in Columbus, OH.

                                                   ppp

    ARIGA Karen Campbell spoke at the HUD Manager’s Conference in Saratoga Springs, NY. She provided
an overview of the Office of Audit’s 2010 initiatives and work plans. There were approximately 20 managers
in attendance. Discussions included ARRA funds and planned and completed audits.

                                                   ppp

     ARIGA Tracey Vargas and SAC Wayne North spoke at a meeting of The Association of Washington
Housing Authorities in Yakima, WA. The meeting was attended by approximately 20 housing authority
executive directors from Washington. ARIGA Vargas and SAC North provided an overview of HUD OIG,
its organization, and findings noted in ARRA audits of housing authorities.

                                                   ppp

   ARIGA Carrie Gray and ASAC Korey Brinkman spoke at a HUD training session for community planning
and development formula grantees in St. Louis, MO. The training was attended by approximately 25 staff
members from various entitlement cities in the eastern half of Missouri. ARIGA Gray and ASAC Brinkman
provided an overview of HUD OIG, various fraud schemes, recent audit findings, and ARRA funding.

                                                   ppp

    ARIGA Helen Sparks spoke about the OIG audit process and ARRA audits at a briefing hosted by HUD
in San Francisco, CA, for Region IX Federal, State, and local government elected officials to discuss HUD
activities in various program areas. The briefing was followed by a roundtable question and answer period.

                                                   ppp

    ARIGA Kevin Smullen and Senior Auditors Llyod Currie and Kristen Ekmalian attended the STOP Fraud
Task Force meeting at the offices of the Massachusetts Attorney General in Boston, MA. The Task Force,
established in 2009 in response to the enactment of ARRA, includes representatives from Massachusetts
State and U.S. Federal investigative, audit, and inspector general agencies. The discussion topics focused on
what fraud prevention techniques had worked in the past and indicated that going forward, the focus would
be more on identifying ARRA-related fraud and less on prevention. A teamwork approach in combating
fraud was encouraged. A discussion was held on successes to date. Approximately 15 Task Force members
were in attendance.

                                                   ppp

    SA Juan Juarez provided an overview of HUD OIG’s mission, goals, and priorities; described the
functions of the Office of Investigation and OIG initiatives that monitor HUD ARRA and NSP funding;
and illustrated procurement fraud detection and prevention at a meeting in Houston, TX. Employees from
the Texas Department of Rural Affairs and the City of Huntsville along with NauticalAffordable Housing
subgrantees attended.




                                                                                     Chapter 8 - Outreach Efforts
126
        Law Enforcement Outreach
            SA Heather Yannello and Investigative Student Trainee Matthew Begeal provided an overview of HUD
        OIG’s witness relocation process at a “Cultivation and Protection of Witnesses” training conference in
        Hamburg, NY. The event was sponsored by the U.S. Attorney’s Office. Approximately 100 law enforcement
        officials attended.

                                                          ppp

           In cooperation with the National Center for Missing and Exploited Children, SA Scott Savedow and SAs
        from the Federal Law Enforcement Officers Association fingerprinted about 170 children during National
        Missing Children’s Day events held at the Pahokee and Fort Lauderdale Housing Authorities in Pahokee
        and Fort Lauderdale, FL.

        Other Outreach
            Inspector General (IG) Kenneth Donohue and DAIGA Joan Hobbs addressed a group of 200 auditors
        and information technology professionals at the 2010 Association of Government Accountants/American
        Society of Military Comptrollers Technology and Fraud Conference in Honolulu, HI. The session was
        entitled “Civil Fraud: Going after the Money.” IG Donohue discussed civil fraud techniques and how to
        bring money back to Federal organizations. The presentation included a question and answer session.

                                                          ppp

            DAIGA Joan Hobbs, Counsel to the Inspector General Bryan Howell, and Civil Fraud Division Director
        Kim Randall held a teleconference with the Department of Justice Civil Divisions in Washington, DC, and
        more than 20 U.S. Attorney’s Offices nationwide, as well as HUD’s Office of General Counsel. They explained
        the makeup of OIG’s new Civil Fraud Division and the Division’s focus on mortgage fraud. In addition,
        the group discussed a major tool in litigating mortgage fraud, the Financial Institution Reform, Recovery,
        and Enforcement Act of 1989, as well as HUD-related cases recently filed using the Act. They answered
        questions from the participants and expressed a desire to work closely with HUD and the Department of
        Justice to pursue civil actions against those that commit fraud against HUD.

                                                          ppp

            Michael Beard, Director of HUD OIG’s Technical Oversight and Planning Division, presented Region
        VI’s Distinguished Service Recognition Award to Nicole Faison, HUD Program Advisor, in Washington,
        DC. Region VI recognized Ms. Faison for her efforts regarding OIG’s deceased tenants assignment. She
        aided OIG throughout the assignment and championed the report to ensure the implementation of the
        recommendations.

                                                          ppp

            Civil Fraud Division Director Kim Randall met in St Louis, MO, with the Criminal and Civil Divisions
        of the U.S. Attorney’s Office for the Eastern District of Missouri. Director Randall provided an overview
        of HUD OIG’s new Civil Fraud Division and how HUD OIG was working with HUD’s Office of General
        Counsel in preparing civil action referrals to the Department of Justice. Director Randall also discussed
        how HUD OIG and the U.S. Attorney’s Offices could work together on civil cases.

                                                          ppp



      Chapter 8 - Outreach Efforts
                                                                                                                        127
    Civil Fraud Division Director Kim Randall met in Fairview Heights, IL, with the Civil and Criminal
Divisions of the U.S. Attorney’s Office for the Southern District of Illinois. Director Randall described HUD
OIG’s new Civil Fraud Division and how HUD OIG was working with HUD’s Office of General Counsel
in preparing civil action referrals to the Department of Justice. Director Randall discussed ongoing and
potential civil cases regarding fraudulent use of HUD program funds and OIG’s continued commitment to
working with HUD’s Office of General Counsel on future cases.

                                                     ppp

    ARIGAs Ed Schmidt and Tracey Vargas met with Chuck F. Pfeil, Director of Audit, and Kelly Collins,
Deputy Director of State and Local Audits, of the Washington State Auditor’s office in Olympia, WA. They
discussed the work of each office and how the offices can work together.

                                                     ppp

    ARIGA Sarah Pon and Auditor Sally Yang held a teleconference with Mike Geesey, Director of Audit,
and Pam Robinson, State Legislative Auditor, of the State of Wyoming auditor’s office in Denver, CO. The
purpose of the meeting was for the two offices to become familiar with each other and discuss the possibilities
for pooling resources. They discussed the work that each office does and how the offices can work together.
They agreed to keep in touch and pool resources if the possibility arises.

                                                     ppp

    ARIGA Sarah Pon and Auditor Sally Yang met in Denver, CO, with Cindi M. Radke, Legislative Audit
Manager, State of Colorado; Sally Symanski, State Auditor, State of Colorado; and two of their staff members
that oversee State of Colorado audits to discuss the roles of each office and how they can work together. As
a result, the offices agreed to coordinate oversight of HUD funds when opportunities arise.

                                                     ppp

    ARIGAs Narcell Stamps and Sonya Lucas met with the Chief of the Civil Division of the United States
Attorney’s Office, Northern District of Georgia, and one of her AUSAs in Atlanta, GA. ARIGAs Stamps
and Lucas obtained feedback on factors OIG should consider when referring cases to the United States
Attorney for civil action and factors the United States Attorney should consider when deciding whether to
accept referrals and open civil cases. The AUSA stated that the United States Attorney’s Office is interested
in referrals that involve single-family mortgage loans and individuals who violate requirements that are
subject to civil action. ARIGAs Stamps and Lucas discussed and obtained constructive feedback on issues
such as dollar thresholds, ability to pay, necessity for there to be a loss to the government, preservation of
assets to settle civil judgments, jurisdictional issues, pursuit of administrative action as parallel proceedings,
and content of the referral package. The AUSA expressed an interest in working with OIG as it pursues
civil fraud.

                                                     ppp

   ASAC Kedric McKnight and ARIGA Theresa Carroll gave presentations at the 2010 Congressional Briefing
held at the Albuquerque, NM, HUD office. The presentations covered OIG’s opening of a new office in
Albuquerque and the mission, roles, responsibilities, and results of OIG. The briefing was attended by one
congressman, several congressional aides, and local activists.

                                                     ppp




                                                                                         Chapter 8 - Outreach Efforts
128
            Computer Audit Specialist (CAS) Cliff Cole participated as a guest speaker at the Association of
        Government Accountants (AGA) national audio conference on “The Latest Tools and Techniques for
        Auditors.” The audio conference was broadcast live from Alexandria, VA, to more than 100 locations and
        nearly 2,000 participants across the United States. CAS Cole highlighted how using audit analytics could
        add value to the organization and demonstrated how the efficiencies of using these techniques could produce
        better results with bigger returns on investment while consuming fewer resources. He further described the
        history of HUD OIG’s computer-assisted audit techniques (CAATs) journey that ultimately brought it to the
        forefront of the inspector general community as one of the leading Federal agencies in innovative audit and
        investigative data analytics. The conference was attended by members of AGA; the National Association
        of State Auditors, Comptrollers, and Treasurers; and the Association of Local Government Auditors.

                                                          ppp

            Senior Auditor Amber Eyster presented a description of the HUD OIG Office of Audit at HUD’s Region
        VIII New Employee Program Orientation in Denver, CO. She discussed OIG’s independence from HUD,
        OIG’s mission, internal versus external audits, and how OIG selects audits. The audience consisted of
        approximately 20 new HUD employees, representing various program areas including the Offices of Single
        Family Housing, Multifamily Housing, Fair Housing and Equal Opportunity, and Regional Counsel and
        the OIG Office of Investigation.

                                                          ppp

            Senior Auditor Chad Gagon and Auditor Stacey Streeter visited with senior pastors and church officials
        from several faith groups in Las Vegas, NV. The congregations of the respective churches are situated in
        areas that have been hit hard by the recent foreclosure crisis. Auditor Streeter provided an overview of
        HUD OIG’s mission and goals and the function of the Office of Audit. Auditor Gagon discussed audit
        findings related to the single-family program, types of mortgage fraud, and current foreclosure and loan
        modification scams. Approximately 17 people attended.

                                                          ppp

          SAs Lori DiCriscio and Robert Petrole participated in the 9th annual 5K “Run to Remember” in Baltimore,
        MD, to commemorate the lives of those lost on September 11, 2001.

                                                          ppp




      Chapter 8 - Outreach Efforts
   Chapter 9
   Reviews of
Policy Directives
130
            Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part
        of the Office of Inspector General’s (OIG) responsibilities under the Inspector General Act. During this
        6-month reporting period, OIG has committed approximately 464 hours to reviewing 160 issuances. The
        draft directives consisted of 36 notices of funding availability, 96 mortgagee letters or notices, and 28 other
        directives. OIG provided comments on 99 percent of these directives. This chapter highlights some of OIG’s
        comments for this reporting period.

        Enacted Legislation
            Due to the collapse of the subprime mortgage market and resulting increase in foreclosures, Congress and
        the President approved the Housing and Economic Recovery Act of 2008 (HERA) and the American Recovery
        and Reinvestment Act of 2009 (ARRA). These laws contained significant new funding and programs for the
        U.S. Department of Housing and Urban Development (HUD). Specifically, the Neighborhood Stabilization
        Program (NSP) was created under HERA and provided an initial $3.92 billion in funding to State and local
        governments for the redevelopment of abandoned and foreclosed-upon homes and residential properties.
        ARRA provided an additional $13.61 billion to existing programs, including an additional $2 billion for NSP.
        On May 20, 2009, the President signed the Helping Families Save Their Homes Act of 2009. This new law
        provides the Federal Housing Administration (FHA) with additional loss mitigation authority to assist FHA
        borrowers under the Making Home Affordable program. Further, this legislation expanded the authority
        to use FHA loss mitigation to assist defaulted home buyers in avoiding foreclosure to include those facing
        imminent default. Lastly, the President signed the Dodd-Frank Wall Street Reform and Consumer Protection
        Act. This legislation establishes an office of housing counseling within HUD to boost home ownership
        and rental housing counseling. Further, it provides for foreclosure legal assistance. Specifically, the bill
        authorizes a HUD-administered program for making grants to provide foreclosure legal assistance to low-
        and moderate-income homeowners and tenants related to home ownership preservation, home foreclosure
        prevention, and tenancy associated with home foreclosure.

            OIG is performing audits of recipients of HERA and ARRA funding. Based on risks identified in HUD’s
        front-end risk assessments, OIG targeted program areas and will propose regulatory changes, as necessary,
        to control risks in these new program areas.

            OIG also participated in a number of meetings with HUD officials regarding these additional funds and
        the programmatic risks of the activities. OIG continues to express concerns about the capacity of many of
        the grantees. It has expressed its concerns in its review comments to clearance items and directly to HUD
        officials.

            The Federal Housing Commissioner continued to propose a number of risk management initiatives
        related to HUD’s single-family programs and has started the process of updating its multifamily program
        requirements. As part of the issuances reviewed, OIG provided comments on the preliminary rules. Many of
        the proposed changes required rule making. On April 20, 2010, HUD issued the final rule of Federal Housing
        Administration: Continuation of FHA Reform; Strengthening Risk Management Through Responsible
        FHA-Approved Lenders [Docket No. FR 5356–F–02]. This final rule increases the net worth requirements
        for FHA-approved lenders, provides for the elimination of FHA approval of loan correspondents, and
        updates FHA regulations to incorporate criteria specified in the Helping Families Save Their Homes Act of
        2009 designed to ensure that only entities of integrity are involved in the origination of FHA-insured loans.

        Notices and Policy Issuances
            OIG objected to a mortgagee letter advising about the new architect/owner agreement, which provides
        a consistent documentary framework for the design and construction of a project. Working cooperatively
        with the Department, OIG continues its efforts to resolve its objections.

                                                            ppp
      Chapter 9 - Reviews of Policy Directives
Chapter 10
  Audit
Resolution
132
            In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
        Urban Development (HUD) management agree upon the needed actions and timeframes for resolving audit
        recommendations. Through this process, OIG hopes to achieve measurable improvements in HUD programs
        and operations. The overall responsibility for ensuring that the agreed-upon changes are implemented
        rests with HUD managers. This chapter describes significant revised management decisions and significant
        management decisions with which OIG disagrees. It also contains a status report on HUD’s implementation
        of the Federal Financial Management Improvement Act of 1996 (FFMIA). In addition to this chapter on audit
        resolution, see appendix 3, table B, “Significant Audit Reports Described in Previous Semiannual Reports
        in Which Final Action Had Not Been Completed as of September 30, 2010.”

        Audit Reports Issued Before Start of Period With No Management
        Decision as of September 30, 2010
        Registered Sex Offenders’ Occupancy of HUD-Subsidized Housing
            Issued August 14, 2009. The Inspector General referred this issue to the Assistant Secretaries for Housing
        and Public Housing on December 28, 2009, because agreement could not be reached with the Deputy
        Assistant Secretaries on 13 of the 22 recommendations. The recommendations relate to OIG’s audit of HUD’s
        requirement prohibiting lifetime registered sex offenders from admission to HUD-subsidized housing. Based
        upon a statistical sample, OIG determined that HUD subsidized an estimated 2,094 to 3,046 households that
        included lifetime registered sex offenders. As a result, it did not accomplish the objective of the statute to
        prevent admission of dangerous sex offenders, and the same offenders who were deemed too dangerous
        for admission were allowed to continue living in subsidized housing.

            OIG recommended that HUD seek legislative and program rule changes to require denial of continued
        occupancy and termination of tenancy or continued subsidy, as appropriate, for all lifetime registered sex
        offenders residing in subsidized housing. OIG also recommended that if legislative changes are passed,
        HUD develop and implement a plan to detect lifetime registered sex offenders occupying subsidized
        housing. Additionally, OIG recommended that HUD require projects and housing authorities to revise their
        admission, screening, and recertification procedures and urge them to aggressively pursue termination of
        assistance for lifetime sex offenders to the extent allowed by law.

             Both Assistant Secretaries submitted new proposed management decisions on March 31, 2010. OIG agreed
        with the Assistant Secretaries on all but two recommendations, which related to the need for legislative
        changes to require denial of continued occupancy and termination of tenancy for all lifetime registered sex
        offenders residing in subsidized housing. Specifically, OIG’s audit identified tenants who were eligible
        at the time of admission but later became lifetime registered sex offenders. While Congress has banned
        lifetime registered sex offenders from being admitted to federally assisted housing, current statutes do not
        effectively empower HUD to purge all lifetime registrants who already reside there. This issue is troubling
        because HUD possesses sufficient legal authority to terminate other groups. To compensate for this gap in
        its statutory authority, HUD’s only present option is to employ a mix of regulations, policies, and procedures,
        the statutory basis and ultimate efficacy of which are disputable. A statutory fix authorizing and requiring
        termination of lifetime registrants from federally assisted housing is the surest means to enable HUD to
        protect residents from known sex offenders.

           On April 29, 2010, OIG referred this matter to the Deputy Secretary for a final decision. On June 22, 2010,
        OIG met with the Assistant Secretaries and their staff. On July 7, 2010, the Assistant Secretaries submitted
        “PIH [Office of Public and Indian Housing] and Multifamily Housing Alternate Proposal to Seeking
        Legislation Mandating Termination of Assistance or Tenancy of State Lifetime Registered Sex Offenders.”




      Chapter 10 - Audit Resolution
                                                                                                                      133
This proposal was to amend the U.S. Housing Act of 1937 to ban admission and mandate the termination of
tenancy and assistance for public and assisted housing tenants who become tier III sex offenders, rather than
attaching the standards to State registration law. In addition, PIH and the Office of Multifamily Housing
would strongly encourage public housing agencies and owner/agents to establish standards concerning
admission and termination of tier I and tier II sex offenders. On July 19, 2010, OIG rejected the Assistant
Secretaries’ alternate proposal because it would loosen the standards that Congress has already established
and again referred the matter to the Deputy Secretary for a final decision. (Audit Report: 2009-KC-0001)

HUD Lacked Adequate Controls To Ensure the Timely Commitment
and Expenditure of HOME Funds
    Issued September 28, 2009. HUD OIG audited HUD’s HOME Investment Partnerships Program (HOME).
OIG recommended that the HUD Office of Community Planning and Development (CPD) establish and
implement controls to ensure that field offices require participating jurisdictions to close out future HOME
activities within a timeframe that will permit reallocation and use of the funds for eligible activities in time
to avoid losing them to recapture by the United States Treasury under provisions of Public Law 101-510.
OIG also recommended that CPD obtain a formal legal opinion from HUD’s Office of General Counsel
regarding whether

   •	 HUD’s cumulative technique for assessing compliance with commitment deadlines is consistent
      with and an allowable alternative to the 24-month commitment required by 42 U.S.C. (United States
      Code) § 12748 and

   •	 HUD’s first-in, first-out (FIFO) method for assessing compliance with HOME expenditure
      requirements is consistent with and an allowable alternative to the 8-year recapture deadline pursuant
      to Public Law 101-510, codified at 31U.S.C. § 1552.

    CPD obtained a legal opinion from the Assistant General Counsel for Community Development on
March 5, 2010. The legal opinion supports the Department’s use of the cumulative approach and FIFO
accounting method. Based on this legal opinion, CPD does not plan to implement OIG’s recommendation
to discontinue use of the FIFO method to account for the commitment and expenditure of HOME funds or
the cumulative technique for assessing deadline compliance.

   OIG requested reconsideration of the opinion. On June 10, 2010, HUD’s General Counsel and Chief
Financial Officer provided additional information regarding HUD’s recapture requirements of the HOME
program statute and CPD’s use of cumulative accounting and the FIFO method for financial management.

    HUD explained that CPD’s use of cumulative accounting in its financial management represents a
reasonable interpretation of the statutory duties imposed on the HUD Secretary and addresses the complex
administrative challenges inherent in managing the HOME Investment Trust. HUD also explained that
obligations and expenditures under the HOME program are accounted for on a FIFO basis by fund type
instead of by fiscal year and that CPD, in enforcing the obligation and expenditure requirements, looks to
total cumulative obligations and expenditures instead of accounting for them by fiscal year. Based on the
Chief Financial Officer’s financial analysis, given the origin of these requirements and the fundamental
nature of this block grant program, HUD believed that the FIFO accounting method for obligations and
expenditures by fund type was consistent with Federal accounting requirements and had no objection to the
total cumulative obligations and expenditures methods used for assessing compliance with the 24-month
commitment and 5-year expenditure requirements.




                                                                                      Chapter 10 - Audit Resolution
134
            OIG continues to disagree that CPD’s use of the FIFO method for recognizing commitments and
        expenditures that participating jurisdictions make against their HOME appropriations or CPD’s cumulative
        accounting are consistent with the legislation under 42 U.S.C. § 12748, requiring recapture of funds not
        committed by statutory deadline dates. These methods of accounting also potentially violate the closure
        of accounts under 31 U.S.C. § 1552.

            Another issue raised by CPD’s accounting methods is whether HUD’s FIFO accounting method
        complies with Federal accounting requirements for maintaining the U.S. Standard General Ledger and
        general appropriations law. The accounting issues require review for compliance with Federal accounting
        standards and appropriation law. Since OIG’s last semiannual report date, in conjunction with its annual
        audit of HUD’s financial statements, OIG has discussed the FIFO accounting method with the Government
        Accountability Office (GAO) to obtain its views on whether the method violates Federal standards for
        appropriation accounting. (Audit Report: 2009-AT-0001)

        Significantly Revised Management Decisions
           Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information
        concerning the reasons for any significant revised management decisions made during the reporting period.
        During the current reporting period, there were significant revised management decisions on three audits.

        Mays Property Management, Inc., Multifamily Management Agent -
        Little Rock, AR
           Issue Date: September 17, 2004. As part of OIG’s initiative to combat equity skimming, OIG audited nine
        multifamily projects managed by Mays Property Management, Inc. (Mays). The objective was to determine
        whether Mays complied with project regulatory agreements and HUD regulations when disbursing funds.

           Mays officials disbursed project operating funds for items that violated project regulatory agreements
        with HUD. They charged management agent expenses to projects, paid for unsupported expenditures,
        diverted project funds to Mays and a property owner, and overcharged expenses to projects. In addition,
        Mays split its management fee with a project owner and transferred project funds to other projects having
        cash-flow problems. As a result, Mays’ officials misspent more than $979,000 in project funds and made
        unauthorized advances of more than $20,000 from five projects to other projects. These violations had a
        negative financial impact on the projects.

           OIG made several recommendations to HUD’s Multifamily Housing Directors in Fort Worth, TX,
        and Little Rock, AR, including (1) require Mays to repay the projects nearly $492,000 for the ineligible
        expenditures of project funds (recommendation 1A); (2) require Mays to furnish required documentation
        and if it does not, require Mays to repay the projects more than $437,000 (recommendation 1C); and (3)
        with HUD approval, require projects to pay their debt to other projects (recommendation 1E). There were
        other recommendations, but they were not affected by the revised management decisions below.

            HUD and OIG agreed on the original management decisions in February 2005. On April 2, 2010, OIG
        agreed with HUD’s request to revise the management decision to allow it to request approval from the
        Assistant Secretary for Housing-Federal Housing Commissioner to write off the amounts as they were
        deemed uncollectible. On July 15, 2010, the Assistant Secretary for Housing-Federal Housing Commissioner
        requested OIG concurrence to write off nearly $929,000 for recommendations 1A and 1C, which would also
        resolve recommendation 1E. On August 4, 2010, OIG agreed with HUD’s request to write off the nearly
        $929,000. OIG agreed with the writeoff based primarily on a judgment against Mr. Mays that awarded
        more than $1.7 million to a third party, which required several of Mays’ properties to be sold to satisfy the



      Chapter 10 - Audit Resolution
                                                                                                                     135
judgment. HUD also sought administrative enforcement through its Departmental Enforcement Center.
However, the statutes of limitations had expired. (Audit Report 2004-FW-1009)

East Meyer Community Association - Kansas City, MO
    Issue Date: November 24, 2003. HUD OIG conducted an audit of East Meyer Community Association
to determine whether East Meyer used its Community Development Block Grant and Neighborhood
Initiative Grant funds in accordance with applicable guidelines. OIG found that East Meyer improperly
spent nearly $727,000 of its Neighborhood Initiative Grant and recommended that HUD take necessary
action to recoup the nearly $727,000.

    HUD agreed with the recommendation; however, East Meyer filed a Chapter 7 (liquidation) bankruptcy
on April 3, 2003. According to the records in the bankruptcy court, the Clerk of the Court initially issued a
notice to creditors advising that there were no assets and that it was unnecessary for any creditor to file any
claim. On December 31, 2003, the Clerk issued another notice to creditors advising that it appeared that the
bankruptcy estate had assets and that creditors had to file claims in order to share in any distribution from
the estate. HUD did not file a claim and, therefore, HUD did not share in any distribution from the estate.
The bankruptcy case was fully administered, and it was terminated on September 21, 2009.

    In April 2004, HUD’s Office of General Council advised CPD that “the available evidence indicates that
East Meyer has no money that HUD could recover.” HUD’s Office of General Council recently reassessed
the likelihood that HUD would recover any funds from East Meyer and on March 8, 2010, again advised
that it was “unlikely that HUD will be able to recover any funds from East Meyer.” In addition, on June 24,
2010, HUD received a letter from the U.S. Department of Justice stating that the Federal Claims Collection
Standards, 31 CFR (Code of Federal Regulations) Part 903, grant HUD authority to terminate collection
activity because HUD failed to file a claim with the bankruptcy court. On September 24, 2010, OIG agreed
with the revised management decision to write off the nearly $727,000 in improperly spent funds. (Audit
Report 2004-KC-1001)

Tenant-Based Section 8 Vouchers Used for Tax Credit-Subsidized
Units - Washington, DC
    Issue Date: November 8, 2006. HUD OIG conducted an internal, nationwide review of rents that HUD
allowed tax credit project owners to charge to tenant-based Section 8 voucher households. OIG initiated
the review as a follow-up to previous OIG audit work at a public housing agency, which noted that low-
income housing tax credit (tax credit) projects charged higher rents to tenant-based housing choice voucher
households than to tenants without vouchers. The rents charged for voucher households also exceeded the
rent restrictions established by the Internal Revenue Service for these tax credit projects. OIG found that,
consistent with program regulations, tax credit project owners were allowed to charge the Housing Choice
Voucher program more than $13.5 million annually for rents that exceeded the Internal Revenue Service
maximum rent when they leased rent-restricted units to households with tenant-based housing choice
vouchers (tenant-based vouchers). OIG also determined that accurate and up-to-date information on the
use and cost of tenant-based vouchers in tax credit units was not available because no agency monitored
the overlap of these programs. Without the tenant-based vouchers, the same tax credit units would have
been available to the same households at the lower, Internal Revenue Service restricted rent. The restricted
rents were established for all of the units in each project because the owners had proposed and agreed to
them in exchange for a capital subsidy in the form of tax credits. HUD had already disallowed similar rent
levels for other subsidized affordable housing programs on the basis that the additional portion amounted
to an extra subsidy. Further, use of tenant-based voucher funds to pay such unnecessarily high rents
directly reduced scarce program funds that could be used to assist additional low-income families.



                                                                                     Chapter 10 - Audit Resolution
136
             OIG recommended that PIH draft and implement tenant-based voucher program regulations that
        required housing authorities to limit housing assistance payments contract gross rent to an amount not to
        exceed the applicable area’s tax credit-restricted rent at the 60 percent income level for units in projects that
        are 100 percent rent restricted, thus increasing the availability of tenant-based Section 8 voucher funds by
        at least $13.5 million annually (recommendation 1A).

            HUD officials at PIH disagreed with the recommendation (1A), and the matter was referred to the
        Deputy Secretary of HUD. In a May 9, 2007, memorandum, the Deputy Secretary noted that “OIG may be
        correct in finding that the current PIH policy of allowing project owners to charge the tenant-based voucher
        program rents that exceed the maximum tax credit rent is, in fact, an ‘extra subsidy.’ The extent to which this
        practice is unnecessary, wasteful, or overlaps other subsidy programs is not clear and needs further study.”
        Accordingly, HUD and OIG agreed that the recommendation would remain open until sufficient data
        from the implementation of recommendations 2A and 2B (which required HUD to track the use of tenant-
        based Section 8 vouchers in tax credit units and establish controls to ensure that available data on the costs
        of using multiple program subsidies to provide affordable housing are tracked and reported) had been
        gathered and analyzed by HUD and evaluated by OIG. Once data were available, OIG was to reevaluate
        recommendation 1A, make any appropriate revisions, and submit the revised recommendation(s) to the
        Deputy Secretary. The final action target dates for all of the recommendations were set for 2009 and 2010
        to accommodate the effort needed to establish tracking mechanisms and gather data.

            In 2008, the United States Congress passed the Housing and Economic Recovery Act (HERA), which
        contained a provision that allows tax credit projects to charge tenant-based voucher holders rents higher
        than the tax credit limits. PIH subsequently issued regulations to implement the policy. In a May 4,
        2010, memorandum to OIG, the Office of Public Housing and Voucher Programs proposed closing
        recommendation 1A based on this legislative change. OIG agreed with PIH’s interpretation of HERA
        regarding the allowable rents for tenant-based vouchers used for tax credit-subsidized units and closed the
        recommendation on June 15, 2010. (Audit Report 2007-LA-0001)

        Significant Management Decision With Which OIG Disagrees
        The Puerto Rico Public Housing Administration Mismanaged Its Capital
        Fund Financing Program and Inappropriately Obligated $32 Million in
        Recovery Act Funds – San Juan, PR
            Issue date: September 30, 2009. OIG audited the Puerto Rico Public Housing Administration’s (authority)
        Capital Fund Financing Program (Financing Program) as part of OIG’s strategic plan goals to improve
        HUD’s fiscal accountability. The objectives of the audit were to determine whether (1) the authority
        obligated and expended the 2003 Financing Program funds in accordance with HUD requirements, (2)
        the authority’s financial management system complied with program requirements, (3) the authority
        completed the proposed modernization activities under its 2003 Financing Program, and (4) the authority
        had the capacity to administer additional funds under the American Recovery and Reinvestment Act of
        2009 (ARRA).

           The authority did not manage the 2003 Financing Program in an economical, efficient, and effective
        manner. In addition, it inappropriately obligated $32.12 million in ARRA funds to supplant expenditures
        from other non-Federal funds in violation of its annual contributions contract with HUD.

            Three of the recommendations in the report requested that HUD obtain a formal legal opinion regarding
        the following two issues:




      Chapter 10 - Audit Resolution
                                                                                                                      137
   •	 Whether the authority’s use of capital funds to pay for interest expenses for 2003 bond proceeds
      used to pay off the bonds is allowable and consistent with regulations at 2 CFR Part 225.

   •	 Whether the authority obligated $31.65 million and expended nearly $463,000 in ARRA funds for
      five cited contracts in accordance with ARRA requirements, HUD Notice PIH 2009-12(HA), and the
      authority’s annual contributions contract.

   HUD obtained a legal opinion from the Assistant General Counsel on March 18, 2010. The legal opinion
concluded that the authority’s actions complied with the applicable requirements.

    OIG disagrees with this determination and stands by the conclusion that HUD should hold the authority
accountable for the improper use of capital and ARRA funds. The Office of General Counsel ignored the
fact that the authority and its residents did not receive a single benefit from the $57.4 million expended on
interest for unused bond funds. It also ignored the fact that the construction contracts paid with ARRA
funds were awarded in 2008, were registered with the State controller’s office, and were already obligated
with other sources of funding. Also, the scopes of the work were not expanded or increased and were not
for new projects. The contracts were awarded significantly before ARRA was signed into law and before
the authorized obligation start date of March 18, 2009. (Audit Report: 2009-AT-1015)

HUD’s Community Development Block Grant Set-Aside for Colonias
Was Not Used for Its Intended Purposes –Washington, DC
    Issue date: July 29, 2008. OIG has been unable to reach agreement with CPD on the actions necessary
to correct the deficiencies identified in OIG’s audit entitled “HUD’s Community Development Block
Grant Set-Aside for Colonias Was Not Used for Its Intended Purposes,” issued on July 29, 2008. OIG has
an agreed-upon management decision for recommendation number 1C wherein CPD’s Office of Block
Grant Assistance decided to issue guidance to satisfy the recommendation that HUD issue criteria or other
guidance that (1) better defines a colonia, (2) requires the States to support the colonia designations with
objective criteria, and (3) requires the States to prioritize funding to colonias with the greatest need, thereby
better assuring compliance with the Cranston-Gonzales National Affordable Housing Act of 1990.

    However, OIG has nonconcurred on CPD’s proposed guidance because OIG disagreed with CPD’s
interpretation of the statute implementing the colonia set-aside. OIG and CPD define a colonia, as found in
Section 916 of the Act, differently. Moreover, OIG believes that to comply with the Act, CPD should require
the States to (1) support their colonia designations using the objective criteria from the Act, (2) expend set-
aside funds in accordance with the Act, and (3) prioritize funding to colonias with the greatest need.

    Further, the GAO issued its December 2009 report on “Rural Water Infrastructure - Improved
Coordination and Funding Processes Could Enhance Federal Efforts to Meet Needs in the U. S.-Mexico
Border Region” (GAO-10-126), which found that HUD has “not always ensured compliance with statutory
requirements and regulations concerning the eligibility of applicants or projects or the prioritization of
funds from programs targeted at the border region.” Moreover, GAO also “found that HUD has not
developed guidance for determining what constitutes a colonia, has not made such determinations, and
has not reviewed states’ determinations. Lacking guidance and direction from HUD, states have applied
requirements differently.” OIG has discussed the matter with CPD’s Assistant Secretary and agrees that
CPD and OIG are at an impasse. Therefore, OIG is forwarding the issue to HUD’s Deputy Secretary for a
final decision on this audit. (Audit Report 2008-FW-0001)




                                                                                      Chapter 10 - Audit Resolution
138
        Federal Financial Management Improvement Act of 1996
          In fiscal year 2009, HUD did not substantially comply with FFMIA. In this regard, HUD’s financial
        management systems did not substantially comply with Federal financial management system requirements.

            During fiscal year 2009, HUD made limited progress in bringing the financial management systems
        into compliance with FFMIA. HUD’s financial management systems continued to not meet current
        requirements. HUD’s systems were not operated in an integrated fashion and linked electronically to
        efficiently and effectively provide agencywide financial system support necessary to carry out the agency’s
        mission and support the agency’s financial management needs.

            HUD’s financial systems, many of which were developed and implemented before the issue date of
        current standards, were not designed to provide the range of financial and performance data currently
        required. HUD is in the process of modernizing its financial management systems by developing an
        integrated financial management system. The modernization development, HUD’s Integrated Financial
        Improvement Project (HIFMIP), was launched in fiscal year 2003 but has been plagued by delays. Originally
        planned for implementation in 2006, the contract for HIFMIP was awarded on September 23, 2010. The
        Office of Management and Budget (OMB) approved the 18-month base period of performance for the
        contract, which is expected to run through April 2012. Future option periods will require OMB approval.

            FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when
        an agency has not met the intermediate target dates established in its mediation plan required by FFMIA.
        At the end of 2009, the Department reported that 2 of its 40 financial management systems were not in
        substantial compliance with FFMIA. These two systems are the HUD Procurement System and Small
        Purchase System. The Department plans to acquire a new application, which will bring these systems
        into compliance with FFMIA. The acquisition of the new application was completed on September 30,
        2010. Although 38 individual systems had been certified as compliant with Federal financial management
        systems requirements, HUD had not performed independent reviews of all of its financial management
        systems within the 3-year period required by OMB Circular A-127. Collectively and in the aggregate,
        deficiencies continued to exist.

            In addition, OIG audit reports have disclosed that security of financial information was not provided
        in accordance with OMB Circular A-130, Management of Federal Information Resources, appendix III, and
        the Federal Information Security Management Act.

                                                          ppp




      Chapter 10 - Audit Resolution
Appendix 1
Peer Review
 Reporting
140
        Background
            The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203), Section
        989C, requires Inspectors General to report the latest peer review results in their semiannual reports to
        Congress. The purpose in doing so is to enhance transparency within the government. Both the Office of
        Audit and Office of Investigation are required to undergo a peer review of their individual organizations
        every 3 years. The purpose of the reviews is to ensure that the work completed by the respective
        organizations meets the applicable requirements and standards. The following is a summary and status of
        the latest round of peer reviews for both organizations.


        Office of Audit
        Peer Review Conducted on HUD OIG
            The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
        received a rating of pass (the highest rating) on the peer review report issued by the U.S. Treasury Inspector
        General for Tax Administration on September 22, 2009. There were no recommendations included in the
        System Review Report. The report stated:

              In our opinion, the system of quality control in effect for the year ended March 31, 2009, for the
              audit organization of the HUD OIG has been suitably designed and complied with to provide the
              HUD OIG with reasonable assurance of performing and reporting in conformity with applicable
              professional standards in all material respects. Federal audit organizations can receive a rating
              of pass, pass with deficiencies, or fail. The HUD OIG has received a peer review rating of pass.

        Peer Review Conducted by HUD OIG on USDA
           The U.S. Department of Agriculture (USDA) OIG received a rating of pass on the peer review report issued
        by HUD OIG on September 30, 2009. The System Review Report contained no findings or recommendations.


        Office of Investigation
        Peer Review Conducted on HUD OIG
            The most recent peer review of the Office of Investigation was conducted in 2008 by the United States
        Postal Service’s Office of Inspector General. The results of the peer review found HUD OIG compliant
        (the highest rating) with the quality of standards established by the inspector general community and the
        attorney general guidelines.

                                                            ppp




      Appendix 1 - Peer Review Reporting
 Appendix 2
Audit Reports
   Issued
142
        Internal Reports
        19 Audit Reports
        Chief Information Officer (2 Reports)
        2010-DP-0002		         Fiscal Year 2009 Review of Information Systems Controls in Support of the 		
        			                    Financial Statements Audit, 05/14/2010.
        2010-DP-0004		         Security Weaknesses on HUD’s Network Devices, 09/30/2010.
        Chief Procurement Officer (1 Report)
        2010-HA-0003		         HUD Needs To Improve Controls Over Its Administration of Completed and 		
        			                    Expired Contracts, 09/30/2010. Better use: $15,200,000.
        Community Planning and Development (2 Reports)
        2010-AT-0001		         HUD Evaluated and Selected Applications for the Recovery Act’s NSP 2 in 		
        			                    Accordance With Applicable Requirements, 06/25/2010.
        2010-CH-0002		         The Office of Affordable Housing Programs’ Oversight of Resale and Recapture 		
        			                    Provisions for HOME Investment Partnerships Program-Assisted Homeownership 	
        			                    Projects Was Inadequate, 04/13/2010. Questioned: $43,086.
        Housing (4 Reports)
        2010-FW-0003		         HUD Was Not Tracking Almost 13,000 Defaulted HECM Loans With Maximum 		
        			                    Claim Amounts of Potentially More Than $2.5 Billion, 08/25/2010. Better 			
        			                    use: $35,494,896.
        2010-KC-0002		         FHA Delayed Sending Violation Notices to Lenders That Did Not Meet 			
        			                    Recertification Requirements, 08/06/2010.
        2010-KC-0003		         HUD’s Written Policies and Procedures for Loan Indemnifications Were Generally 	
        			                    Adequate, But Did Not Include Procedures for Pursuing Signed Indemnification 		
        			                    Agreements From Lenders, 09/28/2010.
        2010-LA-0002		         HUD’s Office of Single Family Housing’s Management Controls Over Its 			
        			                    Automated Underwriting Process, 09/15/2010. Better use: $1,887,442.	
        Lead Hazard Control (1 Report)
        2010-HA-0002		         HUD’s Office of Healthy Homes and Lead Hazard Control Grant Selection 		
        			                    Procedures Used for the Lead Hazard Reduction Demonstration Program, 		
        			                    09/29/2010.
        Office of Chief Human Capital Officer (1 Report)
        2010-FO-0004		         Review of HUD’s Property and Equipment, 08/17/2010.
        Office of Strategic Planning and Management (1 Report)
        2010-DP-0003		         Review of the Effectiveness of HUD’s Data Quality Review Processes for the 		
        			                    ARRA, 09/17/2010.
        Public and Indian Housing (4 Reports)
        2010-BO-0003		         Public Housing Authorities Generally Paid Voucher Subsidy Payments to 			
        			                    Subsidized Multifamily Properties Correctly, 08/09/2010.
        2010-FW-0002		         HUD’s Recapture and Reallocation Plan for Recovery Act Public Housing Capital 	
        			                    Fund Grants Had Weaknesses, 04/13/2010.




      Appendix 2 - Audit Reports Issued
                                                                                                                            143
2010-FW-0004		           HUD’s Oversight of the Hurricane Ike Disaster Housing Assistance Program in 		
			                      Texas Needed Improvement, 09/30/2010. Questioned: $85,103; Unsupported: 		
			                      $53,510; Better use: $800.
2010-KC-0001		           HUD Took Appropriate Steps to Improve Its Controls Over Net Restricted Assets 	
			                      but Overpaid Section 8 Set-Aside Funds to One Public Housing Agency, 			
			                      04/16/2010. Questioned: $17,992; Unsupported: $17,992.

Audit-Related Memorandums1
Community Planning and Development (1 Report)
2010-BO-0801		           HUD Region 1 Community Planning and Development Offices’ Monitoring 		
			                      of Homelessness Prevention and Rapid Re-Housing Program Grants Funded 		
			                      Under the ARRA Was Appropriately Targeted to Higher Risk Grantees, 			
			                      04/16/2010.
Office of the Secretary (1 Report)
2010-HA-0801		           HUD’s Guidance on Posting Signs for ARRA Projects, 08/06/2010.
Public and Indian Housing (1 Report)
2010-NY-0801		           Corrective Action Verification, Utica Municipal Housing Authority, Low-Rent 		
			                      Housing Program, Utica, NY, Audit Report Number 2006-NY-1005, 09/13/2010.



                                                         ppp




1
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
government auditing standards, to close out assignments with no findings and recommendations, to respond to requests for
information, to report on the results of a survey, or to report the results of civil actions or settlements.


                                                                                        Appendix 2 - Audit Reports Issued
144
        External Reports
        96 Audit Reports
        Community Planning and Development (29 Reports)
        2010-AO-1003		         The State of Louisiana’s Subrecipient Generally Ensured Costs Were Supported 		
        			                    Under Its Tourism Marketing Program, Baton Rouge, LA, 04/30/2010. Questioned: 	
        			                    $82,752; Unsupported: $82,752.
        2010-AO-1004		         The Mississippi Development Authority Generally Ensured That Contracts 		
        			                    Were Procured in Accordance With Its Disaster Recovery Program Policies 		
        			                    and Procedures, Jackson, MS, 06/22/2010. Questioned: $21,964; Unsupported: $21,964.
        2010-AO-1005		         The State of Louisiana’s Subrecipient Did Not Always Meet Agreement 			
        			                    Requirements When Administering Projects Under the Orleans Parish Long 		
        			                    Term Community Recovery Program, Baton Rouge, LA, 08/04/2010. Better 		
        			                    use: $28,125,000.
        2010-AO-1006		         The State of Alabama Generally Ensured That the City of Bayou La Batre 			
        			                    Properly Administered Its Hurricane Katrina CDBG Disaster Funds Program, 		
        			                    Montgomery, AL, 09/30/2010.
        2010-AO-1007		         The State of Alabama Generally Ensured Mobile Administered Its Hurricane 		
        			                    Katrina CDBG Disaster Funds Program in Accordance With HUD Requirements, 		
        			                    Montgomery, AL, 09/30/2010.
        2010-AT-1004		         Mobile Housing Board Used HOME Investment Partnerships Program Funds 		
        			                    for Ineligible and Unsupported Costs for Its HOPE VI Redevelopment, Mobile, AL, 	
        			                    05/17/2010. Questioned: $1,179,370; Unsupported: $839,713; Better use: $1,991,149.
        2010-AT-1006		         The Puerto Rico Department of Housing Failed To Properly Manage Its 			
        			                    HOME Investment Partnerships Program, San Juan, PR, 06/11/2010. Questioned: 	
        			                    $4,880,023; Unsupported: $1,293,336; Better use: $3,625,127.
        2010-AT-1008		         Polk County Entered Incorrect Commitments Into HUD’s Integrated 			
        			                    Disbursement and Information System for Its HOME Program, Bartow, FL, 		
        			                    07/30/2010. Better use: $400,776.
        2010-AT-1011		         The Puerto Rico Department of Housing Did Not Ensure Compliance With 		
        			                    HOME Program Objectives, San Juan, PR, 08/25/2010. Questioned: $13,455,261; 		
        			                    Unsupported: $9,027,082; Better use: $7,958,225.
        2010-AT-1012		         The City of Chattanooga Needs To Strengthen Controls for Tracking Obligations 		
        			                    and Reporting for Its NSP, Chattanooga, TN, 09/03/2010.
        2010-AT-1013		         The Louisville/Jefferson County Metropolitan Government Needs To Strengthen 	
        			                    Controls Over Reporting for Its NSP, Louisville, KY, 09/17/2010.
        2010-AT-1014		         Polk County Did Not Comply With Procurement and Contract Requirements in 		
        			                    Its NSP and HOME Program, Bartow, FL, 09/28/2010. Questioned: $4,524,621; 		
        			                    Unsupported: $4,426,071; Better use: $7,010,369.
        2010-AT-1015		         The City of Deerfield Beach Did Not Properly Administer Its CDBG Program, 		
        			                    Deerfield Beach, FL, 09/29/2010. Questioned: $395,288; Unsupported: $170,546; 		
        			                    Better use: $33,444.
        2010-CH-1006		         The Other Place, Inc., Needs To Improve the Administration of Its 				
        			                    Homelessness Prevention and Rapid Re-Housing Program Under the ARRA, 		
        			                    Dayton, OH, 04/30/2010. Questioned: $970.



      Appendix 2 - Audit Reports Issued
                                                                                                           145
2010-CH-1011		   The State of Illinois Needs To Improve Its Capacity To Effectively and 			
			              Efficiently Administer Its NSP, Chicago, IL, 08/05/2010. Questioned: $7,938; 		
			              Unsupported: $7,938; Better use: $4,833,000.
2010-DE-1003		   The City of Ogden Appropriately Administered the HOME Investment 			
			              Partnerships Program, Ogden, UT, 04/02/2010.
2010-DE-1006		   The City and County of Denver Did Not Properly Obligate and Report NSP I 		
			              Funding, Denver, CO, 09/17/2010. Better use: $1,535,289.
2010-FW-1005		   The Texas Department of Housing and Community Affairs Did Not Fully 			
			              Follow Requirements or Best Practices in the Acquisition of Its Disaster 			
			              Recovery-Funded Program Management Firm, Austin, TX, 07/20/2010. 			
			              Questioned: $18,763,330; Unsupported: $16,321,965.
2010-KC-1004		   The State of Iowa Did Not Implement Adequate Controls Over Its Business Rental 	
			              Assistance Program, Des Moines, IA, 05/26/2010.
2010-KC-1006		   The State of Kansas Did Not Properly Obligate Its NSP Funds, Topeka, KS, 		
			              08/20/2010. Better use: $10,145,313.
2010-KC-1007		   The Missouri Housing Development Commission Did Not Always Obtain 		
			              Required Documents and Properly Report on the Tax Credit Assistance 			
			              Program Funded Under the Recovery Act, Kansas City, MO, 09/10/2010.
2010-KC-1008		   The City of East St. Louis Awarded Block Grant Program Funds to Recipients 		
			              Without Adequately Verifying Their Eligibility, East St. Louis, IL, 09/28/2010. 		
			              Questioned: $1,228,994; Unsupported: $1,228,994.
2010-LA-1010		   Arizona Department of Housing’s Administration of Its Recovery Act 			
			              Grant: Homelessness Prevention and Rapid Re-Housing Program, 			
			              Phoenix, AZ, 05/07/2010. Questioned: $75,543; Unsupported: $75,543.
2010-LA-1011		   Sacramento Housing and Redevelopment Agency Did Not Always Administer 		
			              the NSP in Accordance With HUD Rules and Regulations, Sacramento, CA, 		
			              06/02/2010. Questioned: $1,114,587; Better use: $5,317,180.
2010-LA-1012		   Clark County Needs To Revise Its Written Procedures and Developer Agreements 	
			              To Ensure Compliance With NSP Requirements, Las Vegas, NV, 06/09/2010.
2010-LA-1013		   The City of Montebello Did Not Comply With HOME Requirements, Montebello, 	
			              CA, 07/08/2010. Questioned: $1,300,000.
2010-NY-1012		   The City of Jersey City’s CDBG Funds Used for a Float Loan Did Not Comply 		
			              With Applicable Regulations, Jersey City, NJ, 07/01/2010. Questioned: $3,572,517; 	
			              Unsupported: $72,517.
2010-PH-1008		   Sasha Bruce Youthwork, Incorporated, Did Not Support More Than $1.9 Million 		
			              in Expenditures, Washington, DC, 05/11/2010. Questioned: $1,945,050; 			
			              Unsupported: $1,945,050; Better use: $686,342.
2010-SE-1001		   Washington State Did Not Disburse Its Homelessness Prevention and Rapid 		
			              Re-Housing Funds in Accordance With Program Requirements, Olympia, 			
			              WA, 08/31/2010. Questioned: $177,254; Unsupported: $166,785.
Housing (10 Reports)
2010-AT-1005		   Lendamerica Home Loans Did Not Follow HUD Requirements in Originating 		
			              Loans and Implementing Its Quality Control Program, Coral Gables, FL, 			
			              05/20/2010. Better use: $1,098,683.



                                                                       Appendix 2 - Audit Reports Issued
146
        2010-BO-1007		         New England Regional Mortgage Corporation Generally Complied With 			
        			                    HUD Requirements for Loan Origination but Did Not Properly Underwrite 		
        			                    One Loan, Salem, NH, 08/03/2010. Better use: $221,590.
        2010-BO-1008		         The Avesta Housing Management Corporation Did Not Properly Follow HUD 		
        			                    Rules and Regulations, Portland, ME, 09/03/2010. Questioned: $5,060,513; 		
        			                    Unsupported: $5,060,513.
        2010-CH-1009		         National Home Management Solutions Did Not Fully Comply With 			
        			                    HUD’s Requirements for the Management and Marketing of HUD Real 			
        			                    Estate-Owned Properties, Independence, OH, 07/22/2010. Questioned: $36,455; 		
        			                    Unsupported: $36,455.
        2010-CH-1012		         Michaelson, Connor, and Boul Did Not Provide Adequate Oversight of Closings on 	
        			                    the Sales of HUD Real Estate-Owned Homes, Southfield, MI, 09/15/2010. 		
        			                    Questioned: $47,947; Unsupported: $47,947.
        2010-CH-1014		         Consumer Credit Counseling Service of the Midwest Did Not Materially 			
        			                    Comply With HUD’s Requirements and Its Grant Agreement Regarding 			
        			                    Housing Counseling, Columbus, OH, 09/30/2010. Questioned: $10,574; 			
        			                    Unsupported: $1,700; Better use: $126,310.
        2010-DE-1004		         Access National Mortgage Corporation Did Not Follow HUD Requirements 		
        			                    When Submitting Two of Its Loans for Endorsement, Denver, CO, 07/02/2010. 		
        			                    Better use: $241,464.
        2010-KC-1005		         National Bank of Kansas City Did Not Follow HUD’s Underwriting and 			
        			                    Quality Control Requirements, Overland Park, KS, 06/04/2010. Better use: $399,919.
        2010-LA-1014		         The Retreat at Santa Rita Springs Did Not Comply With HUD Rules and 			
        			                    Regulations and Other Federal Requirements, Green Valley, AZ, 				
        			                    08/02/2010. Questioned: $30,216; Unsupported: $2,817.
        2010-PH-1010		         Prospect Mortgage, LLC, Generally Complied With HUD Requirements 			
        			                    Regarding FHA-Insured Single-Family Loans, Fairfax, VA, 06/22/2010. 			
        			                    Better use: $116,014.
        Public and Indian Housing (31 Reports)
        2010-AT-1003		         The Housing Authority of Whitesburg Mismanaged Its Operations, Whitesburg, 		
        			                    KY, 04/28/2010. Questioned: $1,150,665; Unsupported: $1,148,415.
        2010-AT-1007		         The Housing Authority, City of Wilson, Lacked the Capacity To Effectively 		
        			                    Administer Recovery Act Funds, Wilson, NC, 07/27/2010. Questioned: $2,462,249; 	
        			                    Unsupported: $2,422,039; Better use: $7,820,272.
        2010-AT-1009		         The Puerto Rico Public Housing Administration Needs To Improve Its 			
        			                    Procurement Procedures, San Juan, PR, 08/13/2010. Questioned: $13,389,382; 		
        			                    Unsupported: $9,784,157.
        2010-AT-1010		         The Housing Authority of DeKalb County Improperly Used Its Net Restricted 		
        			                    Assets, Decatur, GA, 08/23/2010. Questioned: $2,583,244.
        2010-BO-1005		         The Hartford Housing Authority’s Plan To Replace Boilers Did Not Meet 			
        			                    Recovery Act and Federal Efficiency Requirements, Hartford, CT, 07/21/2010. 		
        			                    Better use: $1,092,325.




      Appendix 2 - Audit Reports Issued
                                                                                                          147
2010-BO-1006		   Waltham Housing Authority Needs To Improve Controls Over Its Interprogram 		
			              Fund Transactions, Procurement, and Travel for Its Housing Choice 			
			              Voucher and Low-Income Public Housing Programs, Waltham, MA, 07/27/2010. 	
			              Questioned: $4,547,463; Unsupported: $4,519,535.
2010-BO-1009		   The Manchester Housing Authority Obligated its Recovery Act Grant Funds in 		
			              a Timely Manner for Eligible Projects and Properly Supported Expenditures, 		
			              Manchester, CT, 09/21/2010.
2010-BO-1010		   The Boston Housing Authority Generally Administered Its Capital Fund 			
			              Recovery Grant as Required, Boston, MA, 09/27/2010.
2010-CH-1005		   Housing Authority of the City of Terre Haute Did Not Effectively Operate Its 		
			              Section 8 Housing Quality Standards Inspection Program, Terre Haute, 			
			              IN, 04/09/2010. Questioned: $11,974; Better use: $341,088.
2010-CH-1007		   The Michigan State Housing Development Authority Needs To Improve Its 		
			              Controls Over Section 8 Project-Based Housing Assistance Payments, Lansing, 		
			              MI, 05/14/2010. Questioned: $873,213; Unsupported: $754,574; Better use: $90,527.
2010-CH-1008		   The DuPage Housing Authority Inappropriately Administered Its Section 8 		
			              Project-Based Voucher Program, Wheaton, IL, 06/15/2010. Questioned: $4,532,241; 	
			              Unsupported: $3,924,954; Better use: $191,864.
2010-CH-1010		   The Housing Authority of the City of Terre Haute Substantially Mismanaged Its 		
			              Capital Fund Program and Lacked Capacity To Adequately Administer Its 		
			              Recovery Act Funds, Terre Haute, IN, 07/27/2010. Questioned: $4,878,428; 		
			              Unsupported: $3,837,268.
2010-CH-1013		   The Housing Authority of the City of Terre Haute Did Not Materially Operate 		
			              Its Programs According to HUD’s Requirements and Did Not Effectively 			
			              Operate Its Section 8 Housing Choice Voucher Program, Terre Haute, IN, 			
			              09/29/2010. Questioned: $195,318; Unsupported: $8,893; Better use: $15,825.
2010-CH-1015		   The Lake Metropolitan Housing Authority Needs To Improve Its Administration 		
			              of Its Section 8 Housing Choice Voucher Program, Painesville, OH, 09/30/2010. 		
			              Questioned: $132,824; Unsupported: $64,264; Better use: $19,573.
2010-DE-1005		   The Housing Authority of the City of Pueblo Generally Followed Recovery Act 		
			              Rules and Regulations When Obligating and Expending Its Recovery Act Capital 	
			              Funds but Did Not Accurately Report Recovery Act-Funded Jobs, 	Pueblo, 		
			              CO, 09/17/2010.
2010-DE-1007		   The Housing Authority of the County of Salt Lake Properly Expended Its 			
			              Recovery Act Capital Grant Funds But Did Not Properly Obligate All of 			
			              the Funds, Salt Lake City, UT, 09/24/2010. Questioned: $560,726.
2010-FW-1003		   The Housing Authority of the Sac and Fox Nation of Oklahoma Did Not 			
			              Demonstrate the Administrative Capacity To Appropriately Expend Its Recovery 		
			              Act Funding, Shawnee, OK, 05/13/2010. Better use: $850.
2010-FW-1004		   The Georgetown Housing Authority Used $195,855 for Ineligible and 			
			              Unsupported Expenditures, Georgetown, TX, 06/02/2010. Questioned: $186,387; 		
			              Unsupported: $29,310; Better use: $9,468.
2010-FW-1006		   Housing Authority of the City of Odessa Generally Complied With HUD 			
			              Regulations and Guidance in Its Transactions With Its Related Entity and Its 		
			              Administration of Its Section 8 Programs, Odessa, TX, 08/23/2010.




                                                                      Appendix 2 - Audit Reports Issued
148
        2010-KC-1009		           The Omaha Housing Authority Did Not Comply With Recovery Act Requirements 	
        			                      When Reporting on Recovery Act Capital Funds, Omaha, NE, 09/30/2010.
        2010-LA-1015		           The Housing Authority of the City and County of San Francisco Did Not 			
        			                      Effectively Operate Its Housing Choice Voucher Housing Quality Standards 		
        			                      Inspections, San Francisco, CA, 08/31/2010. Questioned: $318,154; Unsupported: 	
        			                      $39,018; Better use: $11,420,400.
        2010-LA-1016		           The Compton Housing Authority Was Not Fully Reimbursed for Housing 		
        			                      Assistance Payments for Portability Tenants, Compton, CA, 09/28/2010. Better 		
        			                      Use: $245,654.
        2010-NY-1010		           New Rochelle Municipal Housing Authority Had Control Weaknesses in Its 		
        			                      Low-Rent Housing Program, New Rochelle, NY, 04/07/2010. Questioned: $95,607; 	
        			                      Unsupported: $57,252; Better use: $114,948.
        2010-NY-1011		           New Rochelle Municipal Housing Authority Had Weaknesses in Its 			
        			                      Self-Sufficiency Grant Programs, New Rochelle, NY, 04/07/2010. Questioned: 		
        			                      $320,617; Unsupported: $100,637; Better use: $36,570.
        2010-PH-1006		           Audit of the Housing Authority of the City of Pottsville’s Recovery Act Capital 		
        			                      Fund Grant, Pottsville, PA, 04/13/2010.
        2010-PH-1007		           The Elkton Housing Authority Did Not Comply With HUD Regulations in 		
        			                      Obligating and Disbursing Recovery Act Capital Funds, Elkton, MD, 05/03/2010. 	
        			                      Questioned: $286,947; Unsupported: $286,947.
        2010-PH-1009		           The Harrisburg Housing Authority Generally Administered Its Recovery Act 		
        			                      Capital Fund Grant in Accordance With Applicable Requirements, Harrisburg, PA, 	
        			                      05/13/2010.
        2010-PH-1011		           The Philadelphia Housing Authority Did Not Ensure That Its Section 8 Housing 		
        			                      Choice Voucher Program Units Met Housing Quality Standards, Philadelphia, PA, 	
        			                      07/08/2010. Questioned: $70,932; Better use: $18,625,950.
        2010-PH-1012		           The Harrisburg Housing Authority Did Not Procure Goods and Services in 		
        			                      Accordance With HUD Regulations and Its Procurement Policy, Harrisburg, PA, 		
        			                      07/27/2010. Questioned: $1,736,962; Unsupported: $1,736,962.
        2010-PH-1013		           The Housing Authority of Baltimore City Generally Administered Its Recovery 		
        			                      Act Capital Fund Grants in Accordance With Applicable Requirements, Baltimore, 	
        			                      MD, 09/20/2010. Better use: $19,263.
        2010-SE-1002		           Alaska Housing Finance Corporation Needs To Improve Its Quality Control Plan, 	
        			                      Anchorage, AK, 09/27/2010.

        Audit-Related Memorandums2
        Community Planning and Development (2 Reports)
        2010-AT-1806		           The City of Augusta Demonstrated the Capacity To Obligate Its NSP1 Funds, 		
        			                      Augusta, GA, 09/24/2010.
        2010-FW-1804		           The City of Oklahoma City Had the Capacity To Manage Recovery Acts Funding, 	
        			                      Oklahoma City, OK, 06/03/2010.


        2
         The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted
        government auditing standards, to close out assignments with no findings and recommendations, to respond to requests for
        information, to report on the results of a survey, or to report the results of civil actions or settlements.



      Appendix 2 - Audit Reports Issued
                                                                                                                     149
General Counsel (2 Reports)3
2010-CF-1801		               Final Civil Action, Anchor Mortgage Corporation, Loan Origination Fraud - 		
			                          Violations of the False Claims Act, Chicago, IL, 09/30/2010. Questioned: 			
			                          $2,992,941.
Housing (17 Reports)
2010-CH-1806		               1st Advantage Mortgage, LLC, Did Not Properly Underwrite a Selection of FHA 		
			                          Loans, Lombard, IL, 07/15/2010. Questioned: $325,452.
2010-CH-1807		               Birmingham Bancorp Mortgage Corporation Did Not Properly Underwrite a 		
			                          Selection of FHA Loans, West Bloomfield, MI, 07/21/2010. Questioned: $643,340.
2010-CH-1808		               Mac-Clair Mortgage Corporation Did Not Properly Underwrite a Selection of 		
			                          FHA Loans, Flint, MI, 07/22/2010. Questioned: $562,551.
2010-CH-1809		               Columbus Properties Limited Partnership, Property Renovations, Columbus, OH, 	
			                          08/03/2010.
2010-CH-1810		               Dell Franklin Financial, LLC, Did Not Properly Underwrite a Selection of FHA 		
			                          Loans, Millersville, MD, 07/30/2010. Questioned: $542,330.
2010-CH-1811		               D&R Mortgage Corporation Did Not Properly Underwrite a Selection of FHA 		
			                          Loans, Farmington Hills, MI, 08/04/2010. Questioned: $936,572.
2010-FW-1805		               Financial Freedom Senior Funding Corporation Improperly Funded One 			
			                          Ineligible HECM Loan, Irvine, CA, 09/17/2010. Questioned: $74,906.
2010-LA-1803		               Alacrity Lending Company Did Not Properly Underwrite a Selection of FHA 		
			                          Loans, Southlake, TX, 07/26/2010. Questioned: $1,599,529.
2010-LA-1804		               Assurity Financial Services, LLC, Did Not Properly Underwrite a Selection of 		
			                          FHA Loans, Englewood, CO, 08/05/2010. Questioned: $1,180,997.
2010-LA-1805		               Americare Investment Group Did Not Properly Underwrite a Selection of FHA 		
			                          Loans, Arlington, TX, 08/06/2010. Questioned: $741,498.
2010-LA-1806		               American Sterling Bank Did Not Properly Underwrite a Selection of FHA Loans, 		
			                          Sugar Creek, MO, 08/24/2010. Questioned: $492,239.
2010-LA-1807		               Alethes, LLC, Did Not Properly Underwrite a Selection of FHA Loans, Lakeway, 		
			                          TX, 09/08/2010. Questioned: $1,056,447.
2010-NY-1805		               Webster Bank Did Not Properly Underwrite a Selection of FHA Loans, Cheshire, 		
			                          CT, 09/01/2010. Questioned: $516,990.
2010-NY-1806		               Security Atlantic Mortgage Company, Inc., Did Not Properly Underwrite a 		
			                          Selection of FHA Loans, Edison, NJ, 09/22/2010. Questioned: $553,730.
2010-NY-1807		               First Tennessee Bank, N.A., Did Not Properly Underwrite a Selection of FHA 		
			                          Loans, Memphis, TN, 09/27/2010. Questioned: $435,574.
2010-NY-1808		               Pine State Mortgage Corporation Did Not Properly Underwrite a Selection of FHA 	
			                          Loans, Atlanta, GA, 09/29/2010. Questioned: $1,095,202.
2010-NY-1809		               Sterling National Mortgage Company, Inc., Did Not Properly Underwrite a 		
			                          Selection of FHA Loans, Great Neck, NY, 09/30/2010. Questioned: $508,823.




3
    Quality control review not included in listing.



                                                                                 Appendix 2 - Audit Reports Issued
150
        Public and Indian Housing (5 Reports)
        2010-AT-1805		         The Wilmington Housing Authority Misused Federal Funds in the Purchase of 		
        			                    Two Properties, Wilmington, NC, 05/19/2010. Questioned: $267,914.
        2010-CH-1805		         The Benton Harbor Housing Commission Had Sufficient Capacity To Adequately 	
        			                    Administer Its Recovery Act Funding, Benton Harbor, MI, 04/14/2010.
        2010-DE-1801		         The Fort Belknap Indian Community Had Weaknesses That Could Significantly 		
        			                    Affect Its Capacity To Administer Its Recovery Act Funding, Harlem, MT, 			
        			                    04/23/2010.
        2010-NY-1804		         The Rochester Housing Authority Had Financial Control Weaknesses That Could 	
        			                    Affect Its Capacity to Administer Recovery Act Funds, Rochester, NY, 06/04/2010. 	
        			                    Questioned: $557,242; Unsupported: $177,289; Better use: $6,075.
        2010-SE-1801		         Seattle Housing Authority’s Capacity To Administer Recovery Act Funding Under 	
        			                    the Capital Fund Program, Seattle, WA, 04/21/2010.

                                                         ppp




      Appendix 2 - Audit Reports Issued
Appendix 3
  Tables
152
                                                  Table A
                               Audit reports issued before the start of the period
                            with no management decision at September 30, 2010
                      *Significant audit reports described in previous semiannual reports

                      Report number                  Reason for lack of           Issue date
                         and title                  management decision

          * 2009-KC-0001 HUD Subsidized an         See chapter 10, page 132.     08/14/2009
          Estimated 2,094 to 3,046 Households
          That Included Lifetime Registered Sex
          Offenders

          * 2009-AT-0001 HUD Lacked Adequate       See chapter 10, page 133.     09/28/2009
          Controls To Ensure the Timely
          Commitment and Expenditure of HOME
          Funds




      Appendix 3 - Tables
                                                                                                          153
                                       Table B
         Significant audit reports on which final action had not been completed
                         within 12 months after the date of the
                               Inspector General’s report

  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2002-AT-1002   Housing Authority of the City of Tupelo,   07/03/2002   10/31/2002    07/01/2015
               Housing Programs Operations, Tupelo,
               MS
               	
2002-KC-0002   Nationwide Survey of HUD’s Office          07/31/2002   11/22/2002     08/30/2011
               of Housing Section 232 Nursing Home
               Program

2004-DP-0002   Application Control Review of the Tenant   02/25/2004   07/14/2004     12/31/2011
               Rental Assistance Certification System

2004-PH-1008   Safe Haven Outreach Ministry, 	            06/03/2004   08/31/2004     11/30/2010
               Incorporated, Washington, DC

2004-PH-1012   Mortgage America Bankers, LLC,             09/10/2004   01/06/2005       Note 2
               Nonsupervised Loan Correspondent,
               Kensington, MD

2005-AT-1004   Housing Authority of the City of Durham,   11/19/2004   03/15/2005    03/15/2015
               NC

2005-CH-1002 Washington Mutual Bank, Underwriting    11/29/2004        01/28/2005       Note 2
             of FHA-Insured Loans, Downers Grove, IL

2005-NY-1005   The Housing Authority of the City          05/26/2005   09/23/2005     10/11/2011
               of Newark Bond Financing Activities
               and Section 8 Housing Choice Voucher
               Administrative Fee Reserves, Newark, NJ

2005-AT-1013   Corporacion Para el Fomento Economico      09/15/2005   01/11/2006       Note 1
               de la Ciudad Capital Did Not Administer
               Its Independent Capital Fund in
               Accordance with HUD Requirements, San
               Juan, PR

2006-CH-0001 Real Estate Assessment Center’s Physical     11/30/2005   01/10/2006     12/31/2011
             Condition Assessment Was Compromised

2006-NY-1003   The Housing Authority of the City of       02/14/2006   08/17/2006    09/13/2012
               Newark’s Controls Over Bond Financing
               Activities, Obtaining Supporting
               Documentation, and Legal Settlements
               Require Improvement, Newark, NJ



                                                                                    Appendix 3 - Tables
154
            Report                        Report title                    Issue       Decision      Final
            number                                                         date        date         action

         2006-BO-1009       The Rhode Island Housing and Mortgage       07/06/2006   10/24/2006   11/01/2010
                            Finance Corporation Incorrectly Made
                            More Than $1.8 Million in Section 8
                            Subsidy Payments and Released More
                            Than $900,000 from Restricted Residual
                            Receipts Accounts, Providence, RI

         2006-SE-0002       The Office of Single Family Housing         08/16/2006   03/30/2007     Note 1
                            Expanded Late Endorsement Eligibility
                            Without Studying Associated Risks

         2006-KC-1013       The Columbus Housing Authority         08/30/2006        10/17/2006   11/30/2012
                            Improperly Expended and Encumbered Its
                            Public Housing Funds, Columbus, NE

         2006-DP-0802       Assessment of HUD’s Compliance with         09/21/2006   11/24/2006     Note 2
                            OMB Memorandum M-06-16, “Protection
                            of Sensitive Agency Information”

         2007-LA-0001       Tax Credit Project Owners Are Allowed       11/08/2006   07/05/2007   10/01/2010
                            To Charge Higher Rents for Tenant-Based
                            Section 8 Voucher Households than Non-
                            voucher Households

         2007-DP-0003       Review of HUD’s Procurement Systems         01/25/2007   05/25/2007     Note 2

         2007-KC-0002       HUD Can Improve Its Use of Residual         01/29/2007   01/29/2007   01/31/2011
                            Receipts To Reduce Housing Assistance
                            Payments

         2007-KC-0003       HUD Did Not Recapture Excess Funds          04/30/2007   08/27/2007     Note 2
                            from Assigned Bond-Financed Projects

         2007-BO-0002       HUD Did Not Process Multifamily             05/21/2007   09/07/2007     Note 2
                            Accelerated Processing Applications
                            within Established Processing Goals and
                            the Multifamily Accelerated Processing
                            Guide Is Outdated

         2007-SE-0001       HUD’s Oversight of the Section 8 Project-   06/07/2007   10/05/2007     Note 1
                            Based Contract

         2007-FW-1011       Capmark Finance, Inc., Misrepresented       07/02/2007   10/23/2007   11/30/2010
                            Asbury Square Apartments’ Financial and
                            Physical Condition When Underwriting
                            the $9.098 Million Loan, Tulsa, OK




      Appendix 3 - Tables
                                                                                                           155
  Report                     Report title                    Issue       Decision        Final
  number                                                      date        date           action

2007-AT-1010   The Cathedral Foundation of Jacksonville    08/14/2007   12/03/2007       Note 2
               Used More Than $2.65 Million in Project
               Funds for Questioned Costs, Jacksonville,
               FL

2007-DP-0006   Review of HUD’s Personal Identity           08/28/2007   12/20/2007       Note 2
               Verification and Privacy Program


2007-AT-0001   HUD Needs To Improve Controls Over Its      09/19/2007   09/19/2007       Note 2
               Contract Administration Processes

2007-KC-0801   Lenders Submitted Title II Manufactured     09/24/2007   03/11/2008       Note 2
               Housing Loans for Endorsement without
               the Required Foundation Certifications

2007-AT-1011   The Wilmington Housing Authority            09/26/2007   01/24/2008     01/01/2011
               Did Not Follow HUD Requirements for
               Its Nonprofit Development Activities,
               Wilmington, NC

2007-CH-1017 The City of Cincinnati Lacked Adequate        09/30/2007   01/28/2008     09/30/2011
             Controls over Its HOME Investment
             Partnerships Program, Cincinnati, OH

2008-LA-0001   The Los Angeles Multifamily Hub Did Not 11/05/2007       03/03/2008       Note 1
               Properly Monitor Its Performance-Based
               Contract Administrator, Los Angeles
               LOMOD

2008-LA-1003   Home for Life Foundation Did Not        12/18/2007       02/26/2008    04/01/2013
               Properly Administer Its Supportive
               Housing Program Grants, Los Angeles, CA

2008-AT-1004   The City of West Palm Beach Did Not         01/09/2008   05/05/2008    05/01/2012
               Properly Administer Its CDBG Program,
               West Palm Beach, FL
               	
2008-AT-1005   The City of Fort Lauderdale Did Not         01/11/2008   05/05/2008    05/01/2012
               Properly Administer Its CDBG Program,
               Fort Lauderdale, FL

2008-NY-1003   The City of New York’s Department of        01/23/2008   05/21/2008       Note 2
               Housing Preservation and Development
               Had Administrative Weaknesses in Its
               HOME Program, New York, NY




                                                                                     Appendix 3 - Tables
156
            Report                        Report title                  Issue       Decision      Final
            number                                                       date        date         action

         2008-AO-1002 State of Louisiana, Road Home Program,          01/30/2008   05/12/2008     Note 1
                      Funded 418 Grants Coded Ineligible or
                      Lacking an Eligibility Determination,
                      Baton Rouge, LA

         2008-KC-0002       HUD Did Not Ensure That Housing           03/24/2008   07/22/2008   10/01/2011
                            Authorities Properly Administered the
                            Community Service and Self-Sufficiency
                            Requirement

         2008-AO-0801 Review of Duplication of Participants           03/28/2008   08/01/2008     Note 2
                      Benefits under HUD’s Katrina Disaster
                      Housing Assistance Program and Disaster
                      Voucher Program

         2008-AT-0002       The Miami Dade Housing Agency Did         04/24/2008   08/22/2008     Note 2
                            Not Maintain Adequate Controls over Its
                            Capital Fund Program

         2008-AT-0003       HUD Lacked Adequate Controls over the     05/14/2008   09/10/2008   09/30/2012
                            Physical Condition of Section 8 Voucher
                            Program Housing Stock

         2008-BO-0002       Maintenance of Effort Requirements Are    05/21/2008   10/02/2008     Note 2
                            Needed To Ensure Intended Use of CDBG
                            Program Funds

         2008-CH-1010 The City of Cincinnati Lacked Adequate          06/11/2008   10/09/2008   07/13/2011
                      Controls over Its System Reporting and
                      Rental Rehabilitation Projects for Its
                      HOME Investment Partnerships Program,
                      Cincinnati, OH

         2008-DP-0004       Review of Selected FHA Major              06/12/2008   10/08/2008     Note 2
                            Applications’ Information Security
                            Controls

         2008-LA-1012       The Housing Authority of the City of      07/01/2008   10/14/2008   12/31/2013
                            Calexico Did Not Comply with Public
                            Housing Program Rules and Regulations,
                            Calexico, CA

         2008-FW-0001       HUD’s CDBG Set-Aside for Colonias Was     07/29/2008   11/24/2008   12/31/2010
                            Not Used for Its Intended Purposes

         2008-AO-1005 State of Louisiana, Road Home Program,          08/07/2008   01/13/2009     Note 2
                      Did Not Ensure That All Additional
                      Compensation Grant Applicants Were
                      Eligible, Baton Rouge, LA


      Appendix 3 - Tables
                                                                                                          157
  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2008-CH-1014 The City of Cincinnati Did Not        09/26/2008          01/22/2009     01/31/2011
             Adequately Manage Its HOME Investment
             Partnerships Program, Cincinnati, OH

2009-CH-1001 New Phoenix Assistance Center                10/24/2008   02/20/2009       Note 2
             Substantially Failed To Manage Its
             Supportive Housing Program Grant,
             Chicago, IL

2009-BO-1002   Orchard Court Multifamily Project Was      11/06/2008   01/16/2009     02/25/2011
               Not Properly Managed in Accordance
               with HUD Regulations, Bath, ME

2009-FO-0002   Audit of the FHA’s Financial Statements    11/07/2008   03/13/2009     04/15/2011
               for Fiscal Years 2008 and 2007

2009-FO-0003   Additional Details To Supplement Our       11/14/2008   03/19/2009     12/31/2011
               Report on HUD’s Fiscal Years 2008 and
               2007 Financial Statements

2009-FW-1002   The Owner of Ebony Lake Healthcare         11/25/2008   03/25/2009     01/31/2011
               Center Violated Its Regulatory Agreement
               with HUD, Brownsville, TX

2009-NY-1003   Lower Manhattan Development                12/04/2008   05/06/2009     01/12/2011
               Corporation CDBG Disaster Recovery
               Assistance Funds, New York, NY

2009-DP-0003   Review of the Centralized HUD Account      01/09/2009   04/30/2009       Note 2
               Management Process

2009-CH-1002 The Indianapolis Housing Agency Failed       01/23/2009   05/08/2009     11/30/2010
             to Operate Its Housing Choice Voucher
             Program According to HUD’s and Its
             Requirements, Indianapolis, IN

2009-NY-1006   The City of Rome Did Not Always            01/26/2009   05/27/2009       Note 2
               Administer Its CDBG Program in
               Accordance with HUD Requirements,
               Rome, NY

2009-AO-0002 HUD’s Receivership Did Not Ensure That       01/29/2009   08/21/2009       Note 2
             the Housing Authority of New Orleans
             Properly Accounted for Its Fungibility
             Funding, Monitored and Paid Two of
             Its Contractors, and Paid Its Accounts
             Payable Disbursements




                                                                                    Appendix 3 - Tables
158
            Report                        Report title                   Issue       Decision      Final
            number                                                        date        date         action

         2009-FW-1005       Allied Home Mortgage Capital               02/10/2009   06/10/2009   10/18/2010
                            Corporation Did Not Fully Follow HUD’s
                            Branch Office Requirements, Houston, TX

         2009-DE-1001       The Adams County Office of Community       02/11/2009   04/29/2009     Note 2
                            and Development Did Not Comply with
                            HOME Investment Partnerships Program
                            Regulations, Denver, CO

         2009-NY-1008       The City of Newburgh Did Not Always        02/24/2009   06/11/2009     Note 2
                            Administer Its CDBG Program in
                            Accordance with HUD Requirements,
                            Newburgh, NY

         2009-AT-1004       The City of Durham Did Not Adequately      03/31/2009   06/09/2009     Note 2
                            Administer Its CDBG Program, Durham,
                            NC

         2009-AO-0003 HUD Could Not Demonstrate That Its               04/08/2009   08/21/2009   11/30/2010
                      Receivership Improved the Housing
                      Authority of New Orleans’ Performance

         2009-AO-1001 State of Louisiana, Road Home Program,           05/05/2009   09/16/2009     Note 2
                      Did Not Ensure That Road Home
                      Employees Were Eligible To Receive
                      Additional Compensation Grants, Baton
                      Rouge, LA

         2009-AO-1002 State of Louisiana, Road Home                    05/05/2009   09/16/2009     Note 2
                      Program, Did Not Ensure That Multiple
                      Disbursements to a Single Damaged
                      Residence Address Were Eligible, Baton
                      Rouge, LA

         2009-CH-1008 The City of East Cleveland Did Not    05/11/2009              09/08/2009   09/08/2011
                      Adequately Manage Its HOME Investment
                      Partnerships and CDBG Programs, East
                      Cleveland, OH

         2009-NY-1012       The City of Rome Did Not Administer        05/20/2009   09/23/2009     Note 2
                            Its Economic Development Activity in
                            Accordance with HUD Requirements,
                            Rome, NY

         2009-FW-0801       Tenant Confirmation for Disaster Housing   05/28/2009   09/25/2009   10/01/2011
                            Assistance Program for March and April
                            2009




      Appendix 3 - Tables
                                                                                                          159
  Report                     Report title                  Issue        Decision        Final
  number                                                    date         date           action

2009-DP-0004   FY 2008 Review of Information Systems     05/29/2009    09/25/2009    10/31/2010
               Controls in Support of the Financial
               Statements Audit

2009-DP-0005   Review of Implementation of Security      06/11/2009    11/17/2009    12/31/2014
               Controls over HUD’s Business Partners

2009-AT-1008   Miami-Dade County Did Not Properly        06/19/2009    09/25/2009       Note 2
               Administer Its CDBG Program, Miami, FL

2009-PH-0801   Corrective Action Verification Review,    06/19/2009    07/09/2009       Note 2
               Upfront Grant for Ridgecrest Heights
               Apartments, CEMI-Ridgecrest, Inc.,
               Washington, DC, Audit Memorandum
               98-AO-219-1804

2009-FW-0001   HUD’s Disaster Recovery Grant Reporting 06/25/2009      10/23/2009     03/25/2011
               System Can Collect the Basic Information
               Needed To Monitor the Neighborhood
               Stabilization Program

2009-LA-1011   City of Los Angeles Housing Department    07/01/2009    10/21/2009     09/01/2011
               Did Not Ensure That the Buckingham
               Place Project Met HOME Program
               Requirements, Los Angeles, CA

2009-FW-1012   Financial Freedom Senior Funding           07/14/2009   11/20/2009       Note 2
               Corporation Did Not Fully Follow HUD’s
               Reverse Mortgage Requirements for Loans
               in the San Antonio, Texas Area, Irvine, CA

2009-AT-1009   The Housing Authority of the City of      07/20/2009    11/16/2009     06/30/2011
               Newnan Inappropriately Encumbered
               Assets and Advanced Funds To Support
               Its Nonprofit Organization, Newnan, GA

2009-KC-1008   Grace Hill Used Neighborhood Initiative   07/24/2009    10/13/2009       Note 2
               Grant Funds To Pay Unsupported Payroll
               Expenses and Duplicated Computer
               Support Costs, St. Louis, MO

2009-CH-1011   The Housing Authority of the City of      07/31/2009    11/24/2009    01/01/2030
               Terre Haute Failed To Follow Federal
               Requirements and Its Employment
               Contract Regarding Nonprofit
               Development Activities, Terre Haute, IN




                                                                                    Appendix 3 - Tables
160
            Report                        Report title                   Issue       Decision      Final
            number                                                        date        date         action

         2009-NY-1014       The Lackawanna Municipal Housing           07/31/2009   11/06/2009   10/08/2010
                            Authority Needs To Improve Controls
                            and Operational Procedures Regarding Its
                            Capital Fund Program, Lackawanna, NY

         2009-BO-1010       The City of New London Housing             08/07/2009   03/31/2010   03/31/2011
                            Authority Lacks the Capacity to Properly
                            Administer Its Capital Fund Program and
                            Recovery Act Funds, New London, CT

         2009-KC-0001       HUD Subsidized an Estimated 2,094 to       08/14/2009   07/23/2010     Note 3
                            3,046 Households That Included Lifetime
                            Registered Sex Offenders

         2009-FW-1015       The Housing Authority of Travis County    08/17/2009    12/03/2009   10/27/2010
                            Could Not Adequately Account For or
                            Support Its Use of Federal Program Funds,
                            Austin, TX

         2009-FW-1801       Travis County Housing Authority Lacks      08/17/2009   10/27/2009   10/15/2010
                            Capacity To Administer ARRA Public
                            Housing Capital Funds, Austin, TX

         2009-AT-1011       The City of Miami Did Not Properly         08/18/2009   12/15/2009   12/15/2010
                            Administer Its CDBG Program, Miami, FL

         2009-BO-1011       The City of Boston’s Department of         08/19/2009   09/29/2010   12/17/2010
                            Neighborhood Development in Boston,
                            MA, Did Not Administer Its HOME
                            Program in Compliance with HUD
                            Requirements

         2009-CH-0002 The Office of Affordable Housing       08/28/2009             12/26/2009   03/31/2011
                      Programs’ Oversight of HOME Investment
                      Partnerships Program Income Was
                      Inadequate

         2009-LA-1018       DHI Mortgage Company, LTD’s Scottsdale 09/10/2009       01/08/2010   01/08/2011
                            and Tucson, AZ, Branches Did Not Always
                            Follow FHA-Insured Loan Underwriting
                            and Quality Control Requirements

         2009-LA-1019       The Owner of Park Lee Apartments           09/15/2009   01/13/2010   07/13/2011
                            Violated Its Regulatory Agreement with
                            HUD, Phoenix, AZ

         2009-CH-1013 The Housing Authority of the City of             09/17/2009   01/14/2010   01/07/2011
                      Milwaukee Did Not Adequately Maintain
                      a Separate Identity for Commingled
                      Funds, Milwaukee, WI

      Appendix 3 - Tables
                                                                                                         161
  Report                     Report title                  Issue       Decision        Final
  number                                                    date        date           action

2009-CH-1802 Cook County Needs To Improve Its          09/17/2009     01/15/2010    10/31/2010
             Capacity To Effectively and Efficiently
             Administer Its Neighborhood Stabilization
             Program, Chicago, IL

2009-DE-1005   Adams County Did Not Have Adequate        09/17/2009   01/15/2010     01/07/2011
               Controls over Its Block Grant Funds,
               Westminster, CO

2009-AO-1003 Louisiana Land Trust, As the State of       09/23/2009   01/26/2010       Note 2
             Louisiana’s Subrecipient, Did Not Always
             Ensure That Properties Were Properly
             Maintained, Baton Rouge, LA

2009-DE-1801   Adams County, Colorado, Had               09/24/2009   01/14/2010     01/11/2011
               Weaknesses That Could Significantly
               Affect Its Capacity To Administer Its
               Recovery Act Funding, Commerce City,
               CO

2009-LA-1020   The Housing Authority of the City of      09/24/2009   12/29/2009    12/29/2010
               Richmond Did Not Follow Procurement
               Requirements and Had Internal Control
               Weaknesses, Richmond, CA

2009-AT-1012   The Municipality of Río Grande Needs      09/25/2009   01/22/2010     01/27/2011
               To Improve Administration of Its CDBG
               Program and Its Recovery Act Funds, Rio
               Grande, PR

2009-AT-0001   HUD Lacked Adequate Controls To           09/28/2009   03/03/2010       Note 3
               Ensure the Timely Commitment and
               Expenditure of HOME funds

2009-AT-1013   The City of Atlanta Entered Incorrect     09/28/2009   11/05/2009     03/25/2011
               Commitments into HUD’s Integrated
               Disbursement and Information System for
               its HOME Program, Atlanta, GA

2009-AT-1014   The Housing Authority of the City         09/29/2009   12/01/2009    12/01/2010
               of Winston-Salem Needs To Improve
               Financial Controls, Winston-Salem, NC

2009-CH-1017 The Housing Authority of the City of        09/29/2009   01/22/2010    12/30/2010
             Terre Haute Failed To Follow Federal
             Requirements Regarding Its Turnkey III
             Homeownership Program Units’ Sales
             Proceeds, Terre Haute, IN



                                                                                   Appendix 3 - Tables
162
            Report                        Report title                   Issue       Decision      Final
            number                                                        date        date         action

         2009-DP-0006       Review of HUD’s Web Application            09/29/2009   12/17/2009   09/30/2011
                            Systems

         2009-AT-1015       The Puerto Rico Public Housing             09/30/2009   01/27/2010   04/15/2011
                            Administration Mismanaged Its
                            Capital Fund Financing Program and
                            Inappropriately Obligated $32 Million in
                            Recovery Act Funds, San Juan, PR

         2009-CH-0003 HUD’s Oversight of FHA Lenders         09/30/2009             03/02/2010   11/30/2010
                      Underwriting of Home Equity Conversion
                      Mortgages Was Generally Adequate

         2009-CH-1019 The Michigan State Housing Development 09/30/2009             01/27/2010   02/01/2012
                      Authority Failed To Operate Its Section 8
                      Project-Based Voucher Program According
                      to HUD’s and Its Requirements, Lansing,
                      MI

         2009-CH-1020 The City of Flint Lacked Adequate                09/30/2009   01/27/2010   10/01/2010
                      Controls over Its Commitment and
                      Disbursement of HOME Investment
                      Partnerships Program Funds, Flint, MI

         2009-DP-0007       Review of Selected Controls within the   09/30/2009     03/26/2010     Note 2
                            Disaster Recovery Grant Reporting System

         2009-DP-0008       Review of Recovery Act Management and      09/30/2009   01/12/2010   12/31/2010
                            Reporting System

         2009-FW-1016       The Texas Department of Housing and        09/30/2009   01/26/2010   11/30/2010
                            Community Affair’s Disaster Recovery
                            Action Plan Needs Improvement, Austin,
                            TX

         2009-SE-0004       Controls over FHA’s Single-Family Lender 09/30/2009     01/27/2010     Note 2
                            Approval Process Need Improvement




      Appendix 3 - Tables
                                                                                                          163
               Significant audit reports issued within the past 12 months
                  that were described in previous semiannual reports
                       on which final action had not been completed
                                as of September 30, 2010

  Report                     Report title                   Issue       Decision        Final
  number                                                     date        date           action

2010-PH-1002   The Philadelphia Housing Authority      10/06/2009      12/03/2009     11/30/2010
               Needs To Improve Its Controls over
               Housing Assistance Payments,
               Philadelphia, PA
               	
2010-NY-1002   Jersey Mortgage Company Did Not         10/09/2009      03/19/2010    10/09/2010
               Always Comply with HUD/FHA Loan
               Underwriting Requirements, Cranford, NJ

2010-BO-1001   The State of Connecticut Department of     11/02/2009   03/01/2010    10/29/2010
               Social Services’ Section 8 Housing Units
               Did Not Always Meet HUD’s Housing
               Quality Standards, Hartford, CT

2010-FW-0001   HUD Did Not Maintain Documentation         11/10/2009   01/08/2010    10/31/2010
               To Determine whether Public Housing
               Agencies Took Corrective Action on its
               January 7, 2008 Memorandum and Public
               Housing Agencies Paid an Estimated $7
               Million for Deceased Tenants

2010-LA-0001   HUD’s Performance-Based Contract           11/12/2009   03/12/2010     01/01/2011
               Administration Contract Was Not Cost
               Effective

2010-FO-0002   Audit of the FHA’s Financial Statements    11/13/2009   03/05/2010     01/31/2011
               for Fiscal Years 2009 and 2008

2010-FO-0003   Additional Details To Supplement Our       11/16/2009   04/02/2010    10/26/2010
               Report on HUD’s Fiscal Years 2009 and
               2008 Financial Statements

2010-AT-1801   Miami-Dade County Needs To Strengthen      11/20/2009   03/15/2010     11/19/2010
               Controls over Its NSP, Miami, FL

2010-BO-1002   The City of Holyoke, Office of Community 11/23/2009     09/30/2010     04/01/2011
               Development, Needs To Improve Its
               Administration of HOME- and CDBG-
               Funded Housing Programs, Holyoke, MA

2010-CH-1003 The Grand Rapids Housing Commission          11/24/2009   03/22/2010     10/01/2011
             Needs To Improve Its Administration
             of Its Section 8 Project-Based Voucher
             Program, Grand Rapids, MI


                                                                                    Appendix 3 - Tables
164
            Report                        Report title                   Issue       Decision      Final
            number                                                        date        date         action

         2010-NY-1004       Ark Mortgage, Incorporated, Did Not        11/24/2009   04/02/2010   11/30/2010
                            Always Comply with HUD/FHA
                            Loan Origination Requirements, North
                            Brunswick, NJ
                            	
         2010-LA-1003       City of Los Angeles’ Community             12/04/2009   03/11/2010   12/04/2010
                            Development Department Projects
                            Did Not Comply with CDBG Program
                            Requirements, Los Angeles, CA

         2010-AT-1802       The City of Atlanta Needs To Improve       12/14/2009   02/03/2010   12/13/2010
                            Certain Aspects of Its NSP To Meet the
                            Program’s 18-Month Obligation Deadline,
                            Atlanta, GA

         2010-AO-0801 HUD Needs To Ensure That the Housing             12/15/2009   04/19/2010   04/30/2012
                      Authority of New Orleans Strengthens
                      Its Capacity To Adequately Administer
                      Recovery Funding

         2010-AO-1001 Mississippi Development Authority Did            12/15/2009   04/27/2010     Note 2
                      Not Always Ensure Compliance under Its
                      Public Housing Program, Jackson, MS

         2010-PH-1801       Audit of the Scranton Housing Authority,   12/17/2009   02/23/2010   01/31/2011
                            Scranton, PA

         2010-DE-1001       Kier Paid or Recorded Ineligible Costs  12/18/2009      02/24/2010   11/08/2010
                            and Did Not Properly Compute Subsidies,
                            Denver, CO

         2010-NY-1005       The City of Paterson Did Not Always        12/18/2009   03/19/2010   03/03/2011
                            Administer Its CDBG Program in
                            Accordance with HUD Requirements,
                            Paterson, NJ

         2010-NY-1006       SFDS Development Corporation Had           12/22/2009   01/13/2010   11/16/2010
                            Weaknesses in Its Financial, Procurement
                            and Administrative Controls, New York,
                            NY

         2010-LA-1004       Although the County of Riverside Had      12/29/2009    04/26/2010   12/29/2010
                            Sufficient Overall Capacity, It Lacked
                            Necessary Controls To Administer Its NSP,
                            Riverside, CA




      Appendix 3 - Tables
                                                                                                           165
  Report                      Report title                   Issue       Decision        Final
  number                                                      date        date           action

2010-AO-1002 State of Louisiana Did Not Always Ensure 01/04/2010        05/14/2010     11/05/2010
             Compliance Under Its Recovery Workforce
             Training Program, Baton Rouge, LA
             	
2010-CH-1801 Wayne County Needs To Improve Its        01/12/2010        05/12/2010    10/01/2010
             Capacity To Effectively and Efficiently
             Administer Its NSP, Wayne County, MI

2010-NY-1802   Control Weaknesses at the Syracuse          01/14/2010   03/04/2010     08/31/2011
               Housing Authority May Affect Its
               Capacity To Administer American
               Recovery and Reinvestment Act Funds,
               Syracuse, NY

2010-LA-1005   The Department of Hawaiian Home Lands 01/19/2010         04/09/2010     04/09/2011
               Generally Had Capacity To Manage;
               However, It Needs To Improve Controls
               Over Its Administration of Recovery Act
               Funds, Kapolei, HI

2010-BO-1004   The City of Waterbury’s Subrecipient,       01/20/2010   03/18/2010    10/05/2010
               Waterbury Development Corporation,
               Needs To Improve Its Capacity To
               Effectively Administer Its Neighborhood
               Stabilization Program, Waterbury, CT

2010-FW-1002   The Housing Authority of the Sac and Fox    01/20/2010   04/23/2010     03/31/2011
               Nation of Oklahoma Improperly Spent
               More Than $800,000 in Contracts and Did
               Not Always Operate in Accordance with
               HUD Rules and Regulations or Its Own
               Policies, Shawnee, OK

2010-PH-1004   Residential Home Funding Corporation    01/21/2010       05/21/2010     01/11/2011
               Did Not Always Comply With HUD
               Requirements in Originating FHA-Insured
               Single-Family Loans, Gaithersburg, MD

2010-BO-1804   The City of Meriden Had Sufficient          01/27/2010   04/07/2010    10/05/2010
               Capacity To Effectively Administer Its
               NSP, Meriden, CT

2010-NY-1007   The City of Jersey City Needs To            02/02/2010   04/05/2010     04/01/2011
               Strengthen Its Controls To Ensure That
               It Will Be Able To Effectively Administer
               CDBG-R Funds, Jersey City, NJ




                                                                                     Appendix 3 - Tables
166
            Report                        Report title                   Issue       Decision      Final
            number                                                        date        date         action

         2010-LA-1007       The County of San Bernardino Had           02/11/2010   06/09/2010   12/31/2010
                            Questionable Capacity To Administer Its
                            Allocation of NSP Funds, San Bernardino,
                            CA
                            	
         2010-BO-0001       HUD Was Not Effective in Recovering the    02/18/2010   06/18/2010   05/01/2011
                            New London Housing Authority From
                            Troubled Status and Did Not Take the
                            Required Regulatory or Statutory Action

         2010-CH-1803 The State of Indiana’s Administrator             02/25/2010   06/11/2010   01/31/2011
                      Awarded NSP Funds for an Inappropriate
                      Project, Indianapolis, IN

         2010-PH-0001       HUD’s Philadelphia, PA, Homeownership 02/26/2010        06/25/2010   10/31/2010
                            Center Did Not Always Ensure That
                            Required Background Investigations Were
                            Completed for Its Contracted Employees

         2010-DE-1002       Fort Belknap Indian Community Did Not      03/07/2010   06/25/2010   06/30/2011
                            Properly Administer Its Indian Housing
                            Block Grant Funds, Harlem, MT

         2010-KC-1001       The State of Iowa Misspent CDBG Disaster 03/10/2010     09/13/2010   10/31/2012
                            Assistance Funds and Failed To Check for
                            Duplicate Benefits, Des Moines, IA

         2010-NY-1803       The New York City Housing Authority        03/12/2010   06/03/2010   06/01/2011
                            Had the Capacity To Administer Capital
                            Funds Provided Under the American
                            Recovery and Reinvestment Act, New
                            York, NY

         2010-LA-1009       DHI Mortgage Company, LTD’s                03/19/2010   07/16/2010   03/19/2011
                            Scottsdale, AZ, Branches Did Not
                            Follow FHA-Insured Loan Underwriting
                            Requirements

         2010-KC-1003       The City of East St. Louis Did Not         03/26/2010   07/22/2010   03/30/2011
                            Properly Allocate Salary and Building
                            Expenses or Properly Document Its
                            Process To Secure a Consulting Services
                            Contract, East St. Louis, IL

         2010-NY-1009       Somerset Investors Corporation Did Not     03/26/2010   06/30/2010   06/30/2011
                            Always Comply With HUD/FHA Loan
                            Underwriting Requirements, Melville, NY




      Appendix 3 - Tables
                                                                                                               167
  Report                       Report title                     Issue        Decision        Final
  number                                                         date         date           action

2010-CH-0001 The Office of Block Grant Assistance       03/29/2010          07/27/2010     06/01/2011
             Lacked Adequate Controls Over the
             Inclusion of Special Conditions in NSP
             Grant Agreements
             	
2010-AT-1002 Broward County Needs To Strengthen         03/31/2010          07/12/2010     01/01/2011
             Controls Over Its NSP, Fort Lauderdale, FL

2010-CH-1804 The City of Saginaw Needs To Improve            03/31/2010     07/21/2010    12/15/2010
             Its Capacity To Effectively and Efficiently
             Administer Its CDBG Program Under the
             ARRA, Saginaw, MI



Audits Excluded:                                           Notes:

78 audits under repayment plans                            1 Management did not meet the target date.
                                                           Target date is over 1 year old.
29 audits under debt claims collection
processing, formal judicial review,                        2 Management did not meet the target date.
investigation, or legislative solution                     Target date is under 1 year old.

                                                           3 No management decision




                                                                                         Appendix 3 - Tables
168
                                                            Table C
                                Inspector General-issued reports with questioned and
                                     unsupported costs at September 30, 2010
                                                     (thousands)

                                  Audit reports                                 Number of           Questioned   Unsupported
                                                                               audit reports          costs         costs

          A1 For which no management decision had been                                15                43,737      38,009
             made by the commencement of the reporting
        	                                                                    			 			 			
             period
        	                                                                    			 			 			
          A2 For which litigation, legislation, or investigation               5  7,247 4,599
             was pending at the commencement of the
        	                                                                    			 			 			
             reporting period
        	                                                                    			 			 			
          A3 For which additional costs were added to                          -  54  0
             reports in beginning inventory
        	                                                                    			 			 			
          A4 For which costs were added to noncost reports                     0   0  0
            B1 Which were issued during the reporting period                          63               111,475      69,793
            B2 Which were reopened during the reporting                               0                    0          0
               period
                                                                             			 		                              		
                                                       Subtotals (A+B)        83  162,513                         112,401
        	
            C For which a management decision was made                               321                39,324      31,679
              during the reporting period
        	                                                                    			 			 			
        	      (1) Dollar value of disallowed costs:          		             			 		      		
                  	    - Due HUD                                              62   7,432  6,532
                	      - Due program participants                             25  14,558  9,616
        	
               (2) Dollar value of costs not disallowed                               73                17,334      15,531
          D For which management decision had been                                    4                  7,041      4,424
            made not to determine costs until completion of
        	                                                                    		                  			 			
            litigation, legislation, or investigation
        	                                                                    	                   	            	
          E For which no management decision had been                            47                 116,148      76,298
            made by the end of the reporting period                            <102>4              <104,001>4   <64,663>4
        	
                                                                             		                  		              		
                                                                             	                   	               	



        1
          15 audit reports also contain recommendations with funds be put to better use.
        2
          1 audit report also contains recommendations with funds due program participants.
        3
          5 audit reports also contain recommendations with funds agreed to by management.
        4
          The figures in brackets represent data at the recommendation level as compared to the report level.
        See Explanations of Tables C and D.




      Appendix 3 - Tables
                                                                                                                                  169
                                                 Table D
                    Inspector General-issued reports with recommendations
                     that funds be put to better use at September 30, 2010
                                           (thousands)

                             Audit reports                                       Number of                Questioned
                                                                                audit reports               costs

    A1 For which no management decision had been made                                  17                  618,633
       by the commencement of the reporting period
	                                                                          			                       				
  A2 For which litigation, legislation, or investigation                     1                         2,957
     was pending at the commencement of the reporting
	                                                                          			                       				
     period
	                                                                          			                       				
  A3 For which additional costs were added to reports in                     -                        58,637
     beginning inventory
	                                                                          			                       				
  A4 For which costs were added to noncost reports                           0                         0
    B1 Which were issued during the reporting period                                   38                  166,499
    B2 Which were reopened during the reporting period                                  0                      0
                                                    Subtotals (A+B)                    56                  846,726
	 C For which a management decision was made during     251                                                625,214
    the reporting period
	                                                     			                                            				
	   (1) Dollar value of disallowed costs: 		        	 			                                            				
    	       - Due HUD                                    82                                           580,759
      	     - Due program participants                  17                                             37,066
	
    (2) Dollar value of costs not disallowed            43                                                   7,389
  D For which management decision had been made                                         1                    2,957
    not to determine costs until completion of litigation,
	                                                                          		                        			
    legislation, or investigation
	                                                                          	                         	
  E For which no management decision had been made                            30                        218,555
    by the end of the reporting period                                       <43>4                     <155,642>4
	
                                                                           		                        			
                                                                           	




1
  15 audit reports also contain recommendations with questioned costs.
2
  1 audit report also contains recommendations with funds due program participants.
3
  3 audit reports also contain recommendations with funds agreed to by management.
4
  The figures in brackets represent data at the recommendation level as compared to the report level. 	
See Explanations of Tables C and D.




                                                                                                            Appendix 3 - Tables
170
        Explanations of Tables C and D
            The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report
        cost data on management decisions and final actions on audit reports. The current method of reporting at
        the “report” level rather than at the individual audit “recommendation” level results in misleading reporting
        of cost data. Under the Act, an audit “report” does not have a management decision or final action until all
        questioned cost items or other recommendations have a management decision or final action. Under these
        circumstances, the use of the “report” based rather than the “recommendation” based method of reporting
        distorts the actual agency efforts to resolve and complete action on audit recommendations. For example,
        certain cost items or recommendations could have a management decision and repayment (final action) in
        a short period of time. Other cost items or nonmonetary recommendation issues in the same audit report
        may be more complex, requiring a longer period of time for management’s decision or final action. Although
        management may have taken timely action on all but one of many recommendations in an audit report, the
        current “all or nothing” reporting format does not take recognition of their efforts.

            The closing inventory for items with no management decision on tables C and D (line E) reflects figures
        at the report level as well as the recommendation level.

                                                           ppp




      Appendix 3 - Tables
Appendix 4
  Index
172
          State                  Page numbers

        Alabama			               19, 52, 54, 69
        Arizona			               28, 46, 59, 116, 117
        Arkansas			              124, 134
        California			            13, 18, 19, 22, 33, 36, 50, 51, 70, 71, 75, 77, 102, 115, 116, 117, 122, 123, 124, 125
        Colorado			              12, 19, 25, 26, 43, 48, 64, 71, 86, 115, 117, 118, 120, 127, 128
        Connecticut			           21, 25, 83, 103, 115
        Delaware			              123
        District of Columbia		   72, 122, 126, 135, 137
        Florida				              12, 17, 18, 22, 26, 44, 47, 52, 53, 67, 68, 70, 75, 76, 126
        Georgia			               20, 23, 35, 48, 72, 102, 116, 119, 121, 127
        Hawaii				               126
        Idaho				                25, 119
        Illinois				             20, 22, 24, 27, 34, 45, 47, 50, 51, 67, 101, 107, 114, 115, 116, 117, 118, 127
        Indiana			               26, 36, 43, 46, 49, 64, 83, 119
        Iowa				                 21
        Kansas				               12, 43, 54, 62, 77, 109
        Kentucky			              39, 53, 72, 121, 122
        Louisiana			             45, 52, 53, 55, 62, 76, 93, 94, 97, 98, 99, 100, 101, 103
        Maine				                59
        Maryland			              18, 19, 48, 54, 63, 76, 85, 116, 121, 122, 128
        Massachusetts			         20, 34, 48, 49, 50, 63, 122, 125
        Michigan			              14, 27, 28, 35, 44, 53, 54, 76, 119
        Minnesota			             115
        Mississippi			           52, 97, 99, 100, 101
        Missouri			              20, 21, 24, 44, 45, 54, 62, 89, 117, 119, 120, 123, 124, 125, 126, 135
        Montana			               44, 87
        Nebraska			              86
        Nevada			                50, 72, 123, 124, 128
        New Hampshire		          12, 121
        New Jersey			            18, 19, 22, 23, 24, 43, 51, 52, 67, 76, 124
        New Mexico			            127



      Appendix 4 - Index
                                                                                                                  173
 State             Page numbers

New York			        22, 23, 24, 26, 27, 39, 40, 45, 46, 48, 49, 54, 62, 63, 76, 77, 84, 114, 119, 120, 121, 	
				               123, 125, 126
North Carolina		   25, 39, 82, 116
North Dakota			    118
Ohio				           13, 14, 21, 37, 46, 50, 54, 59, 90, 120, 121, 124, 125
Oklahoma			        85, 118
Pennsylvania			    17, 26, 33, 38, 46, 49, 87
Puerto Rico			     38, 55, 68, 69, 136
Rhode Island			    23, 122
South Carolina		   20, 23, 64, 114
South Dakota			    46, 121
Tennessee			       24, 44, 52, 71, 114, 115
Texas				          17, 21, 25, 40, 43, 44, 45, 46, 51, 102, 103, 109, 115, 117, 118, 123, 125
Utah				           18, 27, 49, 77, 84, 123
Vermont			         118                        
Virginia			        13, 20, 120, 128
Washington			      23, 119, 122, 125, 127		


                                          ppp




                                                                                             Appendix 4 - Index
     HUD OIG
Operations Telephone
       Listing
176
        Office of Audit
        Headquarters Office of Audit, Washington, DC					     202-708-0364
        Region 1			                  Boston, MA						         617-994-8380			
        				                         Hartford, CT						       860-240-4800		
        Region2			                   New York, NY						       212-264-4174			
        				                         Albany, NY						         518-464-4200			
        				                         Buffalo, NY						        716-551-5755			
        				                         Newark, NJ						         973-622-7900
        Region 3			                  Philadelphia, PA					    215-656-0500			
        				                         Baltimore, MD						      410-962-2520			
        				                         Pittsburgh, PA						     412-644-6372			
        				                         Richmond, VA						       804-771-2100
        Region 4			                  Atlanta, GA						        404-331-3369			
        				                         Miami, FL						          305-536-5387			
        				                         Greensboro, NC					      336-547-4001			
        				                         Jacksonville, FL					    904-232-1226			
        				                         Knoxville, TN						      865-545-4369			
        				                         San Juan, PR						       787-766-5202
        Region 5			                  Chicago, IL						        312-353-7832			
        				                         Columbus, OH					        614-469-5745			
        				                         Detroit, MI						        313-226-6190			
        				                         Minneapolis, MN					     612-370-3000
        Region 6			                  Fort Worth, TX					      817-978-9309			
        				                         Houston, TX						        713-718-3199			
        				                         Oklahoma City, OK					   405-609-8606			
        				                         San Antonio, TX					     210-475-6898
        Regions 7/8/10		             Kansas City, KS					     913-551-5870			
        				                         St. Louis, MO						      314-539-6339			
        				                         Denver, CO						         303-672-5452 			
        				                         Seattle, WA						        206-220-5360
        Regions 9			                 Los Angeles, CA					     213-894-8016			
        				                         Phoenix, AZ						        602-379-7250			
        				                         San Francisco, CA					   415-489-6400			
        				                         Sacramento, CA					      415-489-6400		
        Region 11			                 New Orleans, LA					     504-671-3715			
        				                         Jackson, MS						        601-965-4700


                                               ppp




      HUD OIG Operations Telephone Directory
                                                                                             177
Office of Investigation
Headquarters Office of Investigation, Washington, DC				       202-708-0390
Region 1				               Boston, MA					                     617-994-8450			
					                      Hartford, CT					                   860-240-4800			
					                      Manchester, NH				                  603-666-7988
Region 2				               New York, NY					                   212-264-8062			
					                      Buffalo, NY					                    716-551-5755		
Region 3				               Philadelphia, PA				                215-656-0500			
					                      Newark, NJ					                     973-776-7347 			
					                      Pittsburgh, PA					                 412-644-6598		
Region 4				               Atlanta, GA					                    404-331-3359			
					                      Birmingham, AL				                  205-731-2630			
					                      Columbia, SC					                   803-451-4320			
					                      Knoxville, TN					                  865-545-4369			
					                      Louisville, KY					                 502-618-8127			
					                      Memphis, TN					                    901-229-6997			
					                      Nashville, TN					                  615-426-6171
Region 5				               Chicago, IL					                    312-353-4196			
					                      Indianapolis, IN				                317-226-5427			
					                      Minneapolis/St. Paul, MN			         612-370-3000
Region 6				               Arlington, TX					                  817-978-5440			
					                      Houston, TX					                    713-718-3196			
					                      Little Rock, AR				                 501-353-8115			
					                      Oklahoma City, OK				               405-609-8601			
					                      San Antonio, TX				                 210-475-6819
Regions 7/8				            Kansas City, KS				                 913-551-5866			
					                      Denver, CO					                     303-672-5350			
					                      Salt Lake City, UT				              801-524-6090			
					                      St. Louis, MO					                  314-539-6559
Regions 9				              Los Angeles, CA				                 213-894-0219			
					                      Las Vegas, NV					                  702-336-2144			
					                      Phoenix, AZ					                    602-379-7255
Region 10				              Seattle, WA					                    206-220-5380			
					                      Billings, MT					                   406-247-4080			
					                      Sacramento, MT				                  916-930-5691			
					                      San Francisco, CA				               415-489-6683
Region 11				              New Orleans, LA				                 504-671-3701			
					                      Baton Rouge, LA				                 225-334-4913 			
					                      Hattiesburg, MS				                 601-299-4279			
					                      Jackson, MS					                    601-965-5772
Region 13				              Baltimore, MD					                  410-962-4502			
					                      Greensboro, NC				                  336-547-4000			
					                      Richmond, VA					                   804-771-2100



                                                    HUD OIG Operations Telephone Directory
178
        Region 14				                          Tampa, FL					         813-228-2026			
        					                                  Jacksonville, FL				   904-208-6126			
        					                                  Miami, FL					         305-536-3087			
        					                                  San Juan, PR					      787-766-5868
        Region 15				                          Detroit, MI					       313-226-6280			
        					                                  Cleveland, OH				      216-522-4421			
        					                                  Columbus, OH				       614-469-6677			
        					
                                                     ppp

        						




      HUD OIG Operations Telephone Directory
   Report fraud, waste, and mismanagement in HUD
              programs and operations by

        Calling the OIG hotline: 1-800-347-3735

         Faxing the OIG hotline: 202-708-4829

          Sending written information to
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
               Washington, DC 20410

    E-mailing the OIG hotline: hotline@hudoig.gov

Internet:http://www.hud.gov/complaints/fraud_waste.cfm

            All information is confidential,
           and you may remain anonymous.
Semiannual Report to Congress
April 1, 2010, through September 30, 2010

www.hud.gov/offices/oig

No. 64
